<html>
<title> - H.R. 3334, H.R. 3391 and S. 212</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                    H.R. 3334, H.R. 3391 and S. 212

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 30, 2003

                               __________

                           Serial No. 108-74

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

90-157              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

George Radanovich, California        Calvin M. Dooley, California
Greg Walden, Oregon                  Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Raul M. Grijalva, Arizona
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Tom Osborne, Nebraska                George Miller, California
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Stevan Pearce, New Mexico            Joe Baca, California
Devin Nunes, California              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 30, 2003.......................     1

Statement of Members:
    Bingaman, Hon. Jeff, a U.S. Senator from the State of New 
      Mexico.....................................................    10
        Prepared statement of....................................    11
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, Prepared statement of.......................    55
    Moran, Hon. Jerry, a Representative in Congress from the 
      State of Kansas............................................     6
        Prepared statement of....................................     7
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     5
        Prepared statement of....................................     5
    Neugebauer, Hon. Randy, a Representative in Congress from the 
      State of Texas.............................................    18
        Prepared statement of....................................    19
    Stenholm, Hon. Charles W., a Representative in Congress from 
      the State of Texas, Prepared statement of..................    34
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................    16
        Prepared statement of....................................    17

Statement of Witnesses:
    Allison, Dr. Lee, Director and State Geologist, Kansas 
      Geological Survey..........................................    70
        Prepared statement on S. 212.............................    71
    Arthur, Lloyd, American Farm Bureau Federation and the Texas 
      Farm Bureau, Ralls, Texas..................................    67
        Prepared statement on S. 212.............................    68
    Carman, John, General Manager, Metropolitan Water District of 
      Salt Lake and Sandy........................................    49
        Prepared statement on H.R. 3391..........................    51
    Christiansen, Don, General Manager, Central Utah Water 
      Conservancy District.......................................    52
        Prepared statement on H.R. 3391..........................    54
    Conkwright, Jim, Manager, High Plains Underground Water 
      District No. 1. Lubbock, Texas.............................    87
        Prepared statement on S. 212.............................    89
    Cunnison, Elizabeth L., Director Representing Division 2, 
      Western Municipal Water District...........................    44
        Prepared statement on H.R. 3334..........................    46
    Favila, Irene, City Councilwoman and Workforce Development 
      Coordinator, Plainview, Texas..............................    60
        Prepared statement on S. 212.............................    62
    Hirsch, Robert, Assistant Director of Water Resources, U.S. 
      Geological Survey..........................................    31
        Prepared statement on S. 212.............................    33
    Keys, John, III, Commissioner, Bureau of Reclamation, U.S. 
      Department of the Interior.................................    26
        Prepared statement on H.R. 3334..........................    27
        Prepared statement on H.R. 3391..........................    28
    Tillman, Leland D., Executive Director, Eastern Plains 
      Council of Governments.....................................    64
        Prepared statement on S. 212.............................    65
    Wall, Scott, National Corn Growers Association, Yuma, 
      Colorado...................................................    84
        Prepared statement on S. 212.............................    86
    Wicke, Ben, Director, Elsinore Valley Municipal Water 
      District...................................................    47
        Prepared statement on H.R. 3334..........................    47

Additional materials supplied:
    CRS report on the High Plains Aquifer submitted for the 
      record by The Honorable Randy Neugebauer...................    21
    Map of Riverside/Corona Feeder submitted for the record by 
      The Honorable Ken Calvert..................................     4
    Neugebauer, Hon. Randy, et al., Letter to Chairman Richard 
      Pombo and Chairman Ken Calvert submitted for the record....    98


  LEGISLATIVE HEARING ON H.R. 3334, TO AUTHORIZE THE SECRETARY OF THE 
     INTERIOR TO PARTICIPATE IN THE DESIGN AND CONSTRUCTION OF THE 
RIVERSIDE-CORONA FEEDER IN COOPERATION WITH THE WESTERN MUNICIPAL WATER 
 DISTRICT OF RIVERSIDE, CALIFORNIA; H.R. 3391, THE PROVO RIVER PROJECT 
TRANSFER ACT; AND S. 212, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO 
     COOPERATE WITH THE HIGH PLAINS AQUIFER STATES IN CONDUCTING A 
 HYDROGEOLOGIC CHARACTERIZATION, MAPPING, AND MODELING PROGRAM FOR THE 
              HIGH PLAINS AQUIFER, AND FOR OTHER PURPOSES.

                              ----------                              


                       Thursday, October 30, 2003

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 1334, Longworth House Office Building, Hon. Ken Calvert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Calvert, Napolitano, Tancredo, 
Inslee, Grijalva, Osborne, Renzi and Nunes.
    Also Present: Representatives Cannon, Tom Udall, Neugebauer 
and Moran

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. First, let me apologize to the witnesses and 
our guests today. We will have a vote in a few minutes. So when 
that occurs, we will recess and come back and reconvene the 
hearing.
    The Subcommittee is meeting today to hear testimony on H.R. 
3334, a bill that I authored to authorize the Secretary of 
Interior to participate in the design and construction of the 
Riverside-Corona Feeder in cooperation with the Western 
Municipal Water District of Riverside, California; H.R. 3391, 
the Provo River Project Transfer Act, authored by our 
colleague, Chris Cannon; and Senate Bill 212, Senator Jeff 
Bingaman's bill, to authorize the Secretary of Interior to 
cooperate with the High Plains Aquifer States in conducting a 
Hydrogeologic Characterization, Mapping, and Modeling Program 
for the High Plains Aquifer and other purposes.
    Mr. Calvert. Before we get underway with the opening 
statements, I ask unanimous consent for Representatives Randy 
Neugebauer and Tom Udall, members of the Resources Committee, 
to sit on the dais when they come to the Committee.
    Without objection, so ordered.
    This Subcommittee continues to look at ways to improve 
water delivery to our communities, eliminate unnecessary 
bureaucracy and improve the coordination of all levels of 
Government. Today, we will hear three bills aimed at achieving 
these goals.
    The bill that I introduced, the Riverside-Corona Feeder 
Authorization Act, will capture and store water in wet years to 
increase the firm water supplies and improve water quality 
through the construction of wells and a new pipeline. This is a 
win-win scenario that will reduce Southern California's 
reliance on imported Colorado River and improve water 
reliability.
    The Subcommittee is privileged to have one of my Riverside 
constituents, Elizabeth Cunnison, of the Western Municipal 
Water District, here before us today to testify on this bill. 
In addition, I am also pleased to have Ben Wicke, of the 
Elsinore Valley Water District, with us also today.
    My colleague Chris Cannon's bill will also improve water 
reliability by eliminating unnecessary bureaucracy and costs 
through a title transfer of the Provo River Project to local 
users. I continue to support the concept of title transfers and 
hope that the Bureau of Reclamation will improve the general 
framework of title transfers. I understand the Administration 
will not testify on this bill today since the bill was just 
very recently introduced. The Subcommittee would appreciate 
written testimony, however, from the Bureau within 10 working 
days.
    Finally, we will hear testimony on Senator Bingaman's bill 
on the High Plains Aquifer. Senator Bingaman has a worthy goal 
in seeking to coordinate Federal, State and local Government 
efforts on the High Plains Aquifer, but some have questioned 
whether legislation is needed to accomplish the bill's 
objectives.
    Many have also raised concerns that the bill reinvents the 
wheel by duplicating current programs and the bill would be a 
camel's nose under the tent for Federal groundwater regulation. 
All of these concerns are embodied in a letter from six of our 
colleagues, sent to Chairman Pombo and myself last week.
    We will hear from both sides of the bill today, but this 
fact remains clear to me: No one has a good accounting of how 
much and what to do and to what extent funds are being spent on 
the High Plains Aquifer or defining whether current programs 
are meeting their intended objectives. In fact, the recent 
congressional research report identifies a number of Federal 
and State programs that are being implemented and coordinated 
to benefit the High Plains Aquifer.
    Yes, this bill seeks to further coordinate such activities, 
but I believe it is a good idea to look at the big picture 
first in determining whether this bill is necessary when the 
authorities and coordination may already exist. If we march 
forward with the concept of this bill, we must find clear 
answers first before we create a new $90-million program that 
will compete with other priorities. The American taxpayer 
deserves nothing less.
    For this reason, I will ask the Administration and other 
parties to engage in an extensive cross-cut budget exercise. 
Similar to the CALFED cross-cut budget, this budget will detail 
ongoing programs, expenditures, successes and the level of 
coordination. Everyone agrees the goal of better 
intergovernment, but we shouldn't pass costly legislation until 
we have a better idea of what is out there right now. I believe 
this cross-cut budget is the first logical step in that 
direction.
    With that, I want to thank my colleagues and witnesses for 
being here today and look forward to today's testimony.
    I would now like to recognize my good friend, Mrs. 
Napolitano, the Ranking Democrat member, for any opening 
statements she may have.
    [The prepared statement of Mr. Calvert follows:]

 Statement of The Honorable Ken Calvert, a Representative in Congress 
    from the State of California, on S. 212, H.R. 3334 and H.R. 3391

    This Subcommittee continues to look at ways to improve water 
delivery to our communities, eliminate unnecessary bureaucracy, and 
improve the coordination of all levels of government.
    Today, we will hear three bills aimed at achieving these goals. My 
bill, the Riverside-Corona Feeder Authorization Act, will capture and 
store water in wet years to increase firm water supplies and improve 
water quality through construction of wells and a new pipeline. This is 
a win-win scenario that will reduce southern California's reliance on 
imported Colorado River water and improve water reliability. The 
Subcommittee is privileged to have one of my Riverside constituents, 
Elizabeth Cunnison of the Western Municipal Water District, here before 
us today to testify on this bill.
    My colleague Chris Cannon's bill would also improve water 
reliability by eliminating unnecessary bureaucracy and costs through a 
title transfer of the Provo River Project to the local users. I 
continue to support the concept of title transfers and hope that the 
Bureau of Reclamation will improve the general framework of title 
transfers. I understand the Administration will not testify on this 
bill today since it was just introduced. The Subcommittee would 
appreciate written testimony, however, from the Bureau within the next 
10 days on this important bill.
    Finally, we will hear testimony on Senator Bingaman's bill to map, 
model and monitor the High Plains Aquifer. Senator Bingaman has a 
worthy goal of seeking to coordinate federal, state and local 
governmental efforts on the High Plains Aquifer, but some have 
questioned whether legislation is needed to accomplish the bill's 
objectives. Many have also raised concerns that the bill reinvents the 
wheel by duplicating current programs and that the bill could be the 
camel's nose under the tent for federal groundwater regulation. All of 
these concerns are embodied in a letter from six of our colleagues sent 
to Chairman Pombo and myself last week.
    We will hear from both sides of the bill today, but this fact 
remains clear to me: No one has a good accounting of how much, and to 
what extent, funds are being spent on the High Plains Aquifer or 
defining whether programs are meeting their intended objectives. In 
fact, a recent Congressional Research Service report identifies a 
number of federal and state programs that are being implemented and 
coordinated to benefit the High Plains Aquifer. Yes, this bill seeks to 
further coordinate such activities, but I believe it's a good idea to 
look at the big picture in determining whether this bill is necessary 
when the authorities and coordination may already exist. If we march 
forward with the concept of this bill, we must find clear answers first 
before we create a new 90 million dollar program that will compete with 
other priorities. The American taxpayer deserves nothing less.
    For this reason, I will ask the Administration and other parties to 
engage in an extensive cross-cut budget exercise. Similar to the CALFED 
cross-cut budget, this budget will detail ongoing programs, 
expenditures, successes and the level of coordination. Everyone agrees 
with the goal of better intergovernmental cooperation, but we shouldn't 
pass costly legislation until we have a better idea of what's out there 
now. I believe this cross-cut budget is the first logical step in that 
direction.
    With that, I want to thank my colleagues and the witnesses for 
being here today and look forward to today's testimony.
                                 ______
                                 
    [A map of the Riverside/Corona Feeder submitted for the 
record by The Honorable Ken Calvert follows:]

[GRAPHIC] [TIFF OMITTED] T0157.005

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman. For brevity's 
sake, since I think we are going to have a vote momentarily, I 
thank you for the hearing on these very important bills and 
thanks to the witnesses who traveled to be here to be part of 
this hearing.
    You talk about the Cannon bill being recently introduced 
yesterday, and I am with you in that, since the Administration 
was not able to opine on it, I still have reason to think that 
maybe we should sit on it for another day or two and put it up 
next week, but you have already introduced it. So I guess we 
will listen to it today while the witnesses are here.
    I do have questions on that particular piece of 
legislation, and I think it is important that we have the views 
of the Administration on this particular bill and also we want 
to ensure that transferring ownership of the Bureau of 
Reclamation facilities does not interfere with our efforts to 
recover the endangered June sucker.
    I also look forward to the Administration's testimony on 
your bill, H.R. 3334, and I am very curious to learn what role, 
if any, the Bureau of Reclamation wants to play in encouraging 
Western communities to develop projects that will be essential 
during periods of drought.
    Finally, Mr. Chair, we will learn more today about one of 
our country's largest underground water suppliers, the High 
Plains Aquifer, and my understanding is this underground water 
supply directly benefits eight States, from Wyoming to Texas. 
Being a former Texan, I have a great interest in that, also. I 
look forward to hearing more about this particular water supply 
and how we can work to protect it.
    Thank you, Mr. Chairman, and I look forward to the 
testimony.
    [The prepared statement of Mrs. Napolitano follows:]

   Statement of The Honorable Grace Napolitano, a Representative in 
 Congress from the State of California on H.R. 3391, H.R. 3334 and S. 
                                  212

    Mr. Chairman, thank you for scheduling today's hearings. I also 
want to thank our witnesses for traveling to Washington to testify.
    I am aware that the Administration is not able to provide testimony 
on the Cannon bill, which was just introduced yesterday. I do have 
questions about this legislation. It is important that we have the 
views of the Administration before we give our approval to this bill. 
We will want to make sure that transferring ownership of the Bureau of 
Reclamation facilities does not interfere with our efforts to recover 
the endangered June Sucker.
    I also look forward to the Administration's testimony on the 
Chairman's bill, H.R. 3334. I am especially curious to learn what role, 
if any, the Bureau of Reclamation wants to play in encouraging western 
communities to develop projects that could be useful during droughts.
    Finally, Mr. Chairman, we will learn more today about one of the 
country's largest underground water supplies, the High Plains Aquifer. 
This underground water supply directly benefits eight states, from 
Wyoming to Texas. I look forward to hearing more about this water 
supply and how we can work to protect it.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Calvert. I thank the gentlelady.
    If we haven't asked for unanimous consent for Mr. Moran to 
join us today, I would ask so now.
    Is there any objection?
    [No response.]
    Mr. Calvert. Hearing none, so ordered.
    All of you folks from Nebraska and everybody, calm down.
    [Laughter.]
    Mr. Calvert. With that, are there any additional opening 
statements?
    [No response.]
    Mr. Calvert. Is Senator Bingaman here yet to testify? He 
will be here shortly.
    So I will recognize Congressman Jerry Moran.

STATEMENT OF THE HON. JERRY MORAN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF KANSAS

    Mr. Moran. Mr. Chairman, thank you, and thank the Ranking 
Member and the Committee for allowing me the opportunity to 
join you today and for the courtesy you have extended me to 
join you here at the dais.
    I was pleased to hear both your opening statements. I am 
here on one of the bills that you are considering related to 
the High Plains Aquifer, which Kansas is one of those eight 
States that the Ogallala Aquifer has a huge consequence to us. 
A significant part of our agricultural economy is related to 
irrigation, and the Ogallala Aquifer is the significant 
supplier of that irrigation, but it is more than just 
agriculture. Many of my communities' water supplies are served 
by the Ogallala Aquifer. Our economic growth in Kansas has 
generally followed the lines of where that Ogallala Aquifer 
provides water. And, clearly, with 4 years of drought in our 
State in the last 4 years, the Ogallala Aquifer has become even 
more significant in the role it plays in the lives of many 
Kansans.
    The Ogallala Aquifer provides 99 percent of the water 
supply for communities, businesses and homes, as well as 
agriculture production. As you indicated, it covers eight 
States. It is 174,000 square miles of land. In Kansas, it is 
33,500 square miles. It is generally that part of Kansas along 
the Colorado line up to Nebraska, about a third of the way 
across our State from west to east, in 46 counties, all of them 
in the 1st District of Kansas that I have the honor of 
representing.
    It is the lifeblood of the High Plains for us. Groundwater 
has allowed Kansas and our neighbors to function as the 
breadbasket really of the world. Irrigated crop production in 
Southwest Kansas alone generates the second-largest component 
of our State's economy, right behind aviation and the aviation 
industry generally in the Wichita area.
    Our livestock industry, there is more cattle on feed in 
Southwest Kansas in the 1st Congressional District of the 
country than any place in the country, any congressional 
district, and it is dependent upon the feed that is grown as a 
result of irrigation.
    But, unfortunately, our water supply is not endless, and 
Kansans are recognizing that fact. In fact, I think our State 
has taken serious steps, has been a leader in an effort to 
understand the Ogallala Aquifer, understand its depletion, 
understand its recharge and began to recognize, in recent 
years, the importance of taking steps to prolong the life of 
the Ogallala Aquifer. Much of our ability to do that is 
dependent upon coordination and activities with other States. 
Kansas alone cannot fully understand and appreciate the 
Ogallala Aquifer through scientific analysis, research, 
hydrology, without cooperation with the other seven States that 
have the High Plains Aquifer, and we also can't take the steps 
necessary to conserve water and increase recharge on our own. 
So Kansas is one of those States that believes that we have a 
lot to gain by coordination and involvement of our surrounding 
States, the other seven States, with the High Plains Aquifer.
    I have introduced legislation in the past on this topic, 
including a bill similar to the one that you are considering 
today. I have not introduced it in this congressional session. 
I have also introduced a larger bill that dealt with 
conservation issues as well. A number of those components were 
successfully added to the 2002 farm bill. For the first time 
EQIP funding is now available for conservation practices under 
the farm bill, under the conservation title of the farm bill, 
for purposes of encouraging less depletion of the Ogallala 
Aquifer.
    So we are taking some legislative steps. The issue before 
us today is the ability to coordinate research and mapping 
activities, analysis of the Ogallala with other States. And I 
am here to tell you that, from my perspective in representing 
Kansans, that it is an awfully important issue for us, and I 
look forward to working with this Committee, as well as State 
authorities, to make certain that legislation that we may pass 
in this area is one that is compatible with a desire that 
Kansans have, which is that we would like to regulate and 
manage our own resources, but we recognize that not all of the 
water is under our State, and what happens in those other seven 
States has a significant effect upon the supply of water to 
citizens of the State of Kansas.
    So I welcome your help. I heard your opening comments and 
concerns about property rights and intrusion by the Federal 
Government. You will find me to be an ally on those issues, but 
I think there is clearly an opportunity, in fact, a need for us 
to coordinate activities as we begin a more concerted effort to 
understand the relationship of the Ogallala Aquifer to its use, 
its recharge and again reiterate this is just a hugely 
significant issue to the folks whose livelihoods and 
communities depend upon this vital and important resource.
    And I thank the Chairman for allowing me the opportunity to 
speak today, and I will submit my written testimony for the 
record.
    [The prepared statement of Mr. Moran follows:]

 Statement of The Honorable Jerry Moran, a Representative in Congress 
                  from the State of Kansas, on S. 212

    Chairman Calvert, Ranking Member Napolitano, and other members of 
the Subcommittee, thank you for allowing me the opportunity today to 
testify in support of geologic research for the High Plains Aquifer. As 
members of the Water and Power Subcommittee, I know that you understand 
the importance of one of our most critical natural resources: water. 
Water quality and quantity are among the most serious environmental 
issues we face. A reliable source of water is essential to maintain our 
quality of life and to preserve that quality of life for future 
generations.
    Like the Kansans I represent, I know that you also appreciate the 
need for conservation of this resource, especially in scarce areas such 
as western Kansas and the other regions that rely on the limited 
groundwater supply of the Ogallala Aquifer. I want to discuss with you 
today how this particular water source exemplifies the need for sound 
scientific information as a basis to preserve and extend the life of 
the water supply for years to come.
The High Plains Aquifer and Kansas
    In the High Plains region of the United States, one groundwater 
source, the Ogallala Aquifer, provides 99% of the water supply for 
communities, businesses, homes, and agricultural production. Eight 
states are served by the aquifer: Kansas, Nebraska, South Dakota, 
Wyoming, Colorado, Oklahoma, New Mexico and Texas. The aquifer 
underlies 174,000 square miles of land--that's an area more than 5 
times greater than the world's largest freshwater lake and over 150% 
larger than the surface area of all 5 Great Lakes combined.
    In Kansas, the Ogallala underlies 33,500 square miles of 46 
counties, all in the First Congressional District. Ogallala groundwater 
is the source of over 99% of reported water use in southwest Kansas.
History of High Plains Water Use
    Because of its significance to economic development, water is the 
lifeblood of the High Plains. The primary user of water is agriculture, 
which is the backbone of the western Kansas economy and many other 
rural economies.
    Groundwater has allowed Kansas and our neighbors to function as the 
breadbasket of the U.S. The irrigated crop production in southwest 
Kansas alone generates the second strongest segment of our state's 
economy, second only to aviation. Across the 8-state High Plains 
regions, approximately 170,000 wells pump aquifer groundwater to 
irrigate nearly 14 million acres of cropland. Twenty percent of all 
irrigated land in the U.S. is in the High Plains. Fifteen million acre 
feet of groundwater, about 30% of the total used for irrigation 
nationwide, is pumped annually from the High Plains Aquifer.
    In addition to supporting crop production, the aquifer is the water 
source for the largest concentration of beef production in North 
America. Not only crops, but also America's livestock industry depends 
on the High Plains Aquifer.
    Many years ago, this underground sea of water seemed endless. More 
recently, however, we have learned that this is not the case. The water 
supply is finite, and, because of the heavy reliance upon this primary 
source and the rate of usage, the end of the supply is a concern for 
many High Plains residents. Today, the estimated life of the aquifer 
for irrigation, at current usage rate, is less than 25 years.
The Need for Coordinated Efforts to Preserve the Aquifer
    Kansas has long been a leader in research to determine the supply, 
usage and rate of recharge of water in the High Plains Aquifer. The 
Kansas Department of Agriculture's Division of Water Resources, along 
with the Kansas Water Office, the Kansas Geologic Survey, the Kansas 
Association of Groundwater Management Districts, and numerous appointed 
and volunteer task forces made up of producers, community leaders, 
hydrologists, and geologists, have recognized the problems of water 
decline and have taken proactive steps to slow the rate of usage and 
extend the life of the aquifer.
    However, despite efforts undertaken by the State of Kansas to 
manage our portion of the High Plains Aquifer, a tremendous need for 
hard scientific data about the aquifer remains. Since the aquifer 
crosses the borders of 8 states, it is crucial to have information 
about its hydrologic and geologic interdependence.
Past and Potential Legislative Action
    Because rural communities, and in a broader sense, American 
agriculture, depend on the High Plains Aquifer, we need to invest in 
its future. A coordinated research effort involving all 8 states would 
be a useful first step in assessing the overall condition of the 
aquifer.
    The bill that is the subject of today's hearing is similar to 
legislation, H.R. 5486, that I introduced almost one year ago. That 
legislation was supported by the entire Kansas delegation, but no 
action was taken prior to the end of the 107th Congress.
    The content of H.R. 5486 was a provision in a more comprehensive 
water conservation bill, H.R. 3121, that I introduced in 2001. In the 
2002 Farm Bill, the conservation incentives for agriculture producers 
that were a major focus of H.R. 3121 were incorporated into the Ground 
and Surface Water Conservation portion of the Environmental Quality 
Incentives Program administered by the U.S. Department of Agriculture. 
However, the research component of H.R. 3121 was not included in the 
Farm Bill because it was not under the Agriculture Committee's 
jurisdiction, so it was introduced as a separate free standing bill.
    There is a continued need for legislation which would allow the 
High Plains states to work together to conduct comprehensive interstate 
research on the health of the entire aquifer. I would welcome the help 
of my High Plains colleagues in developing legislation that benefits 
each of our districts while at the same time preserving the water 
supply that serves us all.
    I understand that there may be concerns about the involvement of 
the Federal government in water issues that are so critical to our 
states, and I share those concerns. However, I believe that it is 
possible to craft legislation that accomplishes the intent of enhanced 
research without unnecessarily intruding on private landowners' rights 
or issues over which states have primary authority. It is the intent of 
all Kansans to manage our own state's water supplies in a responsible 
manner, but, in this instance, where water flow does not stop at the 
state lines, some regional coordination is required.
    Mr. Chairman, for the hearing record, I would like to submit on 
behalf of my constituents their letters of support for High Plains 
Aquifer research. Included are statements from the Ogallala Aquifer 
Institute, located in Garden City, Kansas; and a letter from the Board 
of Directors of Southwest Kansas Groundwater Management District #3, 
which is the second largest such district in the nation.
    In conclusion, Mr. Chairman, I would again like to thank you and 
other members of the Committee for allowing me to testify, especially 
to those members who also represent districts in the High Plains 
Aquifer. Those of us from the High Plains live in a constant struggle 
to access enough water for the survival of our farms, businesses, and 
communities. Only by working together can we attempt to address the 
problems of a scarce water supply.
    I look forward to working with members of the Committee on this 
concept of enhanced geologic research for the High Plains Aquifer. 
Thank you again.
                                 ______
                                 
    Mr. Calvert. Without objection. Thank you.
    What we scheduled to do is to have Senator Bingaman's 
testimony and then your testimony, Mr. Moran, and then we were 
going to have questions from the panel. So we may have a 
question or two, and hopefully I understand Senator Bingaman is 
on his way over here right now.
    I would add just one question. There are a number of 
Federal programs, as you are very well aware, involved with the 
High Plains Aquifer. In fact, I guess I would ask this 
question. Is there any impediment today that you know of that 
would keep or preclude the States and the Federal agencies from 
cooperating right now on this data?
    Mr. Moran. I see this type of legislation as an 
encouragement to States to cooperate, and of course the 
impediment I think is not legal. I think, generally, there is 
no question, but that the eight States involved in the High 
Plains Aquifer can cooperate, can move forward in additional 
activities together, but the resources, the boundaries, the 
different economic interests and I would guess, in large part, 
a lack of resources and coordination, in fact, steps have been 
taken, the Kansas Geological Survey, and you have a witness on 
your panel, Dr. Lee Allison, from the Kansas Geological Survey, 
who can testify to these issues, but steps have been taken by 
these eight States already, with their geological surveys and 
their water authorities, to begin the process of coordination 
of the scientific research.
    So I am not certain that there are legal impediments. I 
think it is a matter of coordination, developing the structure, 
and having mutual interests, as well as the dollars necessary, 
to complete those activities.
    Mr. Calvert. I see that Senator Bingaman has arrived. I 
know that the Senator is busy, so we will be more than happy to 
recognize the Senator for his opening statement.

 STATEMENT OF JEFF BINGAMAN, A UNITED STATES SENATOR FROM THE 
                      STATE OF NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman, for 
giving me just a few minutes, and I appreciate you having a 
hearing on this important issue in this bill, S. 212. I think 
this is bipartisan legislation. Senator Brownback and Senator 
Domenici are cosponsoring the bill with me in the Senate. I 
believe it is an important issue for us to try to address. It 
would establish this cooperative science program related to the 
High Plains Aquifer, which is comprised, in large part, by the 
Ogallala Aquifer.
    Now, we have a chart here that shows the various States. I 
think each of you may have seen this before this was prepared 
by the Geological Survey and shows the various States that 
overlay the Ogallala Aquifer and depend upon it. It is 
important in my State, Eastern New Mexico, in particular, 
because we have communities there that depend entirely on the 
Ogallala Aquifer for their livelihood, and we have a lot of 
farming that takes place there, dependent very much on that.
    There have been, in recent years, some alarming declines in 
water levels in the Ogallala Aquifer. For example, there are 
some portions in New Mexico, and Texas, and Kansas that have 
seen the water level decline by more than 60 feet over the last 
two decades. The aquifer is the source of water, as I 
indicated, for the communities, for the farmers, for the 
ranchers, agriculture, which is the main industry, at least in 
the part of the State, part of my State that depends upon the 
aquifer is totally dependent upon it, and clearly the depletion 
of it could bring about a traumatic change in the way of life 
in that whole part of our country.
    So, for these reasons, we have put this bill forward. It 
was passed through the Senate last Congress. It was passed 
through the Senate, of course, this year as well. I am pleased 
that the farm bill that we passed in the last Congress has in 
it a new voluntary, incentive-based program to improve water 
conservation practices in the High Plains Aquifer States, and I 
am hoping that this legislation could pass in this Congress.
    Let me just mention a couple of things that the legislation 
does and then a couple of things it does not do.
    First, the legislation tries to ensure a sound and 
objective science and information base about hydrology and 
geology of the aquifer.
    Second, the bill provides new funding to State and local 
entities to ensure that this important work can be done at the 
State and local levels to the extent possible or State and 
local agencies and academic institutions already are working in 
these areas, this would be a new source of funding to 
complement their work and assist with their work. And where 
some of these agencies and universities have not been active, 
they would be able to be active because of these funds.
    This does not compel any State to participate. Each State 
would make that judgment. Each Governor would decide whether 
his or her State should be involved in this. The legislation 
clearly provides that States may elect to not participate, as 
well as to participate.
    A third thing the bill does is it makes mapping, 
characterizing and modeling of this High Plains Aquifer a very 
high priority. We have not had a comprehensive overall 
assessment of the aquifer for over two decades, and there has 
been a lot of change in that time.
    The bill does emphasize a cooperative approach, as I think 
you, yourself, have indicated in your comments.
    Let me underscore a few things the bill does not do. It 
does not have any regulatory component to it. It does not tell 
anybody to do anything in particular. It is not a first step 
toward Federal regulation of groundwater, as some have 
suggested. It does not, nor can it, properly or fairly be 
interpreted to impact on the role of States or local 
Governments with respect to the administration of water 
resources. Any suggestion to the contrary just is not supported 
in the language of the bill.
    Funding for the program provided for by the bill would not 
affect the availability of dollars under other farm programs or 
for rural assistance or for safe drinking water. The 
legislation would ensure that we have the relevant science 
information available to make good judgments about how we 
proceed, and that is the sole purpose of the bill.
    I do have a letter of support, a strong letter of support, 
from the New Mexico State Engineer that I would ask be included 
in your record and made available to the Committee.
    Mr. Calvert. Without objection, so ordered.
    [NOTE: Letters submitted for the record have been retained 
in the Committee's official files.]
    Senator Bingaman. I am glad to answer any questions anyone 
would have about this.
    [The prepared statement of Senator Bingaman follows:]

Statement of The Honorable Jeff Bingaman, a U.S. Senator from the State 
                        of New Mexico, on S. 212

    I am pleased to have an opportunity to offer a statement on S. 212, 
the ``High Plains Aquifer Hydrogeologic Characterization, Mapping and 
Modeling Act.'' I appreciate the Subcommittee considering this 
important legislation today.
    Senators Brownback and Domenici have joined me in cosponsoring S. 
212, a bill that has significance for much of the Great Plains region 
of our Nation. The legislation will establish a new, cooperative 
science program relating to the High Plains Aquifer, comprised in large 
part by the Ogallala Aquifer, which extends from Wyoming to New Mexico 
and Texas. This bipartisan legislation passed the Senate by unanimous 
consent last April. Similar legislation also unanimously passed the 
Senate last Congress.
    The High Plains Aquifer extends under eight states: Colorado, 
Kansas, Nebraska, New Mexico, Oklahoma, South Dakota, Texas, and 
Wyoming. It is experiencing alarming declines in water levels. For 
example, some portions of the Aquifer in New Mexico, Texas, and Kansas 
saw a water level decline of more than sixty feet over the last two 
decades. This aquifer is the source of water for farmers, ranchers and 
communities throughout the Great Plains region. There are several 
communities in eastern New Mexico that depend exclusively on the 
Aquifer for drinking water supplies. Agriculture, a very important 
industry in this part of my state, also relies on the water resources 
of the Aquifer. Simply stated, depletion of this aquifer is a threat to 
our way of life in the Great Plains and eastern New Mexico.
    For this reason, I am committed to legislative efforts to address 
this important resource. I am pleased that the Farm Bill passed last 
Congress includes a new voluntary, incentive-based program for improved 
water conservation practices in the High Plains Aquifer States. I am 
hopeful that during this Congress, we will enact this legislation to 
provide better science and information regarding the Aquifer.
    I would like to be clear about several things this bill would do 
and several things that it would not do. First, the legislation would 
ensure that sound and objective science and information is available 
with respect to the hydrology and geology of the High Plains Aquifer. 
Having knowledge is key to our ability to plan for the future.
    Secondly, this bill would provide new funding to State and local 
entities to ensure that this important work can be done at the State 
and local levels. Fifty percent of the funds available under the 
Program would be used to fund the participation of State and local 
agencies and institutions of higher education in the High Plains 
Aquifer States. Where States and local agencies and academic 
institutions already have work underway with respect to the Aquifer, 
this new funding is intended to enhance and complement their work. In 
fact, the Program can serve as an additional source of funding for 
them. Where State and local agencies and universities have not had 
resources to undertake this important work, S. 212 would provide new 
opportunities.
    I want to emphasize that under the bill, no State is compelled to 
participate in this Program. The legislation clearly provides that 
States may elect to participate or not. If a State chooses not to 
participate, its share of the funding would be distributed for projects 
undertaken by State and local agencies and universities in the other 
participating High Plains Aquifer States.
    Third, the bill makes mapping, characterizing, and modeling the 
High Plains Aquifer a top priority. While some local, State and Federal 
dollars are already being dedicated to this purpose, the legislation 
sends a clear signal that gaining an understanding of the High Plains 
Aquifer is a high priority. There has not been a comprehensive, overall 
assessment of the Aquifer for over two decades. Too often issues of 
importance to the heartland of our Nation are overlooked, and resources 
are not directed by Washington to our part of the country. This bill 
would correct the situation and make certain that dollars are available 
at local, State, and Federal levels to assess the Aquifer.
    Finally, the bill emphasizes a cooperative approach. It is 
patterned after the highly successful National Cooperative Geologic 
Mapping Program undertaken cooperatively by the States and the U.S. 
Geological Survey. The Program will be guided by a Review Panel, the 
majority of which will be representatives of the High Plains Aquifer 
States. The modeling and mapping tools developed pursuant to this 
legislation will be invaluable to local water resource managers who are 
responsible for stewardship of our non-renewable water supplies.
    Mr. Chairman, I also want to underscore that there are several 
things this bill does not do. The bill does not have any regulatory 
component. It is in no way the first step toward the Federal regulation 
of groundwater, as some have suggested. It does not, nor can it be 
fairly interpreted to, have any impact on the role of the States or 
local governments with respect to the administration of water 
resources. Any suggestion to the contrary is simply incorrect. 
Moreover, funding for the Program provided for by the bill would not 
affect the availability of dollars under the Farm Programs, for other 
rural assistance, or for safe drinking water.
    A reliable source of groundwater is essential to the well-being and 
livelihoods of people in the Great Plains region. This legislation 
would ensure that the relevant science and information is available so 
that we will have a better understanding of the High Plains Aquifer. We 
cannot afford to have less than the best possible science and 
information regarding this resource--a resource that is crucial to the 
heartland of our Nation.
    Mr. Chairman, thank you again for conducting this hearing on S. 
212. I hope that you will assist us in enacting this important 
bipartisan legislation.
                                 ______
                                 
    Mr. Calvert. Thank you, Senator, and thank you for your 
testimony and coming over here today.
    I just have two questions, and I am sure some others on the 
panel would like to ask some questions, also.
    In my testimony, I mentioned the need for a cross-cut 
budget to determine what is being spent today and what programs 
exist today on the High Plains Aquifer. Do you support that 
concept?
    Senator Bingaman. Well, I certainly would. As far as this 
kind of research that this bill would try to support, I think 
the geological survey is the main agency that is doing any of 
this research, and it would not be difficult at all to 
ascertain the extent of their work, and I think it is not very 
great right now because of funding limitations.
    Mr. Calvert. And the other question, in your testimony, you 
mentioned that the intent of this legislation is not to have 
any Federal groundwater regulation. Would you support 
provisions that would state that the data cannot be used for 
the creation of Federal or interstate groundwater regulations?
    Senator Bingaman. Well, I think that would be fine. I mean, 
that is not the purpose of the legislation. The purpose is to 
collect the data and then use it for whatever future policies 
the Congress decides on or Federal agencies decide on.
    Mr. Calvert. Any additional questions from the panel?
    The gentleman from Nebraska?
    Mr. Osborne. Thank you, Mr. Chairman.
    I am going to exercise one of my pet peeves, which is you 
have an expert come in, and instead of asking him a question, I 
am going to make a statement and then maybe a question.
    But if you look at the map, you realize that 90 percent of 
the State of Nebraska has the Ogallala Aquifer under it and 
almost all of my district, which is about 85 percent of the 
State, and Nebraska is sitting on the equivalent of Lake 
Michigan. The average depth of water is about 33 feet, in some 
places 4- or 500 feet deep, and that aquifer, as it extends on 
down into Texas and New Mexico is probably maybe the greatest 
in the world, and I would submit that it may be more valuable, 
long-term, long haul, than if it were oil. And if that was oil, 
we would certainly make sure we knew exactly what was there and 
what the demographics of it was.
    The other thing to remember is that this is not static. The 
aquifer comes off the mountains, so it moves, in my State, at 
least, from West to East, and sometimes that water is 30 or 40 
years old before we pump it.
    And it also has a correlation with surface water. So we are 
all concerned about rivers. Well, Mr. Moran is concerned about 
rivers coming out of Nebraska and going on down into Kansas, 
but there is an interrelationship. And so if we pump water out 
of the aquifer, it lowers the rivers, and nobody knows exactly 
what that correlation is.
    So I think part of it is it is in the national interest to 
know exactly how this water interacts; in other words, the 
water in Nebraska how does that relate to the water in Kansas, 
and the water in Oklahoma, in Texas, in New Mexico? So I think 
that, for my knowledge, there are some studies, but I don't 
think there is a comprehensive overall study, so I would 
certainly be supportive of what the Senator is trying to do 
here.
    And one last just a question now after all of that 
diatribe, it is my understanding that much of the aquifer down 
in Oklahoma, Texas, New Mexico is pretty much on a shale basin, 
is that correct? Where when you pump it, it may not regenerate 
very quickly?
    Senator Bingaman. I think that is right, but I don't claim 
any expertise. So there may be more expert people here who can 
tell us that we are wrong.
    Mr. Osborne. Well, the red areas on the map I believe is 
where the aquifer is declining; is that correct?
    Senator Bingaman. Right. That is correct. Yes, I think the 
darkest red show that that is more than 60 feet of decline 
between 1980 and 1999.
    Mr. Osborne. I think it is really important that we get a 
handle on that as to what we can do to make sure that we do not 
take so much out that it does not regenerate. How do you handle 
that? And is there any flow coming down from Kansas? Is there 
any flow from Nebraska? Those are the things that I think you 
need to get after them, and so I appreciate your efforts and am 
very supportive of what you are trying to do.
    I yield back.
    Senator Bingaman. Thank you.
    Mr. Calvert. Thank the gentleman.
    The gentlelady from California?
    Mrs. Napolitano. Thank you, Mr. Chair.
    Senator, welcome again. It is good to see you.
    Senator Bingaman. Thank you.
    Mrs. Napolitano. I am very pleased that the States are 
getting together and really getting behind a full study of the 
aquifer that serves everybody so well. One of the questions I 
would have for you, are any of the States doing any recharge; 
that is, capturing of water to pump back or settle back into 
the aquifer, that you know of?
    Senator Bingaman. Again, I claim no expertise. My 
impression though is that there is not a significant amount of 
recharge going on. There is some natural recharge, but it is 
much less than the pumping that is occurring, and I think it is 
not clear where the source of the water would come from for 
that recharge, at least that is certainly true in my State.
    Mrs. Napolitano. Because in California we try to utilize, 
and capture, and recycle, and do everything we can with one 
drop of water. Would your bill include a possible look at that 
issue, plus the issue of contamination coming from any State 
into the aquifer?
    Senator Bingaman. Well, again, I think what the main focus 
of the bill has been is to quantify the water and map and 
characterize the aquifer and not to get into questions of water 
quality, except to the extent that that impacts on usability of 
the water. Obviously, I think that would probably be dealt 
with. But to the extent the water is usable for municipal 
purposes, for agricultural purposes and other things, I think 
that would be the determination.
    Mrs. Napolitano. Well, to me, that is kind of part and 
parcel because you start contaminating, then the whole thing is 
at risk. And even though that is kind of farfetched, we have 
had it happen to some of our aquifers, and that has taken 50 
years ago, it has taken us many years to identify and be able 
to deal with it to find out how best to get everybody on the 
same page--the polluters, plus the Federal agencies.
    How about the quality, Senator? You say availability, but 
does it actually deal with ensuring that that quality is 
available for all States? The water, in other words.
    Senator Bingaman. The quality of the water?
    Mrs. Napolitano. Yes, sir.
    Senator Bingaman. Again, I think that, as I have 
contemplated this, they would be looking at the aquifer and 
part of what I assume they would determine is whether or not 
the, you know, how much potable water there is in the aquifer, 
how much usable water. To the extent that the aquifer is 
reduced to saline, brackish water, which was not usable for 
farming or whatever, then obviously I think that would be an 
appropriate thing to determine as part of the study also.
    Mrs. Napolitano. It is very interesting. You say most of 
that water is used for agricultural purposes.
    Senator Bingaman. I believe that is right.
    Mrs. Napolitano. Would the farmers have considerable use of 
fertilizers and pesticides, I am assuming?
    Senator Bingaman. Well, I think some do and some probably 
don't.
    Mrs. Napolitano. Where I am leading with this, Senator, is 
that we have found, in our great State, that that has caused a 
lot of contamination in our aquifers and made a lot of our 
water pools--of course, this is a great big area that can meld 
easily, but it has also been a big problem in our area, and I 
am just wondering whether that has been identified as a 
possibility to look at.
    Senator Bingaman. Well, again, I do not think these--the 
geological survey and the agencies that we are talking about 
here at the State and local level--would be focused primarily 
on the hydrology and not on water quality issues that the EPA 
or someone else would be looking at. That would be a very 
different study.
    Mrs. Napolitano. OK. Well, I would hope that maybe they 
might consider adding some of that into this, so that when they 
go back and have to do a water quality study they have some 
information to go by, and that is my point is that in order to 
be able to be prepared. Because pumping out water, not knowing 
what the quality is can be a detriment to the communities, 
whether it is the ad community or the residential community.
    There are a couple of other questions that I have. How deep 
is the aquifer?
    Senator Bingaman. I have no information, other than what I 
just heard--about several hundred feet of depth at various 
places.
    Mrs. Napolitano. And you have lost about 30-60 feet?
    Mr. Moran. That is one reason the mapping would be so 
useful is the consequences and changes are dramatically 
different from one place in the aquifer to another, but----
    Mrs. Napolitano. Does that mean an increase in cost to be 
able to pump it?
    Mr. Moran. Yes, it does. It takes more effort and more 
energy, in particular. Plus, then, the water is simply, at a 
certain level, is no longer available. Just the depth is too 
narrow, too shallow.
    Mrs. Napolitano. Are you coming down to areas that might be 
possibly contaminated?
    Mr. Moran. There is always concern about contamination of 
underground water supply, including in the High Plains Aquifer, 
particularly related to agricultural use of that land.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Calvert. I thank the gentlelady.
    We are going to ask the gentleman from Texas to ask a 
couple of quick questions because we have to recess in order to 
vote, and I know you need to get back over to the Senate. So we 
can do that right away.
    The gentleman from Texas is recognized.
    Mr. Neugebauer. I thank the Senator for being here and for 
my friends in Kansas and Nebraska. A lot of the red area that 
you see on that map occurs in my district in Texas, in the 19th 
District.
    I think one of the concerns I have, Senator, is that there 
is extensive amount of research going on right now on the 
aquifer and a lot of monitoring and mapping being done by the 
underground water districts that were established. One of the 
things that, and I do not know how much interstate dialog is 
going on between the States talking about the aquifer, but it 
just really appears to me a couple of observations about your 
bill. I appreciate your concern about it, but I think it is 
somewhat duplicating some things that are already in place. I 
think it also kind of introduces some federalism into an issue 
really which I think really needs to remain at the State level, 
and that is the monitoring and the policy for underground water 
in those individual States.
    I think if we are going to spend $80- or $90 million, I 
think it would be a best bet to give that to the States 
directly and to those underground water districts and to some 
conservation programs and some research that these entities are 
already in place and are already doing that kind of research. 
And so I think this kind of creates another layer of federalism 
and bureaucracy at a time really when we are trying to kind of 
streamline Government and make Government more efficient.
    Senator Bingaman. Well, I would just respond and say that 
the bill does provide that 50 percent of the funding does go to 
State and local agencies that are engaged in this kind of work 
or are interested in pursuing it so that the idea is that a 
significant part of what we are doing here is provide more 
resources. I do think that better coordination between States 
about the information that they are collecting would be very 
useful, and this would accomplish that, as I see it.
    The other point is, of course, no State is required to 
participate. So, if Texas decided that they were doing enough 
of monitoring of their water situation and did not want to be 
part of this, then that would be, that would be an appropriate 
course as well.
    Now, the $80- to $90 million you referred to, the bill 
provides whatever sums are appropriated. So it would be up to 
the Congress each year to determine what the right level of 
funding for this would be. I would hope that it would be as 
high as you are talking about, but I have no reason to believe 
it would.
    Mr. Calvert. Senator, thank you for your testimony. I 
apologize, but we have to go vote. Thank you for coming over 
here today.
    Senator Bingaman. Thank you very much for giving me the 
time.
    Mr. Calvert. Thank you very much.
    We will recess for approximately 20 minutes and reconvene.
    [Recess from 10:39 a.m. to 11:11 a.m.]
    Mr. Calvert. The hearing is reconvened.
    Now, I would like to recognize Mr. Udall to introduce a 
friend and constituent from his home State.

 STATEMENT OF THE HON. TOM UDALL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Tom Udall. Chairman Calvert, thank you very much.
    I have got a constituent and a friend who is going to be 
testifying on this issue that you just had Senator Bingaman and 
I believe another representative.
    The gentleman I want to introduce, he is out here in the 
audience, he is not going to testify right now, but he will be 
on this panel, is Leland, Leland, otherwise known as Lee 
Tillman, who has served as the Executive Director of the 
Eastern Plains Council of Governments, which serves a seven 
county area in Northeastern New Mexico, since 1975.
    The Eastern Plains Council, known as EPCOG, is 
headquartered in Clovis, but serves an 18,000-square mile 
region, including Union, Harding, Quay, Guadalupe, De Baca, 
Roosevelt and Curry Counties. EPCOG supports the planning and 
implementation of programs and projects which support local and 
regional goals in the area.
    Mr. Tillman has focused particular attention on the need 
for strong local leadership in rural areas and has been 
actively involved in the community and rural development issues 
for many years. Major program responsibilities include rural 
economic development, street and strategic planning, and in 
this case, very important to this bill, water planning, a 
diversified housing program and implementation of the Workforce 
Investment Act.
    Mr. Tillman has been actively involved in water-related 
organizations and currently serves on the Board of Directors of 
the New Mexico Water Dialogue, Inc., a nonprofit organization 
which sponsors periodic statewide forums to facilitate citizen 
involvement in water resource issues. He has served on the 
State Water Quality Advisory Committee and the Conference 
Planning Committee for the Water Resources Research Institute.
    And Mr. Tillman, Mr. Calvert, when he gets a chance to 
testify, he is very experienced in water issues, and I think 
will enlighten this Subcommittee on the issues relating to 
Senator Bingaman's bill on the High Plains Aquifer.
    With that, I am going to yield back, and I will try to get 
here for the testimony with the schedule we have going on.
    Thank you.
    [The prepared statement of Mr. Udall follows:]

Statement of The Honorable Tom Udall, a Representative in Congress from 
                        the State of New Mexico

    Thank you, Mr. Chairman, for holding a hearing today on S. 212, the 
High Plains Aquifer Hydrogeologic Characterization, Mapping, and 
Modeling Act of 2003. I am glad to have the opportunity today to 
introduce a fellow New Mexican, Mr. Lee Tillman, Executive Director of 
the Eastern Plains Council of Governments, and to participate in this 
Water and Power Subcommittee hearing.
    S. 212 authorizes the Secretary of the Interior to work in 
cooperation with the eight Ogallala Aquifer states to conduct a 
hydrogeologic program that would be administered by the U.S. Geological 
Survey. The data collected from the components in this bill will 
provide us with accurate information relating to groundwater depletion 
and resource assessment of the Aquifer.
    In New Mexico, the aquifer serves Curry, Roosevelt, Lea, Quay, 
Union and Harding counties. The Ogallala also serves portions of Texas, 
Oklahoma, Kansas, Colorado, Nebraska, Wyoming, and South Dakota. 
Groundwater from the aquifer is used chiefly for agriculture 
irrigation, accounting for 94% of the groundwater consumption. The 
aquifer also supplies 82% of the high plains' drinking water needs, and 
supplies water for livestock, mining, and industry. In many areas, 
withdrawals from the aquifer are greatly exceeding recharge, resulting 
in large water level decreases.
    The lack of water has become a growing concern in New Mexico, 
particularly in the eastern portion of the state where the Ogallala 
Aquifer serves many agriculture communities. Consequently, I believe 
that we must do whatever possible to conserve the precious few water 
resources available. And, while we have already taken steps that will 
help reduce the amount of water drained from the aquifer, this 
legislation will facilitate the acquisition and utilization of the best 
available science so that we can better address depletion issues and 
extend the life of the aquifer for future generations.
    S. 212 will facilitate the accumulation of detailed information 
designed to aid in the long-term planning of this valuable resource. 
This information could be useful to irrigators who depend on the 
Aquifer as a water source and communities who derive their drinking 
water supplies from the Aquifer. This legislation is not an attempt to 
federalize groundwater.
    I was an original cosponsor of this bill in the 107th Congress. The 
current version is supported New Mexico State Engineer, John D'Antonio, 
and by the Western States Water Council, an organization comprised of 
the heads of several state water agencies, included those listed above. 
I believe that we must heed the advice of these agencies and do 
whatever possible to conserve the precious few water resources 
available. And, while we have already taken steps that will help reduce 
the amount of water drained from the aquifer, this legislation will 
facilitate the acquisition and utilization of the best available 
science so that we can better address depletion issues and extend the 
life of the aquifer for future generations.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman. I appreciate his 
introduction.
    Mr. Tom Udall. Appreciate your courtesies. Thank you, Mr. 
Chairman.
    Mr. Calvert. Sure.
    The gentleman from Texas would like to do an opening 
statement, Mr. Neugebauer?

  STATEMENT OF THE HON. RANDY NEUGEBAUER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Neugebauer. Thank you, Mr. Chairman. Chairman Calvert, 
thank you for allowing me to join the Water and Power 
Subcommittee today as you consider legislation that many of my 
constituents in West Texas are concerned about. I appreciate 
the opportunity to participate in this hearing with your 
Subcommittee.
    I also appreciate your hearing testimony from three West 
Texans. I want to recognize Jim Conkwright, the General Manager 
of the High Plains Water District in Water Conservation 
District No. 1 in Lubbock, and also Lloyd Arthur, a farmer from 
Ralls, Texas, and Vice President of the Texas Farm Bureau, and 
Ms. Irene Favila, Workforce Development Coordinator in 
Plainview, Texas.
    I am sorry if I mispronounced that, but with a name like 
Neugebauer, I have had people mispronounce my name, also.
    [Laughter.]
    Mr. Neugebauer. Thank you for making the trip to Washington 
and sharing your expertise with the Subcommittee.
    I ask that my full statement on S. 212 be included in the 
record, and I would like to also submit for the record a 
statement that the Texas Corn Producers Association sent to me 
expressing their concerns about this legislation.
    [NOTE: Letters submitted for the record have been retained 
in the Committee's official files.]
    Mr. Neugebauer. Communities and farmers in the Texas High 
Plains depend on the Ogallala Aquifer for drinking water, for 
irrigation water to supplement the 18 to 20 inches of annual 
rainfall in order for the region to maintain its agricultural 
productivity. Residents of the region fully recognize the 
aquifer is invaluable and a limited resource that must be 
protected.
    Technical advances in irrigation, crop varieties and crop 
rotation have significantly increased the water conservation. 
Local water conservation districts, with the authority given to 
them by the Texas Legislature, have led the way in mapping and 
monitoring the aquifer and in advancing conservation efforts.
    S. 212 does not fully recognize existing local and State 
research and authority over its local resource. I would like to 
submit a memo for the record prepared by the Congressional 
Research Service that lists existing Federal and State programs 
involved with studying, and mapping and modeling the High 
Plains Aquifer.
    Mr. Neugebauer. I believe that 212 duplicates these efforts 
already underway and coordination of existing programs could 
accomplish the stated goals of S. 212.
    Groundwater resources are a local resource and should be 
managed on a local level. Locally coordinated efforts, not 
federally managed ones, are the best means to extend the life 
of the Ogallala Aquifer, and those efforts are already having 
positive effects on the water conservation.
    Thank you, again, Mr. Chairman.
    [The prepared statement of Mr. Neugebauer follows:]

   Statement of The Honorable Randy Neugebauer, a Representative in 
              Congress from the State of Texas, on S. 212

    Communities and farmers in the Texas High Plains depend on the 
Ogallala Aquifer for drinking water and for irrigation, and residents 
of the region fully realize the aquifer is an invaluable and limited 
resource that must be protected.
    The Ogallala Aquifer is the principle source of agriculture 
irrigation water to supplement the annual 18 to 20 inches of rainfall 
we receive per year, and 90 percent of aquifer withdrawals are used for 
irrigation. The High Plains Aquifer region produces about a quarter of 
the nation's winter wheat and rain sorghum, four percent of the 
nation's corn and 42 percent of the country's fed beef. The Texas High 
Plains region produces a quarter of the cotton grown in the nation. The 
economies of rural communities depend on agriculture, and agriculture 
productivity depends on a plentiful, accessible and affordable supply 
of water.
    Supporters of S. 212 state this legislation would help coordinate 
federal, state and local water research and conservation efforts and 
provide new funding and data collection. However, in my view and in the 
view of many of my constituents, the bill ignores state and local water 
research and conservation efforts, duplicates existing programs and 
could open the door to federal regulation of groundwater use, 
especially as relates to agriculture.
    In Texas, local water conservation districts, with the authority 
given them by the State Legislature in the 1950's, have lead the way in 
mapping and monitoring the aquifer and advancing conservation efforts. 
The High Plains Underground Water Conservation District around Lubbock 
is the oldest such district the state.
    The High Plains District, like other districts, is staffed by 
geologists, hydrologists and other technical experts. The district 
takes annual water measurements from its 1,200 wells to determine 
average change in water levels, and promotes new conservation 
technologies. In addition, the district publishes complete hydrologic 
atlases for all counties in its jurisdiction every five years that 
illustrate the volume of water across the area. The Texas Water 
Development Board also works with local districts on ground water 
modeling and water use strategies.
    Farmers have also taken the responsibility to conserve water 
seriously. Over the past decade, they have made significant investments 
in new irrigation systems that increase water use efficiencies 
dramatically. Low Energy Precision Systems (LEPA) and new subsurface 
drip systems reduce nearly all water losses from runoff or evaporation.
    Due to these efforts, annual water level declines are decreasing in 
the High Plains District. Annual rates used to be two to three feet, 
but now are about one foot. Recharge rates average an inch or two per 
year.
    Local and state protection of groundwater resources underpins the 
success of conservation of the Ogallala in the Texas High Plains 
region. S. 212 creates yet another federal program and duplicates 
ongoing federal and state efforts.
    The Congressional Research Service has reported that the federal 
government already has seven programs involved with the High Plains 
Aquifer. Several of the federal programs involve the U.S. Geological 
Service, including one to match funds to state and local agencies to 
help support their data collection and research. In the 2002 Farm Bill, 
a subprogram was added to EQUIP to provide cost-share assistance and 
loans for producers to carry out water conservation improvements. This 
program was created with the High Plains Aquifer region in mind.
    In addition, members of Congress from the region secured $750,000 
in Agriculture Research Service funding for cooperative research at 
Texas Tech, Texas A&M, West Texas A&M, the ARS Plant Stress Lab, and 
Kansas State to address Ogallala Aquifer research needs. Another $1.7 
million is included in the House-passed agriculture appropriations for 
the 2004 fiscal year. This joint research is focusing on new irrigation 
technology, new crop rotation and other management strategies, more 
water-efficient plant species a regional GIS water database, hydrologic 
models and producer education.
    I understand there are differences of opinion among states that use 
the aquifer about the best means to coordinate data on the aquifer and 
monitor water use because states manage water differently. However, all 
states in the area have their own efforts and have taken part in 
regional initiatives for aquifer research. In the Senate hearing on the 
legislation, the U.S. Geological Survey testified that the goals of S. 
212, ``can be achieved without legislation through better coordination 
of existing Federal and state programs.''
    A new federally-coordinated effort, as created by S. 212, is not 
the best way to extend the life of the aquifer. Once the federal 
government takes on a new coordinating role, the door is opened for a 
regulatory role and for federal involvement in water use decisions. 
Such a reach by the federal government is unacceptable.
    Local control is the best means to ensure a longer life for the 
Ogallala Aquifer, and local communities know how much their economies 
depend on the aquifer's water supply. I hope this Subcommittee, after 
hearing from witnesses today, will agree and will take no further 
action on S. 212. There are opportunities for states and localities to 
better coordinate their knowledge of the aquifer, and federal support 
has been available to assist in these efforts. One more federal program 
with an uncertain budget will not do the job our farmers, local water 
boards and states are already doing.
                                 ______
                                 
    [The Congressional Research Service report follows:]

    [GRAPHIC] [TIFF OMITTED] T0157.006
    
    [GRAPHIC] [TIFF OMITTED] T0157.007
    
    [GRAPHIC] [TIFF OMITTED] T0157.008
    
    [GRAPHIC] [TIFF OMITTED] T0157.009
    
    [GRAPHIC] [TIFF OMITTED] T0157.010
    
    [GRAPHIC] [TIFF OMITTED] T0157.011
    

    Mr. Calvert. I thank the gentleman.
    I now recognize our next panel of witnesses, Mr. John Keys, 
III, Commissioner, Bureau of Reclamation. He will be testifying 
on H.R. 3334, a great piece of legislation, Mr. Commissioner.
    And testifying on S. 212 is Mr. Robert Hirsch, Assistant 
Director of the Water Resources U.S. Geological Survey.
    And with that, Mr. Keys, you are recognized.

          STATEMENT OF JOHN KEYS, III, COMMISSIONER, 
                     BUREAU OF RECLAMATION

    Mr. Keys. Mr. Chairman, good morning. It is certainly my 
pleasure to be here. I would ask that our written testimony be 
made part of the official record for the hearing, please.
    Mr. Calvert. Without objection, so ordered.
    Mr. Keys. Mr. Chairman, H.R. 3334 would authorize the 
Secretary of Interior to work with the Western Municipal Water 
District in the design and construction of a water supply 
project known as the Riverside-Corona Feeder. The project would 
take up to 40,000 acre-feet of water from San Bernardino Valley 
groundwater aquifers, Seven Oaks Reservoir and the California 
State Water project and delivered to communities in Western 
Riverside County.
    It would consist of about 20 wells, 28 miles of pipeline. 
The project would help protect the county from drought and 
reduce its dependence on imported water.
    H.R. 3334 would provide Federal funding for the project. 
Thirty-five percent of the total project cost or $50 million, 
whichever is greater.
    Mr. Chairman, the Department supports this type of 
resourceful utilization of local water supplies that this bill 
calls for. However, we cannot support H.R. 3334 in its present 
form.
    First, the language establishing the Federal share of the 
project cost needs to be clarified to clearly set a maximum 
Federal cost share. As it is written, it sets a minimum.
    Second, we understand that feasibility level studies have 
not yet been completed for this project. Without a proper 
analysis of the project that meets appropriate Federal 
guidelines for project authorization, we cannot support 
Reclamation's participation in design and construction 
activities.
    Mr. Chairman, with that being said, we look forward to 
working with you, we need the Committee, and the sponsors of 
the project to bring about the necessary changes to H.R. 3334 
required for the Department's support.
    That concludes my testimony, and I would certainly be happy 
to answer any questions that you might have.
    [The prepared statements of Mr. Keys on H.R. 3334 and H.R. 
3391 follow:]

   Statement of John Keys, III, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 3334

    Mr. Chairman and Members of the Subcommittee, I am John Keys, 
Commissioner of the Bureau of Reclamation. I am pleased to be here 
today to give the Department's views on H.R. 3334, the Riverside-Corona 
Feeder Authorization Act.
    H.R. 3334 would authorize the Secretary of the Interior to 
participate with the Western Municipal Water District in the design and 
construction of a water supply project known as the Riverside-Corona 
Feeder. It provides for Federal funding for this project of 35 percent 
of the total project cost or $50 million, whichever is greater.
    This project would withdraw water from San Bernardino Valley 
groundwater aquifers that are replenished during wet years from local 
runoff, regulated releases from Seven Oaks Reservoir, and water from 
the State Water Project. It would consist of a number of wells and 
connecting pipelines, which would deliver up to 40,000 acre-feet of 
water annually to communities in western Riverside County. Project 
benefits include local drought protection, better groundwater 
management, and reduced dependence on imported water.
    Mr. Chairman, the Department supports the type of resourceful 
utilization of local water supplies this bill calls for and the 
potential for reducing the use of imported supplies from the Colorado 
River and Bay-Delta. However, we cannot support H.R. 3334 in its 
present form. First, the language establishing the federal share of the 
project costs needs to be clarified to clearly set a maximum federal 
cost share. Second, we understand that feasibility level studies have 
not yet been completed for this project. Without a proper analysis that 
adheres to the ``Economic and Environmental Principles and Guidelines 
for Water and Related Land Resources Implementation Studies,'' and 
which otherwise meets appropriate federal guidelines for consideration 
of project authorization, we cannot support Reclamation's participation 
in design and construction activities.
    While I have noted our concerns with this legislation, we look 
forward to working with you to bring about the necessary changes 
required for the Department's support.
    Mr. Chairman this concludes my testimony. I would be happy to 
answer any questions at this time.
                                 ______
                                 

   Statement of John Keys, III, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 3391

    My name is John Keys and I am the Commissioner of the Bureau of 
Reclamation (Reclamation). I am pleased to present the views of the 
Department regarding H.R. 3391, legislation to authorize the Secretary 
of the Interior to convey certain lands and facilities of the Provo 
River Project in Utah.
    The Department of the Interior (Department) has an active title 
transfer program and supports transferring ownership of certain 
Reclamation project facilities to non-Federal entities, particularly in 
cases where transfers could create opportunities, not just for those 
who receive title, but for other stakeholders and the public as well. 
While we believe that this transfer has the potential to create such 
opportunities, the Department has several concerns with H.R. 3391, as 
presently drafted.
Background:
    The Provo River Project stores and delivers water from the Provo 
River for irrigation and municipal and industrial uses along the 
Wasatch front, a highly urbanized area, located within Utah and Salt 
Lake Counties. The three features of the project under consideration 
for transfer are the 22-mile-long Provo Reservoir Canal; a 3.79-acre 
office building site, which would be transferred to the Provo River 
Water Users Association (Association); and the 42-mile-long Salt Lake 
Aqueduct, which would be transferred to the Metropolitan Water District 
of Salt Lake and Sandy (District).
    Reclamation began discussing this transfer with the Association and 
the District in November 2002. Since that time a great deal of work and 
progress has been made.
    In August 2003, Reclamation, the Association and the District 
signed a memorandum of agreement (Contract No. 03-WC-40-8800), which 
articulated the respective roles, responsibilities, and cost 
obligations for carrying out the title transfer process. Since that 
time, several other water user entities, including the Central Utah 
Water Conservancy District (Central) and the Jordan Valley Water 
Conservancy District (Jordan Valley) have also become involved. A title 
transfer work group made up of these entities and Reclamation has been 
formed to discuss the issues of importance to the entities involved. To 
date, the workgroup has been meeting on a monthly basis.
    In order to initiate the public review process required under the 
National Environmental Policy Act (NEPA), the title transfer work group 
assembled a list of over 2,000 individuals, agencies, and other 
entities having a potential interest in this transfer. This list 
includes a large number of owners of private property located adjacent 
to the transfer facilities. It also includes several state and federal 
agencies and environmental and recreational interest groups. On 
September 29, 2003, an initial scoping letter describing the proposal 
was mailed to all on this list. Public scoping meetings were held on 
October 27, 28th and 30th in Sandy, Lehi and Provo respectively. Many 
interesting concerns and issues were raised both at these meetings and 
in subsequent calls, letters and e-mails by interested stakeholders. To 
enable anyone else with interests and concerns to have an opportunity 
to voice them, the official public comment period was held open until 
November 26, 2003.
H.R. 3391
    H.R. 3391 requires the Secretary to convey to the Provo River Water 
Users Association, pursuant to a transfer agreement yet to be developed 
and signed, all right, title, and interest of the United States in the 
lands, rights-of-way, and facilities that are part of the Provo River 
Project in Utah. The bill does not impair any existing contracts that 
allow for or create a right to convey water through the Provo Reservoir 
Canal.
    Section 6 of H.R. 3391 requires that the Association and the 
Metropolitan Water District of Salt Lake & Sandy pay or contribute to 
administrative costs, real estate transfer costs, the costs of 
compliance with the National Environmental Policy Act of 1969 (NEPA), 
the Endangered Species Act of 1973 (ESA), the National Historic 
Preservation Act, and other Federal cultural resource laws, as laid out 
in the transfer agreement. In addition, section 6 requires the 
Association and the District to pay the net present value of the 
property being transferred.
    H.R. 3391 clearly states in section 7 that before any property is 
conveyed the Secretary must complete all actions required under NEPA, 
the ESA, and all other applicable laws. Finally the bill makes it clear 
that, upon conveyance of the land and facilities, the United States 
will not be liable for future occurrences on those lands and 
facilities, and the Association and District will not be entitled to 
receive any future reclamation benefits with respect to the transferred 
properties, except those benefits available to other nonreclamation 
facilities.
Issues of Concern
    Despite the Administration's support for the transfer of these 
lands and facilities, we see this legislation as somewhat premature and 
have a number of concerns about H.R. 3391 as drafted.
    Operating Agreements: During the course of its deliberations, the 
members of the work group identified several written agreements among 
the parties that are needed in order to ensure that the transfer 
achieves its intended purposes without adversely impacting the other 
affected parties. At present, none of the agreements identified by the 
work group have been completed or signed. We also believe that other 
agreements, not yet identified, may be required prior to title transfer 
as the action is scoped and developed. Section 3(a) of the bill 
partially addresses this issue by requiring that the Association 
provide the Secretary with certification, prior to transfer. We are 
concerned that this does not fully address our situation or the issue.
    We would prefer that the key agreements be completed prior to 
transfer of title. We believe that completing the agreements prior to 
passage of the legislation will expedite implementation of the transfer 
and potentially lower the cost of the environmental compliance required 
under Section 7 of H.R. 3991. Our experience has shown that transfers 
move more expeditiously when involved parties complete preliminary 
work, including written agreements, before proceeding with legislation. 
In many cases where agreements were not completed before legislation 
was passed, significant delays occurred while issues were identified, 
negotiated, and satisfactorily addressed in agreements.
    Further, Section 2(h) of the bill defines a transfer agreement 
among the United States, the District and the Association. Even though 
H.R. 3391 requires the transfer to be completed in accordance with the 
terms of that transfer agreement, the transfer agreement itself has not 
been completed or signed. This transfer agreement should include a 
complete property description of land interests to be transferred, 
including rights-of-ways. Also, at a minimum, the agreement defined in 
Section 2(H) should include terms which: (1) provide for orderly and 
efficient transfer and protect public interests; (2) preserve access 
for operation and maintenance of nearby facilities which continue to be 
federally owned; (3) provide for coordinated operation of transferred 
and retained portions of the Provo River Project; (4) ensure the 
Department can continue to fulfill its obligations.
    Certification of Agreements: Section 3(a) directs the Secretary to 
convey the lands and facilities of the Project when the Association has 
certified that the agreements entered into are satisfactory to the 
Association, District, Central, and Jordan Valley. Since many of the 
features and facilities of the Project will not be conveyed and because 
of the close relationship between this project and the Central Utah 
Project, which will not be transferred, the Secretary will be a party 
to many of these agreements. As such, we believe that the Secretary 
should have a greater role in this certification process than is 
provided in H.R. 3391 as drafted.
    Operational Access: The canal and the aqueduct to be transferred in 
H.R. 3391 are in close proximity and operationally related to the 
Central Utah Project which will remain in Federal ownership. For a 
sizeable portion of its alignment, the canal lies so near key Central 
Utah Project facilities that lack of access to the canal right-of-way 
would make operation and maintenance of those Central Utah Project 
facilities difficult. Conversely, operation and maintenance of the 
canal would be problematic without access to Central Utah Project 
lands. Accordingly, it is important that provisions for reciprocal 
access are included in the agreement defined in Section 2(h) of the 
bill.
    Forest Service Lands: In several locations, the Salt Lake Aqueduct 
crosses lands lying within the boundaries of the Uinta and Wasatch-
Cache National Forests under the jurisdiction of the U.S. Forest 
Service. Prior to constructing the aqueduct, Reclamation withdrew 
significant blocks of land in locations where the aqueduct alignment 
crosses through these National Forests. At present, operation and 
maintenance of the aqueduct by the District within Forest boundaries is 
possible solely because the aqueduct is federally owned and located 
upon Reclamation withdrawals. Any revocation of Reclamation's 
withdrawals will return primary jurisdiction of these areas to the U.S. 
Forest Service. H.R.3391 needs to address this issue or it will 
significantly delay conveyance of the lands and rights-of-way and will 
negatively impact the District's ability to operate and maintain the 
facilities once transferred. We also recommend the transfer agreement 
defined in Section 2(h) include a suitable provision covering 
replacement of withdrawals with a linear right-of-way.
    Valuation of Withdrawn Lands: As stated above, some lands were 
withdrawn from the U.S. Forest Service for development of the Project. 
If lands were purchased out of private ownership for a project when the 
project was developed, then the costs of the acquisition would have 
been included in the repayment obligation of the District. However, if 
lands were withdrawn from the public domain, they were simply made 
available to the project at no cost, and so their value was never 
included in the repayment obligation of the entity taking title. 
Generally, withdrawn lands that are no longer needed for a Reclamation 
project are either transferred back to the BLM or the Forest Service 
(as appropriate) to be administered as public domain lands, or offered 
to the General Services Administration for disposal through competitive 
bidding. After title transfer, the District will need some type of 
legal interest in the lands underlying the Salt Lake Aqueduct. Where 
acquired lands are involved, Reclamation will transfer whatever 
interest is currently held by the United States (either fee title or 
permanent easement). Reclamation believes that in the case of the 
withdrawn lands, a permanent easement would be sufficient. If, however, 
the District desires fee title ownership of any withdrawn lands, they 
should be required to pay fair market value.
    Impact on the Ongoing Utah Lake Basin Water Delivery System EIS: We 
understand that the Central Utah Conservancy District and the 
Department are planning to make a draft environmental impact statement 
(EIS) for the Utah Lake Basin Water Delivery System (ULS) available to 
the public early in 2004. We further understand that this draft EIS 
will indicate that about 24,000 acre-feet of CUP M&I water would be 
conveyed through the Provo Reservoir Canal for use in Salt Lake County, 
which is proposed for transfer under H.R. 3391. As part of this 
legislation or the transfer process for these facilities, it is 
important to ensure that this transfer does not impact the NEPA 
compliance process for the ULS or, more importantly, prevent the 
utilization of the canal to convey CUP M&I water.

Technical Issues
    In addition to the policy and procedural issues identified above, 
we have identified several minor technical corrections to H.R. 3391 
that are needed in order to facilitate completion of the transfer.
    Include Both Reservoirs at the Salt Lake Aqueduct: In the 
definition for the Salt Lake Aqueduct, H.R. 3391 refers to the 
``Terminal Reservoir located at 3300 South and I-215.'' There are in 
fact two reservoirs located at the terminus of the Salt Lake Aqueduct. 
We believe any transfer should include both. Therefore, Section 2(g) of 
the bill should be amended to change ``Terminal Reservoir'' to 
``Terminal Reservoirs''.
    Make Consistent with Existing Contributed Funds Act Agreement: On 
August 21, 2003 Reclamation, the Association, and the District signed 
an agreement entitled ``Contributed Funds Act Agreement and Memorandum 
of Agreement (Contract No. 03-WC-40-8800) (Contributed Funds Act 
Agreement) to formalize, among other things, the cost-sharing 
obligations of the various parties for transfer-related expenses. To 
ensure that the legislation is consistent with the already signed 
Contributed Funds Act Agreement, Section 6(a) of the bill should be 
amended to read: ``The Secretary shall require, as a condition of the 
conveyance under section 3, that the Association and the District pay 
all administrative costs and real estate transfer costs, and half of 
costs associated with compliance with the National Environmental Policy 
Act of 1969, the Endangered Species Act, the National Historic 
Preservation Act, and other federal cultural resource laws, all as 
described in the Agreement.'' This would make it consistent with the 
terms of the existing agreement.
    Modify Payment Requirement: Section 6(b)(1) requires the 
Association to pay ``the net present value of the Provo Reservoir Canal 
and the Pleasant Grove Property''. Similarly, Section 6(b)(2) requires 
the District to pay ``the net present value of the Salt Lake 
Aqueduct.'' We believe the intent of these sections is to require the 
transfer recipients to pay, not the net present value of a facility 
(potentially, a very large sum), but rather the present value of the 
remaining obligations for that facility. Therefore, we recommend these 
portions of Section 6(b) be amended to read:
    (1) ``In addition to subsection (a) the Secretary shall also 
require, as a condition of the conveyances under Sections 3(a) and 
3(b), that the Association pay to the United States the net present 
value of the remaining debt obligation, including future miscellaneous 
revenue streams, attributable to the Provo Reservoir Canal and the 
Pleasant Grove Property, as described in the Agreement; Provided, 
however, that the Association may deduct from the net present value 
such sums as are required to accomplish the reimbursement described in 
the Contributed Funds Act Agreement.'' ``
    (2) ``In addition to subsection (a) the Secretary shall also 
require, as a condition of the conveyance under Section 3(c), that the 
District pay to the United States the net present value of the 
remaining debt obligation, including future miscellaneous revenue 
streams, attributable to the Salt Lake Aqueduct, as described in the 
Agreement; Provided, however, that the Association may deduct from the 
net present value such sums as are required to accomplish the 
reimbursement described in the Contributed Funds Act Agreement.''
    National Environmental Policy Act Citation: Section 7 should be 
modified to correct an error in the citation for the National 
Environmental Policy Act of 1969 (42 U.S.C. 4321, et seq.).
Conclusion:
    In conclusion, Mr. Chairman, the Department recognizes significant 
benefits that may be achieved by the proposed title transfer and has 
worked closely and cooperatively with the interested parties to 
facilitate this process. If the above-mentioned issues and technical 
corrections can be addressed, I believe the Department could support 
passage of this legislation.
    We look forward to working with Congressman Cannon, Committee 
staff, as well as the Association, the District, the Title Transfer 
Working Group and anyone else to craft provisions necessary to resolve 
these issues. That concludes my testimony.
                                 ______
                                 
    Mr. Calvert. And I will have some questions, but first I 
will recognize Mr. Hirsch for his 5-minute statement, and then 
we will have questions.
    Thank you.

    STATEMENT OF ROBERT HIRSCH, ASSISTANT DIRECTOR OF WATER 
               RESOURCES, U.S. GEOLOGICAL SURVEY

    Mr. Hirsch. Mr. Chairman and members of the Committee, I am 
Robert Hirsch, Associate Director for Water of the U.S. 
Geological Survey. Thank you for the opportunity to provide the 
views of the Administration on S. 212, the High Plains Aquifer 
Hydrogeologic Characterization, Mapping and Modeling Act.
    The Administration agrees with the bill's sponsors about 
the goals of the bill. However, the Administration has three 
concerns with the bill:
    First, the goals of this bill can be achieved without 
legislation. The primary issue is the funding levels, which the 
bill fails to specify. The goals of the bill can be met through 
the combined activities of four specific existing programs of 
the U.S. Geological Survey. These programs are the Cooperative 
Water Program, the National Cooperative Geologic Mapping 
Program, the Water Resources Research Institutes Program, and 
the Groundwater Resources Program.
    The first three programs I mentioned involve significant 
consultation and cost sharing with the States.
    Second, the bill, as amended, does not address the need for 
monitoring, although it mentions characterization, mapping and 
modeling. Monitoring is a crucial scientific component aimed at 
better understanding this aquifer. We note that S. 212, as 
introduced originally in the Senate, contained provisions that 
addressed monitoring. Exclusion of monitoring means that the 
modeling in this program would be rather hypothetical rather 
than keeping it rooted in the actual conditions of the aquifer 
as they develop over time.
    Third, USGS scientific activities should be done in 
collaboration with the States, when appropriate. We are 
concerned that S. 212 does not contain specific language about 
State cost sharing. In testimony given before the Senate, 
Energy and Natural Resources Subcommittee on Water and Power on 
S. 212, we recommended the inclusion of language calling for 
Federal-State cost sharing. As drafted, this bill would be 
difficult to administer and would come into conflict with 
existing USGS programs because it lacks specificity about 
funding mechanisms.
    I would like to make a few background comments about the 
importance of the High Plains Aquifer.
    Irrigation water pumped from the High Plains Aquifer has 
made this one of the Nation's most important agricultural 
areas. The intense use of groundwater has caused major declines 
in groundwater levels in some areas, raising concern about the 
long-term sustainability of irrigated agriculture in these 
areas. The changes are particularly evident in the Central and 
Southern Parts of the High Plains where some areas have 
experienced dewatering of more than 50 percent.
    The role identified for the Department of Interior in S. 
212 is consistent with the leadership role that USGS has long 
held in interpretation, research and assessment of the earth 
and biological resources of the Nation. As the Nation's largest 
water, earth and biological science and civilian mapping 
agency, USGS conducts the most extensive geologic mapping and 
groundwater investigations in the Nation in conjunction with 
our State and local partners.
    The USGS has offices in each of the eight States underlain 
by the High Plains Aquifer. These offices have a long history 
of groundwater monitoring and assessment activities within the 
aquifer in conjunction with State and many local agencies.
    The USGS carried out the first comprehensive quantitative 
study of the High Plains Aquifer in the late 1970s through the 
Regional Aquifer Systems Analysis Program. With our partners in 
the Cooperative Water Program, we continue to provide 
groundwater models to evaluate the present and future state of 
the aquifer in some parts of the High Plains, although an 
overall assessment of the aquifer is now over two decades old.
    In response to the water level declines, a groundwater 
monitoring program was begun across the High Plains in 1988 in 
response to a congressional directive to the USGS. The goal of 
this existing program is to assess water level changes in the 
aquifer. This has been accomplished through a collaboration 
among numerous Federal, State and local water resource 
agencies. What we have learned is that water levels continue to 
decline in some areas of the aquifer. However, the monitoring 
has indicated that the overall rate of decline in the water 
table has slowed during the past two decades. This change is 
caused by improved irrigation and cultivation practices, 
decreases in irrigated acreage and above-normal precipitation 
during the period.
    More in-depth studies are required to determine the 
relative importance of these different factors and to improve 
estimates of recharge rates which is crucial to projecting 
future water levels and their response to changing agricultural 
practices.
    A reliable source of groundwater is an essential element of 
the economy of the communities of the High Plains. The goals of 
S. 212 are commendable. It contains provisions that are well 
within the scope and expertise of the USGS, and it focuses on a 
significant economic concern of the Nation. However, as noted 
above, the Administration has concerns about the bill, 
including the availability of resources needed over and above 
the current levels of funding of existing USGS programs related 
to the aquifer.
    Mr. Chairman, thank you for the opportunity to present this 
testimony. I would be pleased to answer any questions that you 
or other members of the Committee might have.
    [The prepared statement of Mr. Hirsch follows:]

     Statement of Robert M. Hirsch, Associate Director for Water, 
     U.S. Geological Survey, Department of the Interior, on S. 212

    Mr. Chairman and Members of the Committee, I am Robert Hirsch, 
Associate Director for Water at the U.S. Geological Survey. Thank you 
for the opportunity to provide the views of the Administration on S. 
212, the ``High Plains Aquifer Hydrogeologic Characterization, Mapping 
and Modeling Act,'' as amended and passed by the Senate. The 
Administration agrees with the bill's sponsors about the goals of the 
bill. Specifically, the importance of characterizing, mapping and 
modeling the High Plains Aquifer and the importance of coordinating 
efforts among Federal, State, and local entities. The Administration 
has three concerns with this bill as discussed more fully below.
Analysis of S. 212
    First, the goals of this bill can be achieved without legislation, 
through better coordination of existing Federal and State programs. We 
are concerned that the total costs of the program proposed in S. 212 
are uncertain. Funding is not included in the President's FY 2004 
budget and would be subject to available resources. In future years, 
funding would need to be established in light of the full range of 
competing priorities of the Administration. The goals of the bill can 
be met through a combination of activities in four specific existing 
programs of the U.S. Geological Survey (USGS). These programs are the 
Cooperative Water Program, the National Cooperative Geologic Mapping 
Program, the Water Resources Research Institutes Program, and the 
Ground Water Resources Program. The first three programs involve 
significant consultation and cost sharing with the States. The last 
program, the Ground Water Resources Program, provides research and 
summarization of the status and trends of the water resources of the 
entire High Plains Aquifer system.
    Second, the bill, as amended, does not address the need for 
monitoring, although it mentions characterization, mapping, and 
modeling. Monitoring is a crucial scientific component aimed at better 
understanding this aquifer. We note that S. 212, as introduced, 
contained provisions that addressed monitoring.
    Third, USGS scientific activities should be done in collaboration 
with State scientific activities, when appropriate. Accordingly, we are 
concerned that S. 212 as amended does not contain specific language 
limiting the Federal cost share to no more than 50 percent. In 
testimony given before the Senate Energy and Natural Resources 
Subcommittee on Water and Power on S. 212, we recommended the inclusion 
of language similar to that currently contained in the National 
Cooperative Mapping Act (43 U.S.C. Chapter 2, Section 31 c.). As 
currently drafted, the S. 212 is unclear about funding mechanisms and 
formulas.

Background
    Irrigation water pumped from the High Plains Aquifer has made the 
High Plains one of the Nation's most important agricultural areas. The 
intense use of ground water has caused major declines in ground-water 
levels raising concerns about the long-term sustainability of irrigated 
agriculture in many areas of the High Plains. The changes are 
particularly evident in the central and southern parts of the High 
Plains, where more than 50 percent of the aquifer has been dewatered in 
some areas.
    S. 212 directs the Secretary of the Interior, acting through the 
USGS, and in cooperation with the High Plains Aquifer States, to 
establish and carry out a program of characterization, mapping, 
modeling, and monitoring of the High Plains Aquifer. This would be 
accomplished through mapping of the configuration of the High Plains 
Aquifer, and analyses of the rates at which ground water is being 
withdrawn and recharged, changes in water storage in the aquifer, and 
the factors controlling the rate of flow of water within the aquifer. 
Effective coordination of the data collection and monitoring efforts 
requires that any data collected under the program be consistent with 
Federal Geographic Data Committee data standards and that metadata be 
published on the National Spatial Data Infrastructure Clearinghouse.
    The role identified for DOI in S. 212 is consistent with USGS's 
leadership role in interpretation, research, and assessment of the 
earth and biological resources of the Nation. As the Nation's largest 
water, earth, and biological science, and civilian mapping agency, USGS 
conducts the most extensive geologic mapping and ground-water 
investigations in the Nation in conjunction with our State and local 
partners. Furthermore, the USGS has been active in a number of programs 
and investigations that involve the High Plains Aquifer, specifically.
    The USGS has offices in each of the eight States underlain by the 
High Plains Aquifer (Texas, Oklahoma, Kansas, Nebraska, South Dakota, 
Wyoming, Colorado, and New Mexico). These offices have a long history 
of ground-water monitoring and assessment activities within the 
aquifer.
    The USGS carried out the first comprehensive quantitative study of 
the High Plains Aquifer in the late 1970's through the Regional 
Aquifer-System Analysis (RASA) Program. With our partners in the 
Cooperative Water Program, we continue to provide ground-water models 
to evaluate the present and future state of the aquifer in some parts 
of the High Plains, although an overall assessment of the aquifer is 
now over two decades old.
    In response to the water-level declines, a ground-water monitoring 
program was begun across the High Plains in 1988 to assess annual 
water-level changes in the aquifer, an effort requiring collaboration 
among numerous Federal, State, and local water-resource agencies. Water 
levels continue to decrease in many areas of the aquifer, but the 
monitoring has indicated that the overall rate of decline of the water 
table has slowed during the past two decades. This change is attributed 
to improved irrigation and cultivation practices, decreases in 
irrigated acreage, and above-normal precipitation during this period. 
More in-depth studies are required to determine the relative importance 
of these different factors and to improve estimates of recharge rates, 
which is crucial to projecting future water levels and their response 
to changing agricultural practices.

Conclusion
    A reliable source of ground water is an essential element of the 
economy of the communities on the High Plains. The goals of S. 212 are 
commendable; it contains provisions that are well within the scope and 
expertise of the USGS, and it emphasizes a high level of coordination 
between the Department of Interior and the States in addressing an 
issue of significant economic concern to the Nation. However, as noted 
above, the Administration has concerns about the bill. Moreover, any 
new funding resulting from its enactment would remain subject to 
available resources.
    Mr. Chairman, thank you for the opportunity to present this 
testimony. I will be pleased to answer any questions that you and other 
members of the Committee might have.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    First, before we get into questions, I have a statement 
from Mr. Stenholm. Without objection, we will enter this 
statement into the record.
    So ordered.
    [The prepared statement of Mr. Stenholm follows:]

    Statement submitted for the record by The Honorable Charles W. 
 Stenholm, a Representative in Congress from the State of Texas, on S. 
                                  212

    Thank you for the opportunity to present my thoughts regarding S. 
212, the High Plains Aquifer Hydrogeologic Characterization, Mapping, 
and Modeling Act. I have serious concerns about this particular 
legislation for a number of reasons.
    Specifically, I am concerned about S. 212 for the following 
reasons: I believe it will duplicate existing monitoring and modeling 
efforts; it may divert limited resources from ongoing on-the-ground 
conservation programs; it will needlessly involve another federal 
agency in an area historically managed by state and local entities; and 
finally, it might unintentionally undermine some of the significant 
successes we are presently seeing in the condition of the Ogallala 
Aquifer.
    The reason I feel so strongly about this is simple: groundwater 
from the Ogallala formation is the life-blood of the High Plains, both 
in Texas and in many other states. In Texas alone, this amazing natural 
resource underlies approximately 36,080 square miles of land, servicing 
hundreds of thousands of residences, small businesses, and farm and 
ranch enterprises.
    While I am supportive of research in general, not every research 
proposal is a wise and efficient use of limited federal dollars. One 
should note that in the 2002 Farm Bill we have already authorized a 
multi-million dollar Ground and Surface Water Conservation Program that 
would focus on providing technical expertise and cost-share assistance 
to enhance water stewardship for farmers and ranchers in the High Plain 
Aquifer states.
    In fact, along with the former Chairman of the House Committee on 
Agriculture, Larry Combest, I included language in the report on the 
2002 Farm Bill that specifically recognized the critical importance of 
the Ogallala. During the first round of funding that went out under the 
Ground Water and Surface Water Conservation Program, the USDA made the 
Ogallala its priority. However, this new effort merely supplements the 
decades of monitoring, modeling and conservation work that has been 
done and is still being carried out by the following entities: USDA's 
Natural Resources Conservation Service; USDA's Agricultural Research 
Service; various Land Grant universities, along with Texas Tech 
University; local underground water districts; state and local 
agencies; and private land owners.
    I understand there are some who think an issue has not been 
addressed until the federal government becomes involved. I trust that 
most of us here recognize that this is not necessarily always the case. 
The truth is that the work of the organizations I just mentioned has 
already produced most of the information and much of the improvements 
that S. 212 purports to encourage.
    Underground water districts in Texas have already mapped, and 
regularly monitor, most all of the High Plains Aquifer in the state. 
The Natural Resources Conservation Service is already providing 
coordination, technical assistance, and cost-share assistance for 
implementation of irrigation conservation practices. Universities and 
federal research facilities are already working together to provide the 
increased information that will help us to improve our stewardship of 
precious groundwater resources. The bottom line is this: these and many 
other efforts are already producing real, measurable results. Water use 
efficiency in the Ogallala has improved dramatically, with some new 
irrigation systems reaching almost 100 percent efficiency. This is a 
huge improvement from the 50 percent efficiency rates we saw back in 
the 1950s and 1960s.
    While I trust the good intentions by the authors of this 
legislation, the law of unintended consequences is still in effect. 
With that in mind, I do not believe we need to encourage another layer 
of federal involvement in the stewardship of this already well-
monitored resource. In point of fact, the folks working in the Ogallala 
need the freedom and the financial assistance to implement those 
actions they know will work with regard to conservation. I firmly 
believe that the folks whose livelihoods and futures depend on this 
water resource are the best ones to actually do the work that the 
authors of S. 212 seem to want to encourage.
    Mr. Chairman, let me thank you once again for allowing me to 
present these views this morning. I look forward to working with my 
colleagues on the Resources Committee to preserve and enhance the 
usefulness of the Ogallala for years and years to come.
                                 ______
                                 
    Mr. Calvert. Mr. Keys, what is the criteria, as you 
understand it, that the Administration uses with respect to 
which proposed projects require cost-share agreements?
    Mr. Keys. Mr. Chairman, I am not sure I understand your 
question. If you are talking about the Title 16 programs that 
we work with, they require agreements with the project sponsors 
for which they will pay 75 percent of the cost, and the 
Government pays 25 percent of the cost of those projects.
    Mr. Calvert. Has that been consistent on various types of 
projects throughout the Reclamation Department over time?
    Mr. Keys. Mr. Chairman, under Title 16, the 25 percent is 
certainly there. On other projects that have their own specific 
authorizations, it has been different than that.
    Mr. Calvert. From the sessions which Reclamation held in 
its Water 2025 initiative, what were some of the topics brought 
to table with respect to municipal water supplies and 
Reclamation's role in providing those water needs?
    Mr. Keys. Mr. Chairman, we had nine different sessions 
across the Western United States to talk with folks about Water 
2025. There were numerous municipalities that have talked with 
us about problems that they have, have talked to us about 
different ways to accommodate different water needs now and in 
the future, now dealing with the drought that we are facing in 
the future to deal with exploding populations and growing 
areas.
    The range of those discussions is from small amounts of 
storage or wastewater treatment facilities all the way up to 
needing large storage facilities in the future.
    Mr. Calvert. So you would agree, then, that the project 
that is being outlined in H.R. 3334 meets the criteria that you 
intend to put forth in 2025, Water 2025?
    Mr. Keys. Mr. Chairman, Water 2025, what we have proposed 
there in most cases has been a 50-50 cost share. Our objection 
on this bill is not with the 35 percent, although we would 
rather have it 25 percent like some of the others. Our 
objection is that there is no cap on it. The way the bill is 
written now, if the project, just for example, if it went to a 
billion dollars, the Federal Government would have to pay $350 
million of it. We would like to see a cap put on that.
    Mr. Calvert. I think I can guarantee you right now it won't 
cost a billion dollars.
    Mr. Keys. And I understand that, for sure. I understand 
that it is like $150 million, but still we think there should 
be a cap put on there so that we know how much we are having to 
deal with in the future.
    Mr. Calvert. So, based upon your testimony, when the 
feasibility studies are completed, what you are saying is that 
we can come to a more accurate number, and then the 
Administration is prepared to enter into an agreement that 
would accept a certain cap and move forward on this project?
    Mr. Keys. Mr. Chairman, that is my understanding.
    Mr. Calvert. We certainly look forward to working with you, 
and certainly with Western Water and other agencies to make 
sure that we move this forward.
    Mr. Hirsch, how has been the cooperation between USGS, the 
States, and the localities on the High Plains Aquifer programs; 
have they been good?
    Mr. Hirsch. Yes, I think the relationships are excellent. 
We have a number of cooperative kinds of programs, such as our 
Cooperative Water Program. I can't tell you how many agencies 
in this area are, but we have 1,400 State and local agencies 
nationwide with whom we cooperate on water programs. So that 
there is a close collaboration.
    The map that you see over here, in fact, is produced 
through collaboration between the USGS and many, many State and 
county and regional agencies, all of whom are engaged in the 
monitoring of water levels and under congressional mandate 
through the Appropriations Committee.
    We produce maps of this kind about once every 2 years 
describing the continued changing state. This involves a great 
deal of information that is collected by others, and then we 
assemble it across the entire High Plains region.
    Mr. Calvert. As you have indicated, the bill probably is 
not necessary, since better coordination of current programs 
can do the job, and you apparently believe that. What would be 
the immediate way that you could do this without Federal 
legislation to improve coordination?
    Mr. Hirsch. I think holding some regional meetings. I note 
that, for example, the Western States Water Council about a 
month from now is going to be having a first meeting, not just 
relating to the High Plains, but relating to the groundwater 
issues. Working with organizations like Western States Water 
Council, I think we could bring together the parties to look at 
the variety of activities and try to get that multi-State 
collaboration, multi-State and Federal collaboration even 
better than it is today.
    Mr. Calvert. I appreciate that.
    As Mr. Keys knows, and I think our experience with water 
is, it is difficult to compel people to do anything with water. 
So it is best if we can work together to come to some kind of 
an arrangement.
    With that, Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chair.
    Commissioner, it is good to see you again.
    I am referring to 3391 because you have not been able to 
see it nor opine on it. I would be asking if you can give us 
your commitment that the Administration will provide us with 
the Bureau of Reclamation's and the Fish and Wildlife Service's 
view on it, to this Committee.
    Mr. Keys. Mr. Chairman and Mrs. Napolitano, we have not 
seen the bill, and certainly title transfer is a valuable part 
of our commitment to working with irrigation districts and 
other water users that we work on a daily basis with, and 
certainly we are working with and will continue to work with 
the sponsors of the bill, the people on the ground, and the 
Committee to make that happen.
    I will certainly promise to give you the viewpoint of the 
Administration, and that certainly includes----
    Mrs. Napolitano. Would you make sure that this Committee 
gets it, Mr. Keys?
    Mr. Keys. Ma'am?
    Mrs. Napolitano. Make sure that this Committee gets a copy 
of those views, please, from both agencies--the Fish and 
Wildlife and Bureau of Reclamation.
    Mr. Keys. Mr. Chairman and Mrs. Napolitano, I understand 
that the Committee would like our testimony to be added into 
the record----
    Mrs. Napolitano. Correct.
    Mr. Keys. And certainly that was how I would propose to do 
that.
    Mrs. Napolitano. That is fine.
    Mr. Calvert. That is correct.
    Mrs. Napolitano. We just need to be sure we get it so we 
can go over it.
    Mr. Hirsch, this is on 212. You know that the level of the 
aquifer is declining in some areas, and we talked about it. Are 
they increasing in other areas?
    Mr. Hirsch. Yes. That is an interesting question. Overall, 
the entire aquifer, we estimate that about 6 percent of the 
original storage, say, half a century ago, has been diminished. 
In other words, we are at about 94 percent of the amount of 
water that was in there 50 years ago, and those declines are 
particularly focused in the State of Texas with about a 27-
percent decline and Kansas with about a 16-percent decline.
    On the other hand, the State of Nebraska has actually seen 
small increases in the amount of water and storage in the High 
Plains Aquifer, owing to the fact that there is a good deal of 
surface water irrigation in the State of Nebraska overlying the 
Ogallala, and there has actually been water level rises in some 
of those areas. So it is quite a different picture in different 
parts.
    It is illustrated on this USGS map over here. The blue 
areas indicate areas of water level rise; the grey indicates 
very, very little change; whereas, the reds and oranges 
indicate the areas of considerable decline, which you see are 
particularly focused in Kansas and Texas.
    Mrs. Napolitano. I am glad you have good eyesight because I 
don't.
    [Laughter.]
    Mr. Hirsch. I am familiar with the map.
    Mrs. Napolitano. You are saying that the aquifer performs 
differently in the different areas.
    Mr. Hirsch. Indeed.
    Mrs. Napolitano. How would this affect the delivery of 
quality water?
    Mr. Hirsch. It is a comment on quality because the primary 
use of water throughout the High Plains Aquifer is for 
irrigated agriculture. Much of that irrigated agriculture 
includes the addition of chemicals, primarily fertilizers and 
pesticides. We know that, to some extent, there is recharge of 
that irrigation water through the unsaturated zone to the 
Ogallala Aquifer, which does carry some of the nitrate and some 
of the pesticides down to the water table. This is an active 
area of research for the USGS at the present time through our 
National Water Quality Assessment Program.
    So there is I think in a long-run view, there are reasons 
to be concerned about the quality of water in the High Plains 
Aquifer, particularly for the individual farmers and the small 
and large communities that derive their drinking water from the 
High Plains Aquifer.
    Mrs. Napolitano. Is, then, there an issue with the 
possibility of those areas not having potable water or having 
problems, having to clean it before they reuse it or before 
they recharge the aquifer?
    Mr. Hirsch. Looking at other agricultural areas in the 
country, we can anticipate the possibility, particularly with 
respect to nitrate, which is of a health concern particularly 
for babies, that those concentrations could increase to the 
point where it would be problematic for those communities and 
that there would be need either for point-of-use treatments in 
homes or for community water supplies to treat the water to 
treat for the nitrate contamination that might occur.
    Mrs. Napolitano. Thank you, Mr. Hirsch.
    Mr. Calvert. Thank you.
    The gentleman from Nebraska?
    Mr. Osborne. Thank you, Mr. Chairman.
    I gather from your comments that you don't really believe 
this study is warranted or necessary; is that correct?
    Mr. Hirsch. We believe that this is an extremely valuable 
resource, the High Plains Aquifer, and that we, in fact, 
conduct and conduct in conjunction with many, many State and 
local agencies, research and monitoring which I think are 
extremely important to the viability of this really breadbasket 
area of the country. The question really is whether an 
additional authorization is needed to supplement those kinds of 
things that are already going on. So we conduct and highly 
value the research that we and many of our partners and others 
in the area do. We think it is extremely important to the area, 
but we don't think that additional legislation is needed to 
deal with the issues.
    Mr. Osborne. Is there currently a comprehensive study? I 
know there are some maps, but is there a comprehensive 
understanding of the dynamics? Because I realize we want to 
keep the water rights at the State level. I don't think anybody 
wants to see that violated, but I think, from my own 
experience, each State tends to look at their own problems.
    As I mentioned earlier, I believe this is somewhat of a 
dynamic system. Some of the Southwest States, I think the 
aquifer is primarily from rainwater that seeps down into a 
basin, but there is still a lot of flow in Nebraska, some in 
Kansas, where it is interchangeable. And so is there a 
comprehensive study right now that indicates the dynamics? I 
look at this as somewhat of a living system.
    Mr. Hirsch. Mr. Osborne, indeed, I think ``living system'' 
is an excellent way to term it. It is dynamic. There is no 
ongoing comprehensive study of the High Plains Aquifer. The 
USGS, in its regional aquifer system analysis, did a 
comprehensive look at the aquifer system. That was done in the 
late 1970s, and there has not been a relook at that study, a 
remodeling based on better geologic information and changing 
agricultural practices and new information on water level.
    There are many excellent more State, local or regional 
scale models. For example, the USGS was involved in one 
involving Nebraska and Kansas and the Republican River and its 
interactions with this system. So there are a number of 
modeling studies in particular areas.
    The only other thing that is going on I would say in a 
comprehensive manner is this mapping of water level changes 
that we conduct every two, about every 2 years. In fact, a 
report on those water level changes is coming out within the 
next few months that we did in cooperation with the States.
    That is not a study of the dynamics of the system and how 
it behaves, but rather it is more like a census; that is to 
say, quantifying the amounts of change that have occurred over 
recent decades.
    Mr. Osborne. One thing you mentioned, that in places in 
Nebraska the aquifer has increased, and essentially that is 
because of some dams that have been built because we have 
stored surface water, and that surface water then has 
regenerated, you know, through underground flow, some of the 
aquifer and has raised it up. And that is why I am mentioning 
it is dynamic.
    Also, we notice that some of the aquifer from the Platte 
Valley spills over into the Republican Valley, and I am sure 
there is some seepage or there is some interaction with Kansas. 
So the only thing I can say to you is that, in view of the fact 
that there are ongoing studies, but it doesn't seem to me that 
there is anything that has been real comprehensive and has 
looked at the whole system and one study is something would be 
appropriate along those lines.
    Mr. Hirsch. Yes, and----
    Mr. Osborne. And maybe it can be done by amalgamating all 
of the ongoing studies, but I really believe this is such a 
valuable resource, we need to have a very accurate picture of 
what is happening there.
    Mr. Hirsch. If I could just comment on the kind of concept 
of amalgamating. I think one of the approaches that the 
hydrologic sciences community, USGS and others, use is to 
develop groundwater models which are mathematical 
representations of the behavior of the whole system, the 
precipitation, the recharge, the percolation, the movement of 
the water to the water table, and the pumping, et cetera, and 
the lateral flow.
    There are existing programs that could carry out such a 
comprehensive study, but they are not currently funded at 
levels that would enable them to do such a study.
    Mr. Osborne. Thank you, Mr. Chairman. I yield back.
    Mr. Calvert. Thank the gentleman.
    The gentleman from Texas?
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Hirsch, is the USGS currently mapping the High Plains 
Aquifer?
    Mr. Hirsch. In some areas, we are engaged in additional 
mapping, particularly through our National Cooperative Geologic 
Mapping Program. This is a program that is carried out in very 
close conjunction with the State geological surveys, where the 
USGS does some mapping, the State surveys do mapping. Dr. Lee 
Allison, the State geologist of Kansas will be testifying in 
front of you in a few minutes. He is actually better qualified 
to talk about that mapping aspect than I am because he works on 
the geologic side of things. Whereas, I tend to work more on 
the hydrologic side.
    So there are areas within the High Plains Aquifer where our 
programs are engaged in some additional mapping.
    Mr. Neugebauer. And in your testimony you mentioned that 
this bill does not provide for monitoring, but there is, in 
fact, monitoring going on throughout the High Plains Aquifer; 
is that not correct?
    Mr. Hirsch. Absolutely, there is monitoring. My point was 
that we see, in the carrying out of hydrogeologic studies, the 
need to very closely coordinate monitoring efforts and modeling 
efforts. It is a little bit like a doctor looking at a patient, 
figuring out what tests to do in order to understand how the 
patient is doing and behaving, and you want to make sure your 
monitoring is at the right places and at the right frequency to 
really better define the dynamics of the system.
    And so to have this Committee come together to plan studies 
and not to discuss monitoring seems to us to be an unbalanced 
approach to improving the overall understanding of the system.
    Mr. Neugebauer. The gentleman from Nebraska brought up some 
points about a more comprehensive study possibly, but there is 
really nothing currently that is prohibiting you from doing a 
more comprehensive analysis with the partners that you are 
already partnering with, is there?
    Mr. Hirsch. No, it is a question of resources. We have 
something in the USGS called the Groundwater Resources Program, 
where we have taken on looking at large aquifer systems. Fairly 
recently we completed work on the Middle Rio Grande Aquifer 
system. Now, admittedly, that is only one State, but it is 
quite a large system, and our Groundwater Resources Program 
could, if funds were appropriated for it, the Groundwater 
Resources Program could certainly conduct such a study and 
would do so in close collaboration with many State and local 
agencies.
    Mr. Neugebauer. So, really, what you are saying, if I hear 
your testimony correctly, it is really not an authorization 
issue that is before us on this aquifer. It is more of an 
appropriations issue that possibly other members of this panel, 
those of us that have a great deal of interest in this aquifer 
maybe should be pointing our efforts toward that.
    What kinds of coordination efforts are currently going on 
between the underground--I think you mentioned a Western States 
group. Can you kind of elaborate what kinds of ways you 
interact with those different agencies, and is it at the State 
level or is it individual conservation or water district level?
    Mr. Hirsch. We have, within the U.S. Geological Survey, a 
program called the Cooperative Water Program. It has been in 
existence for 105 years, in which we enter into agreements with 
State or local and underground storage districts, et cetera, 
the conservation districts, et cetera, would be some of the 
participants, in which we negotiate agreements about studies 
and monitoring, et cetera, to be carried out.
    So we interact with, nationwide, 1,400 different State and 
local agencies on hydrologic studies. And we often gather 
together many of those agencies in statewide meetings to talk 
about the conduct of these programs to look for the synergies 
between and across these many agencies involved.
    We have less degree of this kind of collaboration, perhaps, 
across State lines, but rather a lot of collaboration, say, 
within the State boundaries.
    Mr. Neugebauer. But if you were to be authorized or 
appropriated the appropriate amount of money to do a more in-
depth study, a part of that appropriation could be worked out 
in a collaborative effort between those other States, could it 
not?
    Mr. Hirsch. Absolutely. An interesting, the appropriations 
bill that just came through the Conference Committee a couple 
of days ago, in fact, has an example of that. The Spokane 
Valley-Rathdrum Prairie Aquifer that straddles Washington and 
Idaho calls for us to conduct, beginning at least to conduct a 
comprehensive study of that aquifer system in close 
coordination and conjunction with those two States. And similar 
things could be done here.
    Mr. Neugebauer. Thank you, Mr. Hirsch.
    I yield back my time.
    Mr. Calvert. I thank the gentleman.
    The gentleman from Utah?
    Mr. Cannon. Thank you, Mr. Chairman.
    First, let me thank the panel for being here today. We 
seriously appreciate that.
    I just had one question relating to my bill. Mr. Keys, I 
understand that this was just recently introduced, and that the 
Department would not have a position on it yet, but could you 
comment, generally. If you know something about the bill or 
have a view of the bill, I would appreciate that, but more 
generally on the idea of title transfers and where you would 
like to see your agency go with those.
    Mr. Keys. Mr. Chairman, Mr. Cannon, I have not seen the 
bill and certainly can't testify on it today.
    What I would tell you is that Reclamation and the 
Administration supports title transfer. We have an active 
program underway to transfer title to those districts, to those 
entities that feel like they would like to have their own 
title.
    In some cases, it is very judicious to do that; in other 
places, it may not be quite as attractive. In this case, we 
have worked closely with all of the sponsors there, the local 
people. We will certainly continue to do that. We think that it 
makes sense to transfer the title to this one, and it is up to 
the parties and us to work together to work out the details.
    Mr. Cannon. Thank you very much. We appreciate that and 
look forward to your input as we go through this process.
    I thank you, Mr. Chairman, and I yield back.
    Mr. Calvert. Thank you very much.
    We are talking about California. There is not much of it 
left.
    Mrs. Napolitano?
    Mrs. Napolitano. Yes, Mr. Hirsch, again back to 212.
    Do you have any idea how much funding, how much money has 
been spent on studying aquifer?
    Mr. Hirsch. I don't think I could give you a figure at this 
time.
    Mrs. Napolitano. Ballpark?
    Mr. Hirsch. Do you mean on an annual basis or historically 
over----
    Mrs. Napolitano. Total.
    Mr. Hirsch. Combining our efforts and those of State and 
local entities, some tens of millions of dollars perhaps over 
time.
    Mrs. Napolitano. But not in a coordinated effort.
    Mr. Hirsch. Coordinated and perhaps on a State-by-State 
basis, and some of our efforts have been coordinated across the 
aquifer, such as those that produced this map or the study I 
referred to in the 1970s, the Regional Aquifer System Analysis 
study that was done in the late 1970s, which was coordinated 
across the region.
    Mrs. Napolitano. I agree with you on the idea that the 
States possibly could work together and come to a joint effort 
to do a coordinated study with support and funding from the 
Federal Government. The less Federal Government involvement in 
terms of legislation to me is much better. But do you see any 
problems with the States wanting to work together? As it is, we 
are saying in the bill that it is not mandatory for any State 
to become part of this.
    Mr. Hirsch. One of the issues that we encounter working in 
our cooperative aspects of our programs in the USGS is the 
differing interests of the States in terms of working on 
studies that cover hydrologic systems that are, of course, 
which do not respect State boundaries, and it is certainly 
difficult to carry out a study of a system like this that may 
stop and start at State boundary lines because the water simply 
can, the knowledge needs to be looked at across the State lines 
and, in fact, the water, to some extent, does flow across State 
lines.
    So to do a comprehensive study either would have to have 
sufficient Federal funding so that it could straddle all States 
regardless of their degree of interest or would have to, in 
some manner, mandate State participation because a 
comprehensive study would have to look, of course, at all 
States involved in it.
    Mrs. Napolitano. Which do you believe might be more 
favorably looked at by the States? After all, this is their 
water.
    Mr. Hirsch. Right. Obviously, they would not be interested 
in a mandatory effort.
    Mrs. Napolitano. But they would want the money.
    Mr. Hirsch. I suspect they would.
    [Laughter.]
    Mrs. Napolitano. Does, well, the United States really have 
plans to regulate water withdrawals from the High Plains 
Aquifer or from any aquifer for that matter?
    Mr. Hirsch. The U.S. Geological Survey, where I work, does 
not involve itself in issues of regulation, but I think I can 
state pretty clearly that there is no intent within this 
Administration to regulate the use of groundwater.
    Mrs. Napolitano. Has there ever been any regulation of 
groundwater withdrawals?
    Mr. Hirsch. That is a pretty----
    Mrs. Napolitano. Pretty deep.
    Mr. Hirsch [continuing]. A pretty sort of global kind of 
question. I suspect there are instances where particular local 
water quality concerns or ecological concerns have resulted in 
controls established on the pumping of groundwater.
    Mrs. Napolitano. But would those not be really on an as-
needed basis; in other words, a very dire need?
    Mr. Hirsch. I guess I don't know exactly how to 
characterize the level of need that might require them, but 
certainly I could think of cases where there are contamination 
problems, where continued pumping would exacerbate that problem 
and perhaps, under Superfund or other regulation, other laws 
that certain people had to stop pumping, for example.
    Mrs. Napolitano. I guess maybe I am more concerned about, 
in 212, in the thinking that there might be a heavy-handed 
approach by the Government over the actual withdrawal of water 
by the States.
    Mr. Hirsch. I guess I would say that you need to ask the 
sponsors of the legislation that question, rather than me.
    Mrs. Napolitano. Thank you.
    Mr. Calvert. I thank the gentlelady, and I thank this 
panel. I appreciate your coming today. You are excused.
    Our next panel of witnesses are from the prestigious 44th 
Congressional District of California, Riverside, California.
    Elizabeth Cunnison and Ben Wicke are from the 44th, but I 
also see my good friend and former Mayor of my hometown, 
Corona, Al Lopez, in the audience with us today, with the 
Western Water Board. Welcome, Al. Good to see you.
    Please take your seats.
    My friend Don Harrier couldn't be here today. I understand 
he is not feeling well, so certainly let him know that we are 
thinking about him. My good friend for many years, as everyone 
on the Western Board have been. So it is good to see you again.
    Ms. Cunnison. Good to see you.
    Mr. Calvert. We have a 5-minute rule here to try to keep 
things moving, so I would ask you to keep your comments within 
the 5 minutes. Any additional comments certainly will be 
entered into the record.
    With that, Ms. Cunnison, you are recognized for 5 minutes.

  STATEMENT OF ELIZABETH L. CUNNISON, DIRECTOR, REPRESENTING 
          DIVISION 2, WESTERN MUNICIPAL WATER DISTRICT

    Ms. Cunnison. Thank you. Good morning, Mr. Chairman. I am 
Elizabeth Cunnison. It is a pleasure to be here before you 
today to discuss a project near and dear to the hearts of the 
people of your district, the Riverside-Corona Feeder. With me 
are S.R. ``Al'' Lopez, representing the City of Corona, who has 
with him a letter of support from the City; Terry Milne, 
Director of Metropolitan Water District, who has a letter of 
support from metropolitan, and I work like to enter those.
    Mr. Calvert. Without objection, so ordered.
    [NOTE: Letters submitted for the record have been retained 
in the Committee's official files.]
    Ms. Cunnison. Also in attendance is W.R. Ben Wicke, 
Director for Elsinore Valley Municipal Water District; William 
Dendy, project consultant; and Melodie Johnson, our public 
information officer.
    This is a very important day for our region because it 
represents years of cooperative effort to structure a plan that 
is agreeable to the region, viable technically and 
economically, and beneficial to the larger issues of the State, 
reducing the demands for water from the Colorado and Northern 
California in dry years. We commend you for your leadership in 
introducing this bill, H.R. 3334, and in holding this hearing.
    While I will give the primary testimony and Ben Wicke will 
provide brief, supplemental comments, the others came to 
demonstrate the wide appeal and importance this project has to 
Western's area, from San Bernardino to Riverside to Corona to 
the Elsinore Valley.
    First, a brief history about why this project is now 
possible. Recently, an agreement has been signed, coupled with 
historic court water rights judgments, that creates an 
opportunity for Western Municipal Water District to meet 
drought-year water supply needs in its 510-square-mile service 
region with additional local and wet-year supplies. In order to 
deliver this water during dry-year conditions, a conveyance 
system is needed.
    Now let me briefly describe the project itself. Its purpose 
is to capture and store new water in wet years in order to 
increase firm water supplies, reduce water costs, and improve 
water quality. This new water will come, in wet years, from 
local runoff, including regulated releases from Seven Oaks 
Reservoir on the Santa Ana River, and from the State Water 
Project through Metropolitan. It will be stored in San 
Bernardino Valley groundwater basins.
    In order to deliver this stored water to consumers, the 
project will provide new groundwater pumping capacity and new 
delivery pipeline capacity throughout our system. This new 
pumping and delivery capacity will enable the new water to be 
stored safely by providing important new means to control water 
tables which currently fluctuate. When pumped, the water will 
be delivered to communities in western Riverside County through 
28 miles of pipeline capable of moving 40,000-acre-feet of 
water per year. A map is attached to my testimony which shows 
the configuration of the system.
    The direct project beneficiaries are water consumers 
currently served by the following entities: the City of Corona, 
Elsinore Valley Municipal Water District, Jurupa Community 
Services District, Rubidoux Community Services District, 
Western Municipal Water District--the project sponsor--City of 
Norco, City of Riverside, Lee Lake Water District, and Home 
Gardens County Water District.
    As I mentioned previously, we have a representative from 
Elsinore Valley Municipal Water District who has joined us 
today to speak briefly on the importance of this project to his 
community.
    In addition, because the project will store wet-year water, 
it will benefit others in dry years, including Colorado River 
water users, other Metropolitan Water District water users, and 
even water-dependent environments in Northern California.
    Let me briefly enumerate the project benefits which will 
accrue when H.R. 3334 is enacted and the project is completed.
    The first is local drought protection. In western Riverside 
County, dependence on imported water in dry years will be 
reduced, water costs will be reduced, and water reliability 
will be improved.
    Second, we will have better groundwater management. In San 
Bernardino Valley, groundwater levels will be better managed to 
help reduce the threat of liquefaction in some areas while 
maintaining levels that support water supply wells in other 
areas.
    We will have regional benefits. Water users elsewhere in 
Metropolitan Water District who are unable to practice 
conjunctive use will benefit from increased availability of 
imported water in dry years due to Western's ability to reduce 
demand on imported water.
    The Colorado River will benefit. Other water users that are 
dependent on the Colorado River may enjoy improved dry-year 
water supplies as the local region reduces imported water 
demand.
    And, fifth, Northern California. To the extent Metropolitan 
is able to reduce its overall dry-year demand on imported water 
supplies from the State Water Project due to Western Municipal 
Water District's reduced dry-year demand, the State Water 
Project will be able to dedicate more environmental water to 
the Delta and other areas.
    Mr. Chairman, we have estimated our project cost at $151 
million, and your legislation authorized the Bureau of 
Reclamation to contribute 35 percent of that cost. 
Environmental work is currently underway, funded by Western. We 
are confident that this important project and this bill will 
significantly improve the lives of the people in the Riverside 
County region.
    At this point, I will turn to Mr. Wicke for his statement, 
and then my colleagues and I will be happy to answer any 
questions that you may have.
    [The prepared statement of Ms. Cunnison follows:]

             Statement of Elizabeth L. Cunnison, Director, 
    Western Municipal Water District on the Riverside-Corona Feeder

    Mr. Chairman, it is a pleasure to be here before you today to 
discuss a project near and dear the hearts of the people of your 
district--the Riverside-Corona Feeder. With me are S.R. ``Al'' Lopez, a 
fellow Director, representing the city of Corona on our Board; W.R. 
``Ben'' Wicke, Director for Elsinore Valley Municipal Water District; 
Randall Van Gelder, Assistant General Manager, San Bernardino Valley 
Municipal Water District; William Dendy, Project Consultant; and 
Melodie D. Johnson, our Public Information Officer.
    This is a very important day for our region because it represents 
years of cooperative effort to structure a plan that is agreeable to 
the region, viable technically and economically, and beneficial to the 
larger issues of the State--reducing the demands for water from the 
Colorado and Northern California in dry years. We commend you for your 
leadership; in introducing the bill--H.R. 3434--and in holding this 
hearing.
    While I will give the primary testimony and Ben Wicke will provide 
brief, supplemental comments, the others came to demonstrate the wide 
appeal and importance this project has to Western's area, from San 
Bernardino to Riverside to Corona to the Elsinore Valley.
    First, a brief history about why this project is now possible. 
Recently, an agreement has been signed, coupled with historic court 
water right judgments, that creates an opportunity for Western 
Municipal Water District to meet drought-year water supply needs in its 
510 square mile service region with additional local and wet year 
supplies. In order to deliver this water during dry year conditions, a 
conveyance system is needed.
    Now let me briefly describe the project itself. Its purpose is to 
capture and store new water in wet years in order to increase firm 
water supplies, reduce water costs and improve water quality. This new 
water will come, in wet years, from local runoff, including regulated 
releases from Seven Oaks Reservoir on the Santa Ana River, and from the 
State Water Project. It will be stored in San Bernardino Valley 
groundwater basins.
    In order to deliver this stored water to consumers, the project 
will provide new groundwater pumping capacity and new delivery pipeline 
capacity throughout the system. This new pumping and delivery capacity 
will enable the new water to be stored safely by providing important 
new means to control water tables which currently fluctuate. When 
pumped, the water will be delivered to communities in western Riverside 
County through 28 miles of pipeline capable of moving 40,000 acre feet 
per year of groundwater. A map is attached to my testimony which shows 
the configuration of the system.
    The direct project beneficiaries are water consumers currently 
served by the following entities: City of Corona, Elsinore Valley 
Municipal Water District, Jurupa Community Services District, Rubidoux 
Community Services District, Western Municipal Water District (the 
project sponsor), City of Norco, City of Riverside, Lee Lake Water 
District, and Home Gardens County Water District.
    As I mentioned, previously, we have a representative from Elsinore 
Valley Municipal Water District who has joined us today to speak 
briefly on the importance of this project in his community.
    In addition, because the project will store wet year water, it will 
benefit others in dry years including Colorado River water users, other 
Metropolitan Water District water users and even water-dependent 
environments in Northern California.
    Let me briefly then enumerate the project benefits which will 
accrue when H.R. 3334 is enacted and the project is completed:
    Local Drought Protection: In western Riverside County, dependence 
on imported water in dry years will be reduced, water costs will be 
reduced, and water reliability will be improved.;
    Better Groundwater Management: In San Bernardino Valley, 
groundwater levels will be better-managed to help reduce the threat of 
liquefaction in some areas while maintaining levels that support water 
supply wells in other areas;
    Regional Benefits: Water users elsewhere in Metropolitan Water 
District, who are unable to practice conjunctive use, will benefit from 
increased availability of imported water in dry years due to Western's 
ability to reduce demand on imported water during dry years;
    Colorado River: Other water users that are dependent on the 
Colorado River may enjoy improved dry year water supplies as the local 
region reduces imported water demand; and
    Northern California: To the extent Metropolitan is able to reduce 
its overall dry year demand on imported water supplies from the State 
Water Project due to Western Municipal Water District's reduced dry 
year demand, the State Water Project will be able to dedicate more 
environmental water to the Delta and other areas.
    Mr. Chairman, we have estimated our project cost at $151 million 
and your legislation authorized the Bureau of Reclamation to contribute 
35% of that cost up to a ceiling of $50 million Environmental work is 
currently underway, funded by Western. We are confident that this 
important project and this bill will significantly improve the lives of 
the people in the Riverside County region. At this point, I will turn 
to Mr. Wicke for his statement, and then my colleagues and I will be 
happy to answer any questions you may have.
                                 ______
                                 

          STATEMENT OF W.R. ``BEN'' WICKE, DIRECTOR, 
            ELSINORE VALLEY MUNICIPAL WATER DISTRICT

    Mr. Wicke. Mr. Chairman and Committee members, as Mrs. 
Cunnison explained, the people I represent would be among the 
many beneficiaries of this important project. I appear before 
you today to state my agency's strong support for the 
Riverside-Corona Feeder.
    Elsinore Valley Municipal Water District is a 53-year-old, 
full-service agency serving the water, sewer, agricultural, and 
reclaimed water needs of our 100,000-member community in 
southwest Riverside County. We are developing every possible 
water source to maintain the needs of our customers. Elsinore 
Valley Municipal Water District currently uses local 
groundwater, local surface runoff of the San Jacinto River 
Watershed, Metropolitan Water District imported water, and our 
own recycled wastewater to meet the needs of our community. The 
district is developing a groundwater conjunctive use storage 
program also. We are also expanding our recycled water 
distribution network. We are working to add additional raw 
water connections.
    However, in spite of our efforts, we must purchase imported 
water supplies, including Colorado River water, from Western 
Municipal. We believe the Riverside-Corona Feeder project would 
assist Elsinore Valley, plus other water agencies in the 
region, to further reduce deliveries of Colorado River water 
and decrease dependence on imported supplies during drought.
    I again would like to reiterate our strong support for this 
project, not only as representative of a direct beneficiary 
agency, but in the realization that the Riverside-Corona Feeder 
has far-reaching benefits well beyond those to our community.
    Thank you to the Committee for your time today, and thank 
you, Mr. Chairman, for your introduction H.R. 3334.
    We will be happy to answer any questions.
    [The prepared statement of Mr. Wicke follows:]

              Statement of W. R. ``Ben'' Wicke, Director, 
                Elsinore Valley Municipal Water District

    Mr. Chairman and Committee members: As Mrs. Cunnison explained, the 
people I represent would be among the many beneficiaries of this 
important project. I appear before you today to state my agency's 
strong support for the Riverside-Corona Feeder.
    Elsinore Valley Municipal Water District is a 53-year-old, full-
service agency serving the water, sewer, agricultural and reclaimed 
water needs of our 100,000 member community in Southwest Riverside 
County. We are developing every possible water source to maintain the 
needs of our customers. EVMWD currently uses local groundwater, local 
surface runoff of the San Jacinto River Watershed, Metropolitan Water 
District imported water, and our own recycled waste water to meet the 
needs of our community. The District is developing a ground water 
conjunctive use storage program. We are also expanding our recycled 
water distribution network. We are working to add additional raw water 
connections.
    However, in spite of our efforts, we must purchase imported water 
supplies, including Colorado River water, from Western. We believe the 
Riverside-Corona Feeder project would assist Elsinore Valley, plus 
other water agencies in the region, to further our efforts to reduce 
direct delivery of imported supplies and decrease dependence on these 
imported supplies during drought.
    I again would like to reiterate our strong support for this 
project, not only as representative of a direct beneficiary agency, but 
in the realization that the Riverside-Corona Feeder has far-reaching 
benefits well beyond those to our community. Thank you to the Committee 
for your time today and thank you, Mr. Chairman, for your introduction 
of H.R. 3434.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman, and I apologize that we 
have a vote on. I am going to have to leave, all of us will 
have to leave and vote. I have to go to a meeting after that on 
the wildfires in California that I need to be at shortly after. 
But let me assure you, my friends from Riverside County, 
California, that I am obviously very supportive of this bill. I 
think you hear from the Commissioner that I think we need to 
firm up a number. The feasibility reports hopefully will help 
do that. And we can work the Department of Reclamation to 
negotiate that, hopefully in short order. And where we can be 
able to make sure we get a bill that is supported by the 
Administration, it makes things a lot simpler, and we can move 
this legislation as quickly as possible. So I want to thank you 
for your attendance.
    We are going to recess. We have a number of 15-minute 
votes. I think we will be back in approximately half an hour. 
The gentleman from Texas will chair the meeting upon return. 
The witnesses from Utah, certainly we will look forward to your 
testimony, and the people from Riverside, unless there are any 
questions for you, I think you are probably excused, unless 
Mrs. Napolitano would ask any questions upon your return. Would 
you like----
    Mrs. Napolitano. I will ask a few.
    Mr. Calvert. OK. Then hang around.
    Thank you very much. We are recessed for about half an 
hour.
    [Recess.]
    Mr. Cannon. [Presiding.] We are now going to move to 
testimony on H.R. 3391, which is my bill, and we would like to 
welcome Mr. John Carman here, who is the General Manager of the 
Metropolitan Water District of Salt Lake and Sandy, and Mr. Don 
Christiansen, the General Manager of the Central Utah Water 
Conservancy District. I am just looking here to see what they 
say nice about you guys, and then I will introduce you.
    Well, they do not say a lot, so let me just point out that 
we are very pleased to have you here from the great State of 
Utah on a project of great importance to me and my district, 
the people in my district, and the people also in the other 
side of Salt Lake County.
    At this point, Mr. Carman, we would like to turn the time 
over to you to testify.

         STATEMENT OF JOHN R. CARMAN, GENERAL MANAGER, 
       METROPOLITAN WATER DISTRICT OF SALT LAKE AND SANDY

    Mr. Carman. Thank you, Mr. Chairman, members of the 
Committee. I appreciate this opportunity. My name is John 
Carman. I am General Manager of the Metropolitan Water District 
of Salt Lake and Sandy.
    The Metropolitan Water District of Salt Lake and Sandy 
provides wholesale water to Salt Lake City and Sandy City and 
large portions of unincorporated Salt Lake County. In most 
years, our district also provides water to the Jordan Valley 
Water Conservancy District, the other large wholesaler located 
in Salt Lake County.
    The Metropolitan Water District of Salt Lake and Sandy is 
the major shareholder in the Provo River Water Users 
Association. I am currently serving as President of the Board 
of Directors for the Provo River Water Users Association, and 
we have with us here today Keith Denos, General Manager for the 
Association.
    The district and the association I represent are the 
entities responsible to repay to the United States all the 
construction costs of the Provo River Project. There are really 
two components of that project. The Salt Lake Aqueduct 
component is the responsibility of the Metropolitan Water 
District, and the rest of the Provo River Project is the 
responsibility of the association.
    The district and the association are interested in pursuing 
title transfer of certain features of the Provo River Project. 
These would include the Salt Lake Aqueduct, the Provo Reservoir 
Canal, and a small parcel of ground in Pleasant Grove, Utah, 
that is currently used for the Office and Shop Complex.
    Construction of the Salt Lake Aqueduct was begun in 1939, 
and due to a delay with World War II, was completed in 1951. It 
begins at the base of Deer Creek Dam, at the top of Provo 
Canyon, which is in Wasatch County, Utah, and makes its way 
down through Utah County, eventually terminating in Salt Lake 
County. The pipeline is approximately 41 miles long and 
terminates at a reservoir in Salt Lake County.
    The Provo Reservoir Canal is approximately 23 miles long, 
beginning with the diversion off of the Provo River and 
meandering through eight cities in Utah County. It is primarily 
an unlined earthen structure and sits above and below a rapidly 
urbanizing area in Utah County.
    The Provo Reservoir Canal was privately constructed in the 
early 1900s, and then to improve it, the legal title to the 
canal was transferred to the Bureau of Reclamation under the 
Reclamation Act of 1902 to facilitate financing of improvements 
at that time. Ironically, because the United States holds legal 
title to the Provo Reservoir Canal, the local government 
entities which own, we estimate, 90 percent of the capacity in 
the canal cannot use their tax-exempt financing to finance the 
improvements that are critically needed.
    Then, finally, there is a small parcel of ground in 
Pleasant Grove, Utah, on which we have built our Office and 
Shop Complex for the association. The Association was given a 
perpetual right to use this land in 1956, but the actual title 
for that property remains in the name of the United States.
    We believe the proposed title transfer will be the first 
step in accomplishing the following goals:
    First, non-Federal financing of necessary facility 
improvements. While the Salt Lake Aqueduct is generally in good 
shape, there are several features of it that are now 60 years 
old and in need of upgrade. As Metro, we are a political 
subdivision of the State of Utah and cannot use our tax-exempt 
financing status to finance those improvements.
    The Provo Reservoir Canal must be enclosed. We anticipate 
this enclosure project in partnership with Central Utah.
    The fact that the title is held in the name of the United 
States prevents us from using our ability to gain low-cost, 
tax-exempt financing from non-Federal sources.
    There are several other benefits we believe will come from 
that. Water conservation, we estimate that approximately 8 
percent of the water that is transmitted through the canal on 
an annual basis is lost due to seepage or evaporation. Some of 
that water we anticipate using for stream habitat to provide 
for the endangered June sucker which has critical habitat in 
the lower Provo River.
    We believe it will be an improvement to public safety. In 
the last 20 years, we estimate that 14 people have died in the 
canal due to drownings.
    It will improve public drinking water protection and 
security. Increasingly, the water transmitted through this 
canal is treated for public drinking water uses, and right now 
it is vulnerable to access in many places.
    We also believe that there will be a more efficient and 
coordinated use of the water treatment and conveyance 
facilities to benefit all of the water users in Utah and Salt 
Lake Counties.
    Transfer of title for the Salt Lake Aqueduct and the Provo 
Reservoir Canal and the enclosure of the canal will allow a 
more comprehensive and coordinated use of these facilities.
    We also believe that enclosure of the canal will allow for 
recreational benefits which are not currently available. We 
currently prevent people from accessing the maintenance road 
because of safety, security, and other concerns.
    We also believe, finally, that the title transfer will 
reduce demands on limited reclamation resources. Currently, the 
Bureau helps the association and the district with right-of-way 
issues, those sorts of things, and we understand that the 
district and the association would have to completely take on 
these tasks and that Reclamation resources would be freed up 
for other Federal needs.
    Completion of the title transfer to the Salt Lake Aqueduct 
and the Pleasant Grove Property will require a title transfer 
agreement with the Secretary. Completion of title transfer to 
the Provo Reservoir Canal will require certain agreements among 
the impacted local entities and the United States. Completion 
of title transfer will require NEPA compliance and other 
compliance work. The first step is congressional authorization 
of this process, and we ask for your support in this critical 
first step.
    Thank you.
    [The prepared statement of Mr. Carman follows:]

           Statement of John Robert Carman, General Manager, 
            Metropolitan Water District of Salt Lake & Sandy

    My name is John Carman. I am the General Manager of the 
Metropolitan Water District of Salt Lake & Sandy.
    The Metropolitan Water District of Salt Lake & Sandy provides 
wholesale supplemental drinking water to Salt Lake City and Sandy City. 
In most years our District also provides water to a sister agency, 
Jordan Valley Water Conservancy District, the other large public 
wholesaler located in Salt Lake County.
    The Metropolitan Water District of Salt Lake & Sandy is the major 
shareholder in the Provo River Water Users Association. I serve as the 
President of the Board of Directors of the Provo River Water Users 
Association.
    The District and the Association I represent are the entities 
responsible to repay to the United States all of the costs of 
construction of the Provo River Project. Repayment for, and the 
operation and maintenance of, the Aqueduct Division of the Provo River 
Project is the responsibility of the District. Repayment for, and the 
operation and maintenance of, the Deer Creek Division of the Provo 
River Project is the responsibility of the Association.
    The District and the Association are interested in pursuing a title 
transfer of certain features of the Provo River Project in Utah. The 
Association and the District are seeking title to the Salt Lake 
Aqueduct, the Provo Reservoir Canal, and a 3.79 acre parcel of land in 
Pleasant Grove, Utah, that is being used for the Association's Office 
and Shop Complex.
    Construction of the Salt Lake Aqueduct was initiated in 1939. The 
Salt Lake Aqueduct consists of a new intake structure, recently 
constructed without federal funds, located at the base of Deer Creek 
Dam, at the top of Provo Canyon in Wasatch County, Utah. From the 
intake structure, water is conveyed through approximately 41 miles of 
pipe with an inside diameter of 69'', as well as several tunnels. The 
Salt Lake Aqueduct reaches from the intake to the District's Little 
Cottonwood Water Treatment Plant in Salt Lake County. From the plant, 
water is conveyed to two 20 million gallon finished water reservoirs 
located at approximately I-215 and 3300 South in Salt Lake City.
    The Provo Reservoir Canal is approximately 23 miles long and 
reaches from the mouth of the Provo Canyon, through eight Utah County 
cities to the south end of Salt Lake County. For most of its length the 
canal is an open, unlined, earthen structure, perched on foothills 
above and below a rapidly urbanizing area. The Provo Reservoir Canal 
includes four large siphons to move water under streams and roads.
    The Provo Reservoir Canal was privately constructed in the early 
1900s. Legal title to the Provo Reservoir Canal was conveyed to the 
Bureau of Reclamation in 1939 to facilitate financing of canal 
improvements through the Reclamation Act of 1902. Ironically, because 
the United States holds legal title to the Provo Reservoir Canal, the 
local governmental entities are inhibited from obtaining locally 
financed improvements that are critically needed.
    The 3.79 acre parcel of project land in Pleasant Grove, Utah, is 
the location of a new $2 million Office and Shop Complex recently 
completed by the Association using no federal dollars. Though the 
Association was given a perpetual right to use this land in 1956, title 
to the land remains in the name of the United States.
    The proposed title transfer will be the first step to accomplishing 
the following goals:
    1. Non-federal financing of necessary facility improvements.
    While the Salt Lake Aqueduct is generally in very good condition, 
we anticipate accelerating repairs in the coming decades to improve 
security, seismic safety and longevity of the facility.
    The Provo Reservoir Canal must be enclosed. We anticipate an 
enclosure project in partnership with the Central Utah Project.
    The fact that title is held by the United States prevents certain 
low-cost, non-federal financing sources.
    2. Water conservation. It is estimated that the unlined Provo 
Reservoir Canal loses approximately 8% of the water moved through that 
facility. The proposed enclosure would make that water available for 
use.
    3. Use of some of the conserved water for stream habitat. It is 
anticipated that some of the saved water will be used by the Department 
of the Interior for in-stream purposes in the lower Provo River by 
agreement. The lower five miles of the Provo River have been designated 
critical habitat for the June Sucker.
    4. An increase in the Central Utah Project (CUP) water supply. It 
is anticipated that several petitioners for CUP water will be able to 
turn back some CUP water because of the availability of the water saved 
through enclosure of the Provo Reservoir Canal.
    5. Improved public safety. The land surrounding the canal is 
quickly developing, and interactions with the canal are increasing. 
Approximately 14 people have drowned in the Provo Reservoir Canal in 
the last 20 years. Enclosure would virtually eliminate this risk.
    6. Improved public drinking water protection and security. Today, 
the majority of the water moved through the Provo Reservoir Canal is 
treated and used for drinking water. The open canal exposes the water 
to a number of contaminants.
    7. More efficient and coordinated use of water treatment and 
conveyance facilities for the benefit of a number of local governmental 
entities. The Provo Reservoir Canal, the Salt Lake Aqueduct and the 
Jordan Aqueduct all serve water to north Utah County and Salt Lake 
County. Several water treatment plants are, or will be, tied together 
with this facility, and additional facilities currently being 
constructed by this District. Transfer of title to the Salt Lake 
Aqueduct and the Provo Reservoir Canal, and enclosure of the canal, 
will allow a more comprehensive and coordinated use of these 
facilities, to the benefit of all of the communities involved. It is 
anticipated that the coordinated use of these facilities will assist 
the Central Utah Project in meeting some minimum in-stream flow 
commitments.
    8. New public recreational opportunities. Water quality and safety 
concerns prevent the lawful use of the Provo Reservoir Canal 
maintenance road as a public trail. When the canal is enclosed the 
surface could be used safely for a public trail.
    9. The elimination of demands on limited Reclamation resources. The 
Bureau of Reclamation provides dedicated and competent staff support 
and resources to assist with the maintenance of the aqueduct and canal 
rights of way. Those responsibilities will have to be assumed 
completely by the District and the Association, and Reclamation 
resources will be freed up for other federal needs.
    Completion of title transfer to the Salt Lake Aqueduct and the 
Pleasant Grove Property will require a title transfer agreement with 
the Secretary. Completion of title transfer to the Provo Reservoir 
Canal will require certain agreements among the impacted local entities 
and the United States. Completion of title transfer will require NEPA 
compliance and other compliance work. The first step is Congressional 
authorization of this process. We ask for your support of this critical 
first step.
                                 ______
                                 
    Mr. Cannon. Thank you, Mr. Carman. We appreciate that 
testimony.
    Mr. Christiansen, you are recognized for 5 minutes.

        STATEMENT OF DON CHRISTIANSEN, GENERAL MANAGER, 
            CENTRAL UTAH WATER CONSERVANCY DISTRICT

    Mr. Christiansen. Mr. Chairman and members of the 
Committee, I appreciate the opportunity to be here today to 
testify in support of the Provo River Project Transfer Act to 
authorize the transfer of the title of certain features of this 
project. You might wonder why the Central Utah District has an 
interest in this bill. The Central Utah Project and the Provo 
River Project have been intertwined and co-dependent for 
decades. Both projects have dams for water storage on the Provo 
River. Both projects capture this high-quality water and divert 
it through conveyance structures to water users in Northern 
Utah and Salt Lake Counties, and both projects share a duty to 
the recovery of the June sucker in the lower Provo River and 
Utah Lake.
    This bill is important to us at several levels. First, the 
district is finalizing planning and NEPA review for 
construction of facilities required to distribute the remaining 
water supply being developed by the Bonneville Unit of the 
Central Utah Project for use along the Wasatch Front. While we 
have not selected a proposed action, several of the 
alternatives being studied contemplate the delivery of new 
supplies of water to Salt Lake County. Salt Lake presently 
receives its Provo River supplies through one of three systems: 
the Provo Reservoir Canal, the Salt Lake Aqueduct, and the 
Jordan Aqueduct. Our new Bonneville Unit water must be 
delivered through one or more of these existing conveyance 
systems. We believe that coordinated operation of these three 
conveyance systems will maximize the efficient delivery of 
water and at the lowest possible cost. Hence, before title is 
transferred out of Federal ownership to two of these three 
systems, we believe it is important to advance this dialog 
among the various water districts.
    Of particular importance to the Central Utah Water 
Conservancy District are provisions of the bill authorizing the 
title transfer for the Provo Reservoir Canal. When the canal 
was first planned, there were only a few communities along its 
right-of-way, and one of these is the beautiful community of 
Alpine, where I lived for over 25 years. Nearly two decades ago 
while I was serving as Mayor of Alpine, I started a campaign to 
convince the Bureau of Reclamation to replace that open canal 
with a buried pipeline. I failed, but my journey led me from 
being Mayor to the Chairman of the Board of Trustees to the 
General Manager's position of the Central Utah Water 
Conservancy District.
    My concern then as Mayor was one of safety for the 
community. This concern remains. Just last month, two young men 
were drowned in a tragic accident in the Provo Reservoir Canal. 
In addition to the safety issues of the open canal, which now 
runs through numerous residential neighborhoods, we estimate 
that over 8,000-acre-feet of water is lost through evaporation 
and leakage. The Central Utah Water Conservancy District has 
offered to pay half of the estimated $115 million cost to 
enclose the canal in return for which we would receive the 
conserved water. This water would then be made available to the 
Secretary of Interior under provisions of the Central Utah 
Project Completion Act, which would enable the water to be 
applied to in-stream flows in the lower Provo River to help 
recover the endangered June sucker through the recovery 
program. I want to point out that the obligation of the June 
Sucker Recovery Program is one that is shared by all of the 
water users who divert water from the Provo River, including 
the water districts that operate the storage facilities on the 
Provo River.
    It is our plan to create a joint public agency among the 
Central Utah District, the Jordan Valley Water Conservancy 
District, and the Metropolitan Water District of Salt Lake and 
Sandy to take title to a portion of the capacity in this 
facility. This is a vital step in order for us to be able to 
finance the project with tax-advantaged bonds which are only 
available to local public water districts.
    Although we have not heard from the Department of Interior 
today, we know that they have some concerns, and we have heard 
other concerns that have been expressed. But we believe that 
the bill should proceed while the agreements that are 
necessitated are being negotiated. And we think that the 
process should go forward simultaneously with the negotiation 
of the several agreements that have to accompany the title 
transfer. If we were to wait another 6 or 8 months, the time it 
will take to conclude our discussions, it would be too late in 
the legislative process to advance the bill from introduction 
to enactment.
    To address the Department of Interior's concerns, we have 
built a mechanism into the bill draft that restricts the 
Secretary's authority to transfer the title to the Provo 
Reservoir Canal until the Provo River Water Users Association 
certifies that the necessary future ownership, financing, 
operation, and transfer agreements have been completed.
    I want to thank John Carman and the Metropolitan Water 
District of Salt Lake and Sandy and Representative Cannon for 
working with us on this provision. With its inclusion, we are 
here to urge you to move forward with this bill as soon as your 
calendar permits.
    I thank you for the opportunity of testifying today.
    [The prepared statement of Mr. Christiansen follows:]

            Statement of Don Christiansen, General Manager, 
                Central Utah Water Conservancy District

    Chairman Calvert, Congressman Cannon and members of the Committee, 
I appreciate the opportunity to testify today in support of the Provo 
River Project Transfer Act to authorize the transfer of title to 
certain features of the Provo River Project. You might wonder why the 
Central Utah District cares about this bill. The Central Utah Project 
and the Provo River Project have been intertwined and co-dependent for 
decades. Both projects have dams for water storage on the Provo River; 
both projects capture this high quality water and divert it through 
conveyance structures to water users in Northern Utah and Salt Lake 
Counties; and both Projects share a duty to the recovery of the June 
sucker in the lower Provo River and Utah Lake.
    This bill is important to us at several levels. First, the District 
is finalizing planning and NEPA review for the construction of the 
facilities required to distribute the remaining water supply being 
developed by the Bonneville Unit for use along the Wasatch Front. While 
we have not selected a proposed action, several of the alternatives 
being studied contemplate the delivery of new supplies of water to Salt 
Lake County. Salt Lake presently ``drinks'' its Provo River supplies 
through one of three ``straws'': the Provo Reservoir Canal, the Salt 
Lake Aqueduct and the Jordan Aqueduct. Our new Bonneville Unit water 
must be delivered through one or more of these existing conveyance 
straws. We believe that the coordinated operation of these three 
conveyance ``straws'' will maximize the efficient delivery of water at 
the least cost. Hence, before title is transferred out of federal 
ownership to two of these three straws, we believe it is important to 
advance this dialogue among the various water districts.
    Of particular importance to the Central Utah Water Conservancy 
District are the provisions of the bill authorizing the title transfer 
for the Provo Reservoir Canal. When the Canal was first planned, there 
were only a few communities along its right of way, one of which is a 
beautiful community of Alpine, where I lived for twenty five years. 
Nearly two decades ago, while serving as the Mayor of Alpine, I started 
a campaign to convince the Bureau of Reclamation to replace the open 
canal with a buried pipeline. I failed then--but my journey led me from 
Mayor to Chairman of the Board of Trustees and then to General Manager 
of the Central Utah Water Conservancy District.
    My concern then as Mayor was one of safety for the community. This 
concern remains. Just last month two young men drowned in a tragic 
accident in the Provo Reservoir Canal. In addition to the safety issues 
of an open canal, which now runs through numerous residential 
neighborhoods, we estimate that over 8,000 acre feet of water are 
wasted through evaporation and leakage. The Central Utah Water 
Conservancy District has offered to pay half of the estimated $115 
million cost to enclose the canal in return for which we would receive 
the conserved water. This water would then be made available to the 
Secretary under provisions of the Central Utah Project Completion Act, 
which enables the water to be applied to in-stream flows in the lower 
Provo River to help recover the endangered June sucker through the 
recovery program. I want to point out that the obligation to the June 
Sucker Recovery Program is one that is shared by all of the water users 
who divert water from the Provo River, including the water districts 
that operate the storage facilities on the Provo River.
    It is our plan to create a Joint Public Agency among the Central 
Utah District, the Jordan Valley Water Conservancy District, and the 
Metropolitan Water District of Salt Lake & Sandy to take title to a 
portion of the capacity in this facility. This is a vital step in order 
for us to be able to finance the project with tax-advantaged bonds 
which are available only to local public water districts.
    Although we have not heard from the Interior Department today, we 
understand that the Department supports the concept of this title 
transfer bill, but does not believe that the bill should proceed until 
after all the details have been negotiated to the several agreements 
that will govern the operation of the facilities. While we agree that 
these agreements are vital, it is our view that the legislation should 
proceed simultaneously with the negotiations on the several agreements 
associated with the title transfer. If we were to wait another six to 
eight months, the time it will take to conclude our discussions, it 
will be too late in the legislative process to advance the bill from 
introduction to enactment. To address the Department of the Interior's 
concerns, we have built a mechanism into the bill draft that restricts 
the Secretary's authority to transfer the title to the Provo Reservoir 
Canal until the Provo River Waters Users Association certifies that the 
necessary future ownership, financing, operation and transfer 
agreements have been completed. I want to thank John Carmen and the 
Metropolitan Water District of Salt Lake & Sandy and Representative 
Cannon for working with us on this provision. With its inclusion, we 
urge you to move forward with this bill as soon as your calendar 
permits. Thank you.
                                 ______
                                 
    Mr. Cannon. Thank you. I want to thank both of you for your 
testimony. At this point I would like to ask unanimous consent 
to submit a statement for the record, and without objection, so 
ordered.
    [The prepared statement of Mr. Cannon follows:]

 Statement of The Honorable Chris Cannon, a Representative in Congress 
                  from the State of Utah, on H.R. 3391

    Mr. Chairman, I appreciate the Subcommittee allowing me to join you 
on the dais today, and I thank you for holding a hearing on H.R. 3391. 
This legislation would authorize the title transfer of certain features 
of the Provo River Project, which would include the canal itself, the 
Salt Lake Aqueduct and land in Pleasant Grove from the Bureau of 
Reclamation to non-federal ownership.
    For the past 60 years the Provo River Water Users Association has 
operated this canal. As long as the title is still in the name of the 
federal government, the water users association and our local 
governments that use the water will not be able to obtain the tax-
exempt financing necessary to cover this canal. It could cost 
approximately $115 million to complete this critical project of 
enclosing the canal.
    Perhaps the most important reason to enclose the canal is safety. 
On October 1st of this year two young men drowned in the canal when 
they attempted to go scuba diving. This latest tragedy raised the total 
number of drownings in the canal to 14 people.
    Security is another extremely important element of concern 
regarding this canal. The canal transports drinking water to a 
significant part of the Salt Lake City metropolitan area. The twenty-
three miles of open canal that currently exist are very difficult to 
protect, therefore transferring the title would be extremely beneficial 
to the safety of the water supply.
    Water efficiencies will also result from title transfer. 
Approximately 8 percent of the water is lost to evaporation and seepage 
since the canal is not enclosed. There are environmental benefits as 
well--for instance, some of the saved water will be made available to 
meet the needs of the endangered June-sucker. Covering the canal will 
also allow for the development of recreational trails that can be used 
for hiking and cycling.
    Mr. Chairman, I thank you again for holding this hearing on an 
extremely important piece of legislation that works to alleviate the 
ever present water problem facing the west. While I am proud to say 
that this transfer has received almost universal support, as we move 
forward Mr. Chairman, I will work with all parties to resolve any 
legitimate concerns that arise.
                                 ______
                                 
    Mr. Cannon. Now, as Chair, I recognize myself for 5 
minutes. I would like to start off by just making a couple of 
comments.
    The Metropolitan Water District is one of the most 
incredibly well-managed organizations of its type, and we 
appreciate the fact that you are here, Mr. Carman, and that you 
have been so thoughtful in the process of moving this issue, 
which is very, very important. Also, Mr. Christiansen's old and 
great--well, he is not old. Our relationship is old and very 
dear to me, and he has managed a project for a long period of 
time now that has consistently outperformed expectations, and 
we appreciate your being here and bringing so vital a part to 
this project that is important.
    I thought I would just start by pointing out that I have 
actually lived very near this canal and have watched that area 
grow all the way along the canal area. And although we have had 
14 deaths, including these two recent and very unfortunate 
deaths, the fact is it is a much more dangerous canal now 
because we have many more families and many more small 
children. And although there are some protections, it is a 
danger. Is that not--do you both agree with that?
    Mr. Christiansen. Absolutely.
    Mr. Carman. Absolutely.
    Mr. Cannon. Thank you. This is one of the major reasons why 
I pursued the bill.
    I would like to ask several technical questions just so we 
can be sure that we are clear for the record. Am I correct in 
saying that this legislation requires a transfer agreement and 
that that agreement would lay out the financial obligations of 
the district, Mr. Carman?
    Mr. Carman. That is correct. The title transfer agreement 
is between the Bureau of Reclamation, Department of Interior, 
and the contracting agencies who are responsible for repaying 
the costs of the project. So in the Salt Lake Aqueduct case, 
that would be Metro and the canal situation. That would be the 
association.
    Mr. Cannon. And what are the levels of the payments that 
you anticipate making to the United States?
    Mr. Carman. There is a formal process under Bureau 
guidelines for determining that cost, and they have suggested 
to us what the remaining payout is on both facilities.
    Now, that gets updated using their procedures inside the 
Bureau at the time when the transfer takes place, but the 
estimate, as we understood it, was $747,800, approximately, on 
the Salt Lake Aqueduct remains to be paid, and $753,400, 
approximately, on the Provo Reservoir Canal. These were 
estimates provided a month or so ago.
    Mr. Cannon. So very close to $1.5 million for both 
projects.
    Mr. Carman. That is correct.
    Mr. Cannon. Is there any different mechanism to accomplish 
the goals of this legislation besides the transfer of title?
    Mr. Carman. We have suggested that if the Department of 
Interior could reinstate their RMB loan and loan us $400 
million over the next 40 years, that we would be very happy to 
pursue that, or we could talk about changes in IRS Code. But 
this seems to us to be the most logical way for the local 
entities to take on the responsibility for this infrastructure 
and move it forward on their own.
    Mr. Cannon. Is that in part because of the low interest 
rate you have through your municipal financing of the project?
    Mr. Carman. That is correct. As Don suggested, estimated 
cost is $115 to $120 million, and the difference between 
taxable and tax-exempt financing at a 1.5 percent approximate 
difference is $1.5 million a year, maybe $2 million a year, 
just in interest costs alone.
    Mr. Cannon. And so the total capital cost of that project 
is how much?
    Mr. Carman. To enclose the canal, the range is $90 to $120 
million, and we have been using 115 for negotiating purposes.
    Mr. Cannon. And you expect the bulk of that to be done with 
municipal bonds at a lower interest rate?
    Mr. Carman. That is correct.
    Mr. Cannon. Thank you.
    Will operation and management of the Salt Lake Aqueduct 
change after title transfer?
    Mr. Carman. Currently, that is the responsibility of the 
Metropolitan Water District of Salt Lake and Sandy. The one 
thing we would expect to see is that currently, for example, 
when somebody wants to build a road across the aqueduct or to 
put a sewage pipe crossing past the aqueduct, they have to get 
approval from both ourselves and the Bureau. And after a title 
transfer, the Bureau's staff would no longer be available to 
work on those, and we would have to take on that responsibility 
ourselves.
    Mr. Cannon. And that would raise the cost a little bit, but 
you are willing to do that?
    Mr. Carman. Yes.
    Mr. Cannon. What role will the local municipalities and 
water districts play in the Provo Reservoir Canal enclosure 
project?
    Mr. Carman. We feel that their support is essential. 
Obviously, they benefit from the safety improvements. But, in 
fact, most of the local municipalities are beneficiaries of the 
water side of the project as well. Either directly or 
indirectly, I believe, all of those cities have an interest in 
the Provo Reservoir Canal on the water side. Once it is in a 
pipe, then it does have the potential to become a great 
recreational asset for the communities as well as improving the 
situation with the safety hazard.
    Mr. Cannon. Thank you, Mr. Carman.
    Mr. Christiansen, what types of agreements do you believe 
are necessary to complete the title transfers contemplated by 
this legislation? And how long will it take to conclude 
negotiations on them?
    Mr. Christiansen. I think I can remember most of them. The 
title transfer agreement that John has just talked about, there 
needs to be an operating agreement, talking about the operation 
of them. There needs to be an agreement as to how the ownership 
will be assumed on a local basis and how we would finance 
paying for the improvements to the canal. Embodied in those 
agreements I believe can be all of the concerns that anyone 
might have as to the transfer of this facility from the Federal 
ownership to the local ownership.
    Mr. Cannon. Thank you. I ask unanimous consent to extend my 
time by 2 minutes. Without objection. I just have another 
couple of questions. We won't keep you long.
    Mr. Christiansen, how will the Central Utah Water 
Conservancy District contribute to the cost of rehabilitating 
the Provo Reservoir Canal?
    Mr. Christiansen. As I indicated, we have committed to 
provide half of the funding, 50 percent of whatever that turns 
out to be. We assume that we can get a fair amount of that 
under Section 207 of the Central Utah Completion Act, which 
would be Federal funding for water conservation. And so we 
assume that a fair amount of that 50 percent can come from that 
source; 40 to 60 percent may be there. That is why the 8,000-
acre-feet of saved water is so important to us because we would 
want to do that under the Section 207 water conservation.
    Mr. Cannon. Thank you. Has it been determined how much of 
the saved water will be provided to the Secretary for in-stream 
flows in the lower Provo River?
    Mr. Christiansen. The exact amount has not been determined, 
but it is our assumption that there will be in excess of 8,000-
acre-feet of saved water, and it is our intent to furnish 100 
percent of all of the saved water for the use of the Department 
in minimum flows in the Provo River for the benefit of the June 
sucker.
    Mr. Cannon. So there is a huge benefit to the Department, 
and you expect the Department to work with you on the cost 
sharing on the other side?
    Mr. Christiansen. Absolutely.
    Mr. Cannon. Thank you. I have no further questions, and so 
I yield back time.
    Mrs. Napolitano? The gentlelady is recognized for 5 
minutes, or so much time as she may decided she would like in 
addition. Thank you.
    Mrs. Napolitano. Thank you, Mr. Chairman. It is a good 
thing we are friends.
    I just was wondering about the agreement that has not been 
signed. Isn't that like an open check until that agreement is 
really hammered and signed?
    Mr. Christiansen. Do you want me to respond?
    Mrs. Napolitano. Either one of you.
    Mr. Christiansen. There are a number of issues that have 
not yet been negotiated and resolved on the various agreements 
that I listed previously. We think that the provision in the 
legislation that says that title transfer cannot be effected by 
the Secretary of Interior until various agreements are in place 
is the safeguard that we need to move forward on that. There 
are a number of issues, as anyone may anticipate, that will be 
a little testy among the various organizations, but we think 
that we can get there. Without those agreements, the way the 
legislation is written, the title would not be transferred.
    Mrs. Napolitano. I am kind of hesitant to say that this 
bill meets all the criteria. All of the other bills that have 
come before this Committee that require transfer agreements 
prepared, signed, and delivered have been so done. And it just 
is not good thinking to say that you are going to get all your 
agreements done. It could be hanging in fire, and here we are 
passing through what could be the bill that might change 
because of the agreement.
    Mr. Christiansen. Do you want to respond to that?
    Mr. Carman. Well, I appreciate your thoughts on that. There 
are some aspects of this that are going to be very difficult to 
achieve. You know, for example, the way that we hold the 
interest for the public entities and the joint public action 
agency which would ultimately receive the public component of 
the canal could take years to unravel. So the agreement will 
really in our minds define how that is going to happen, but it 
may be many years before all of the pieces are in place. But 
those are really local issues that have to be worked out 
amongst the parties.
    The one thing that happens if we can't get those agreements 
in place is that nothing changes from the way it is today. The 
canal remains unlined. It continues to leak. It continues to be 
a safety issue.
    So from the local perspective, should those agreements take 
longer, that is really a problem for us more so than the 
Federal Government.
    Mrs. Napolitano. It may be a problem for the locals, but it 
is also a problem for us to be able to pass through something 
that does not have an agreement signed.
    Mr. Cannon. If the gentlelady would yield?
    Mrs. Napolitano. Certainly.
    Mr. Cannon. I can give her assurances that before we bring 
this to markup, we will have the basic agreement in place and 
satisfactory.
    Mrs. Napolitano. I will hold you to it, sir.
    Mr. Cannon. Thank you.
    Mrs. Napolitano. Then the other thing I would want to find 
out is the Bureau of Reclamation is holding hearings this week, 
is my understanding, about the environmental concerns the 
public may have on the transfer of the canal, and that the 
scoping sessions will not address transfer of headworks because 
the Bureau wants to retain ownership of the facility. Is that 
part of the issue with the transfer?
    Mr. Carman. That is not the understanding we have. There 
was some suggestion that they not be addressed specifically in 
the NEPA scoping document, but it was our intent to be up front 
that we wanted to transfer the headworks.
    Now, it is clear that the water rights themselves remain in 
the name of the Federal Government, so there is no attempt here 
to transfer those water rights into the name of the local 
entities. In our view, that gives the Federal Government all 
the protection they need to look out for the needs of the June 
sucker.
    Mrs. Napolitano. So you are amenable to the bill stating 
that only the canal will be transferred, but not the components 
Bureau of Reclamation opposes, such as the Murdock Diversion 
and the Salt Lake Aqueduct?
    Mr. Carman. Say that one more time?
    Mrs. Napolitano. Well, there is a question as to whether 
the bill--if the bill is going through and is amended or will 
be amended to clarify that only the canal will be transferred 
but not the components the Bureau of Reclamation opposes, and I 
have information that states that it is such as the Murdock 
Diversion Dam and the Salt Lake Aqueduct?
    Mr. Carman. It is my understanding that that is not the 
official position of the Department of Interior, so----
    Mrs. Napolitano. That is the reason we needed the report 
from the Fish and Wildlife and the Bureau of Reclamation, 
because this would not be an issue then.
    Mr. Carman. Right, which they, as I understand it, will 
provide. But it is our intent to transfer title on intake 
structures because if you have a pipe but not an intake 
structure, what is it that you have?
    Mrs. Napolitano. OK. Mr. Christiansen, if we authorize the 
Salt Lake Inlet and the Murdock Diversion Dam to be transferred 
to non-Federal entities, there may be implications for the 
recovery plan of the endangered June sucker, and I look forward 
to the testimony that might clarify that. What is your reaction 
to the concern?
    Mr. Christiansen. We are in this June Sucker Recovery 
Program together. I would tell you that we have been the 
leading cause, the Central Utah District, in getting the 
recovery program in place and operating it. But I believe all 
of us who divert water along the Provo River are in with the 
same responsibilities under the ESA to that June sucker. And I 
am confident that we can negotiate before the title transfer 
actually takes place, the official title transfer, the 
safeguards that we will need in order to operate to benefit the 
recovery of the June sucker. I am confident of that. We are not 
there, but we will get there.
    Mrs. Napolitano. Is there any question about the Endangered 
Species Act having an effect on this?
    Mr. Christiansen. Certainly the Endangered Species Act 
should have an effect on it, yes.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Cannon. The gentlelady yields back.
    Mr. Neugebauer?
    Mr. Neugebauer. No questions.
    Mr. Cannon. Thank you. We appreciate you for being here and 
for your thoughtful comments. And with that, you are dismissed, 
and I am going to turn this over to Mr. Neugebauer, and he will 
recognize the next panel.
    Mr. Neugebauer. [Presiding.] Good afternoon. I would now 
like to recognize the final panel of witnesses to testify on S. 
212: Ms. Irene Favila, Workforce Development Coordinator in 
Plainview, Texas; Mr. Leland Tillman, Executive Director of 
Eastern Plains Council of Governments; Mr. Lloyd Arthur, 
American Farm Bureau Federation, from Ralls, Texas; Mr. Lee 
Allison, Director and State Geologist, Kansas Geological 
Survey; Mr. Scott Wall, National Corn Growers Association, 
Yuma, Colorado; and Mr. Jim Conkwright, Manager of High Plains 
Underground Water District No. 1, Lubbock, Texas.
    I would now recognize Ms. Favila to testify for 5 minutes.

  STATEMENT OF IRENE FAVILA, CITY COUNCILWOMAN AND WORKFORCE 
           DEVELOPMENT COORDINATOR, PLAINVIEW, TEXAS

    Ms. Favila. Thank you. Good afternoon.
    First, I would like to thank the distinguished members of 
the Subcommittee for allowing me the opportunity to provide you 
with information and offer another perspective on the potential 
implications of S. 212.
    My name is Irene Favila, and I am from Plainview, Texas. 
Plainview is a small city situated in the Texas Panhandle--a 
region that depends heavily on water available through the 
Ogallala formation within the High Plains Aquifer. Crop 
production in the region, which is dominated by cotton and 
grain commodities, requires significant irrigation to meet 
watering demand. It is estimated that 95 percent of all crop 
land in the Panhandle is irrigated with water obtained through 
the aquifer.
    I am a workforce development coordinator for Motivation 
Education and Train, Inc., or MET, which is a community-based 
organization that helps displaced farm workers find jobs 
outside of agriculture, as well as assisting in the 
stabilization of agricultural employment for underemployed 
workers and their families. During my 28 years with MET, I have 
witnessed some rather profound changes in both the agricultural 
economy and the social environment in our local area, and I 
have come to better understand the delicate balance between the 
prevailing forces that fuel agricultural production and the 
varied interests that have a stake in this diverse and 
important industry. For the past 11-and-a-half years, I have 
been honored to serve on the Plainview City Council, and I 
consider it both a privilege and obligation to help improve the 
quality of life in my hometown and the surrounding area.
    It would be difficult to live in the High Plains and not 
appreciate the importance of agriculture, but it is fairly easy 
to look at the broader landscape and not see some of the finer 
details. The migrant and seasonal farm workers whom I serve are 
among the poorest working families in the Nation, and their 
struggle to survive economically is a contest that would be 
unimaginable for most Americans. With average household incomes 
around $7,600 per year, and an average household size of 3.8, 
Texas farm workers are often faced with unfair tradeoffs and 
extremely hard choices.
    During 2001, our clients were only able to find farm 
employment for an average of 83 days. The need for income is so 
desperate that the mere promise of a job is sufficient to force 
whole families to migrate hundreds and sometimes thousands of 
miles. Natural forces and increasingly global economic 
realities impact the ability of farm workers to find employment 
throughout the migrant stream, and workers and their families 
have endured a steady erosion of jobs and income over the last 
several decades. In Plainview alone, where once around 30 
packing sheds supported a vibrant produce industry, none exist 
today.
    The relationship between agricultural producers and the 
workers on whose behalf I am here today is often portrayed as 
an uneasy coexistence between ``us'' and ``them.'' However, the 
reality of the situation is that the economic destinies of both 
parties are intertwined, bound by a common interest in the 
viability of crop and animal production, and vulnerable to many 
of the same natural and economic variables. While growers get 
the lion's share of attention during lean production periods, 
for every farmer that faces a crop failure or other disaster, 
there are untold numbers of farm workers whose losses are every 
bit as compelling and likely more economically devastating.
    I believe that my experience working with the agricultural 
labor force, my knowledge of the employment situation in the 
region, and the familiarity with the agricultural industry in 
general enable me to speak knowledgeably about the potential 
impact of the legislation before the Subcommittee. 
Additionally, my public policy work as an elected official, as 
well as that accomplished through volunteer efforts, has 
provided me a greater understanding of how governmental 
initiatives impact the local and regional environments.
    My chief concern with S. 212 is the proposed Federal 
monitoring of the High Plains Aquifer and its potential for 
increased regulation and restrictions that could adversely 
impact the already bleak employment prospects for migrant and 
seasonal farm workers. Although the bill does not explicitly 
mention regulations, one must question the purpose of a new 
Federal monitoring program when there are already State and 
local laws on the books for mapping the aquifer. One must also 
question the need and nature of a federally led monitoring 
program and what Federal strings may eventually be attached to 
aquifer use. Should this legislation be enacted, cutbacks in 
production and crop losses due to insufficient water 
availability are legitimate concerns for growers and workers 
alike. We understand the necessity of better utilization, but 
we also believe that collective local engagement is the best 
means of addressing this crucial component of natural resource 
management. Texas is already leading the conservation movement 
to secure sufficient resources for future generations.
    Secondary concerns with respect to this legislation are 
that it will further constrain the targeting of scarce Federal 
resources for other potentially more advantageous initiatives, 
as well as the possibility that implementation of this program 
will discourage precisely the type of local planning and 
coordination that is truly necessary for meaningful and 
sustainable community-driven action. S. 212 appears to 
duplicate existing programs, and the objectives of the 
legislation could be better met through improved coordination. 
I must also question the need for creating a new $90 million 
program that will compete with ongoing domestic needs in our 
communities.
    The most important part of my job is helping workers who 
have been displaced from agriculture prepare for and secure 
jobs in other industries. Pardon?
    Mr. Neugebauer. I would ask you to wrap up your statement, 
please.
    Ms. Favila. OK. I would respectfully offer my hope that in 
trying to promote the public interest that we do not impose 
unintended consequences on those with little ability to 
effectively pay the resultant economic and social costs.
    May God bless you all, and thank you again for your 
consideration.
    [The prepared statement of Ms. Favila follows:]

     Statement of Irene Favila, Workforce Development Coordinator, 
         Motivation Education & Training, Inc. (MET), on S. 212

    First, I would like to thank the distinguished members of this 
Subcommittee for allowing me the opportunity to provide you with 
information, and offer another perspective on the potential 
implications of S. 212.
    My name is Irene Favila, and I am from Plainview, Texas. Plainview 
is a small city situated in the Texas Panhandle--a region that depends 
heavily on water available through the Ogallala formation within the 
High Plains Aquifer. Crop production in the region, which is dominated 
by cotton and grain commodities, requires significant irrigation to 
meet watering demand. It is estimated that 95 percent of all cropland 
in the Panhandle is irrigated with water obtained through the Aquifer.
    I am a workforce development coordinator for Motivation Education & 
Training Inc. or ``MET''--which is a community-based organization that 
helps displaced farm workers find jobs outside of agriculture, as well 
as assisting in the stabilization of agricultural employment for 
underemployed workers and their families. During my 28-years with MET, 
I have witnessed some rather profound changes in both the agricultural 
economy and the social environment in our local area, and I have come 
to better understand the delicate balance between the prevailing forces 
that fuel agricultural production, and the varied interests that have a 
stake in this diverse and important industry. For the past eleven-and-
a-half years, I have been honored to serve on the Plainview City 
Council, and I consider it both a privilege and obligation to help 
improve the quality of life in my hometown and the surrounding area.
    It would be difficult to live in the High Plains and not appreciate 
the importance of agriculture, but it is fairly easy to look at the 
broader landscape and not see some of the finer details. The migrant 
and seasonal farm workers whom I serve are among the poorest working 
families in the nation, and their struggle to survive economically is a 
contest that would be unimaginable for most Americans. With average 
household incomes around $7,600 per year, and an average household size 
of 3.8, Texas farm workers are often faced with unfair tradeoffs and 
extremely hard choices. During 2001, our clients were only able to find 
farm employment for an average of 83 days. The need for income is so 
desperate that the mere promise of a job is sufficient to force whole 
families to migrate hundreds and sometimes thousands of miles. Natural 
forces, and increasingly global economic realities, impact the ability 
of farm workers to find employment throughout the migrant stream, and 
workers and their families have endured a steady erosion of jobs and 
income over the last several decades. In Plainview alone, where once 
around 30 packing sheds supported a vibrant produce industry, none 
exist today.
    The relationship between agricultural producers and the workers, on 
whose behalf I am here today, is often portrayed as an uneasy 
coexistence between ``us'' and ``them.'' However, the reality of the 
situation is that the economic destinies of both parties are 
intertwined, bound by a common interest in the viability of crop and 
animal production, and vulnerable to many of the same natural and 
economic variables. While growers get the lion's share of attention 
during lean production periods, for every farmer that faces a crop 
failure or other disaster, there are untold numbers of farm workers 
whose losses are every bit as compelling and likely more economically 
devastating.
    I believe that my experience working with the agricultural labor 
force, my knowledge of the employment situation in the region, and my 
familiarity with the agricultural industry in general, enable me to 
speak knowledgeably about the potential impact of the legislation 
before the Subcommittee. Additionally, my public policy work as an 
elected official, as well as that accomplished through volunteer 
efforts, has provided me a greater understanding of how governmental 
initiatives impact the local and regional environments.
    My chief concern with S. 212 is the proposed federal monitoring of 
the High Plains Aquifer, and its potential for increased regulation and 
restrictions that could adversely impact the already bleak employment 
prospects for migrant and seasonal farm workers. Although the bill does 
not explicitly mention regulations, one must question the purpose of a 
new federal monitoring program when there are already state and local 
laws on the books for mapping the Aquifer. One must also question the 
need and nature of a federally-led monitoring program and what federal 
strings may eventually be attached to Aquifer use. Should this 
legislation be enacted, cutbacks in production and crop losses due to 
insufficient water availability are legitimate concerns for growers and 
workers alike. We understand the necessity of better utilization, but 
we also believe that collective local engagement is the best means of 
addressing this crucial component of natural resource management. Texas 
is already leading the conservation movement to secure sufficient 
resources for future generations.
    Secondary concerns with respect to this legislation, are that it 
will further constrain the targeting of scarce federal resources for 
other potentially more advantageous initiatives, as well as the 
possibility that implementation of this program will discourage 
precisely the type of local planning and coordination that is truly 
necessary for meaningful and sustainable community-driven action. S. 
212 appears to duplicate existing programs, and the objectives of the 
legislation could be better met through improved coordination. I must 
also question the need for creating a new $90 million program that will 
compete with ongoing domestic needs in our communities.
    The most important part of my job is helping workers who have been 
displaced from agriculture prepare for, and secure, jobs in other 
industries. The difficulty in rural areas, such as Plainview, is that 
the entire economy is influenced by the performance of the farm and 
ranch sectors. While there may be considerable disagreement about the 
most effective means of managing natural resources, it would seem to 
make sense in this case that we should avoid at all cost hurting the 
very people who depend on the water held in the High Plains Aquifer. I 
believe, especially in light of current economic realities, that we 
should at least strive to do no harm with respect to current jobs held 
by American workers, particularly those individuals who struggle at the 
bottom of the economic ladder, such as migrant and seasonal farm 
workers. I would respectfully offer my hope that, in trying to promote 
the public interest, that we do not impose unintended consequences on 
those with little ability to effectively pay the resultant economic and 
social costs. May God Bless You All.
    Thank you again for your consideration.
                                 ______
                                 
    Mr. Neugebauer. Thank you.
    The Chair now recognizes Mr. Tillman.

      STATEMENT OF LELAND D. TILLMAN, EXECUTIVE DIRECTOR, 
             EASTERN PLAINS COUNCIL OF GOVERNMENTS

    Mr. Tillman. Thank you, Mr. Chairman, members of the 
Committee. I thank you for the opportunity to testify today on 
Senate bill 212. My name is Leland Tillman. I am from Clovis, 
New Mexico. I am the Director of the Eastern Plains Council of 
Governments, which is a voluntary association of local 
governments which serves 22 incorporated communities in seven 
counties in northeastern New Mexico.
    Every community in our area is dependent exclusively on 
groundwater for their municipal and industrial water needs. 
About three-fourths of the population depends exclusively on 
the Ogallala Aquifer, the High Plains Aquifer, for their 
drinking water supply.
    Even though New Mexico has only about 1.5 percent of both 
the land area and the volumes remaining in the aquifer, our 
water problems are particularly important because we see our 
problems as a precursor of other problems that will occur in 
other areas. This issue has become our primary resource 
management issue and our top economic development issue as we 
continue to improve conservation efforts and move toward a less 
water-intensive economy.
    Agriculture is an important economic engine in the counties 
of Curry, Roosevelt, Quay, and Union in eastern New Mexico that 
accounts for a $683 million input into our economy in 2001.
    Under New Mexico law, communities are required to plan for 
an adequate water supply to meet their estimated demand during 
a 40-year planning horizon. In light of the fact that some of 
our communities in New Mexico have had continuous occupation 
and existence for more than 400 years, 40 years is considered a 
relatively near-term time frame for a community.
    As State and regional water planning becomes increasingly 
important in New Mexico and other Western States, State and 
local policy officials are clamoring for better hydrologic data 
and better projections and estimates on the remaining supply. 
Several of our communities which are dependent upon the aquifer 
are working together to develop dependable surface supplies to 
augment the remaining groundwater. The Eastern New Mexico Rural 
Water Supply Project is a clear recognition that our 
groundwater resources are finite in our area. In the nearer 
term, several communities are purchasing additional groundwater 
resources to extend their supply.
    Even though some areas clearly have adequate groundwater 
reserves to address current and future needs, others face the 
harsh prospect of running out of water in the next 40 to 50 
years. That is why conservation, improved agricultural 
technologies, and more reclamation and reuse becomes incredibly 
important.
    Good data is essential to our understanding of the 
characteristics of the aquifer. This information becomes even 
more useful when it can be used to enhance recharge and further 
extend aquifer life.
    While some have been critical of irrigated agriculture in 
our area for being the primary user of groundwater, I am very 
quick to point out the outstanding conservation efforts made by 
agriculture, which has improved the efficiency for irrigation 
from roughly 35 percent efficiency for row irrigation up to 90-
plus percent efficiency for today's cutting-edge low energy 
precision application systems, which use drop lines, drag 
lines, water socks, and other conservation techniques.
    But for municipalities, declining water tables mean a 
continued diminishment of well yields, necessitating more wells 
pumping more of the time.
    We appreciate the excellent contribution that the USGS has 
made over the past 10 or 15 years in understanding the scope 
and limitations of the High Plains Aquifer. But now annual 
measurements of local wells would be considerably more helpful 
to State and local policy officials than the current program in 
New Mexico which measures large numbers of wells only every 5 
years.
    Despite continued friction between States in some localized 
areas over groundwater issues, there is a growing awareness 
among water users in New Mexico that it will take the very best 
efforts of our governments, our institutions, and the people 
themselves to work together to make the very most of our the 
limited groundwater remaining for the future.
    I hope the Committee recognizes the importance of these 
Western water problems, compounded by wildfires and the 
drought, make water issues a national concern, and we 
appreciate your willingness to support the State geological 
surveys and the valuable contributions that they have made to 
help us better understand this important problem.
    Recognizing my time is limited, I would like to make sure 
the support letters from our local mayors and county 
commissioners are submitted for the record and our State 
engineer's office letter mentioned by Senator Bingaman earlier.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tillman follows:]

          Statement of Leland D. Tillman, Executive Director, 
            Eastern Plains Council of Governments, on S. 212

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify on S. 212. My name is Leland D. Tillman. I'm 
from Clovis, New Mexico. I am the Executive Director of the Eastern 
Plains Council of Governments, which is a voluntary association of 
local governments which serves 22 incorporated communities in seven 
counties of northeastern New Mexico.
    Every community in our area depends exclusively on groundwater for 
their municipal and industrial water supply. About three- fourths of 
the population have the High Plains Aquifer as their primary source of 
drinking water.
    Even though New Mexico has only a minor percentage (about 1/2 
percent) of both land area and volumes of water remaining in the 
aquifer, our water problems should be of particular importance since 
our area will be a precursor to what will likely occur in other areas. 
This issue has become our primary resource management issue and a top 
economic development issue as we continue to improve our conservation 
efforts and move towards a less water intensive economy.
    Agriculture in Curry, Roosevelt, Quay and Union Counties was a $683 
million enterprise in 2001, with $578,865,000 in commodity sales and an 
additional $104,566,000 attributable to livestock receipts.
    As state and regional water planning becomes increasingly important 
in New Mexico and other western states, State and local policy 
officials clamor for better hydrologic data and better projections and 
estimates on the remaining supply.
    Under water laws in New Mexico, communities are required to plan 
for adequate water supplies to meet estimated demand during a 40 year 
planning horizon. In the life of communities, 40 years is considered 
near term since we have communities in New Mexico that have had more 
than 400 years of continuous existence.
    Several of our communities, which are dependent on this aquifer, 
are working together to develop a dependable surface supply to augment 
the remaining groundwater supply. The Eastern New Mexico Rural Water 
Supply Project is a clear recognition that our groundwater resource is 
finite in our area. In the nearer term, several communities are 
purchasing additional groundwater resources to extend their supply.
    Even though some areas clearly have adequate groundwater reserves 
to address current and future needs, others face the harsh prospect of 
running out of water over the next 40-50 years. That's why 
conservation, improved agricultural technologies, and more reclamation 
and reuse becomes incredibly important.
    Good data is essential to our understanding of the characteristics 
of the aquifer. This information becomes even more useful when it can 
be used to enhance recharge and further extend aquifer life.
    While some have been critical of irrigated agriculture for being 
the primary user of groundwater in our area, I'm very quick to point 
out the outstanding conservation efforts in agriculture which has 
improved the irrigation efficiency from the 35% for row irrigation on 
up to 90-plus percent efficient with today's cutting edge LEPA (low 
energy precision application) systems with drop lines, drag lines, and 
water socks.
    For municipalities, declining water tables mean a continued 
diminishment of well yields necessitating more wells pumping more of 
the time.
    We appreciate the excellent contribution the USGS has made over the 
past 10-15 years in understanding the scope and limitations of the High 
Plains Aquifer. But now, annual measurements of local wells would be 
considerably more helpful to State and local policy officials than the 
current program which measures large numbers of wells every five years.
    Despite continued friction between states in some localized areas 
over groundwater issues, there is a growing awareness among water users 
in New Mexico that it will take the very best efforts of our 
governments, our institutions and agencies, and of the people 
themselves, to work together to make the very most of the limited 
groundwater available to us for the future.
    I hope you will recognize that Western water problems, compounded 
by wildfires and droughts, make water issues a national concern, and we 
appreciate your willingness to support our state geological surveys and 
the valuable contribution the USGS can make to help us better 
understand our problem, and, more importantly, to better understand our 
opportunities to work together for mutual benefit and improve aquifer 
health throughout this important geographic region.
    Our Constitution provides a fairly straightforward framework for 
surface and groundwater administration by deferring to states on 
groundwater issues, but requiring interstate compacts among states for 
surface water.
    State compacts were negotiated, approved by the individual 
legislatures, signed by each governor and then approved by Congress and 
signed by the President. No such mechanism exists for cooperative 
efforts among, and between, states on groundwater issues. Having had 
the opportunity to work with stat-level geologists and hydrologists in 
Oklahoma and Texas and the local people in our soil and water 
conservation districts and the underground water districts in Texas, I 
believe local farmers, business people and local governments 
(especially in border areas) understand that a cooperative effort is 
needed among local communities and among and between our states.
    This legislation is a very practical demonstration on how the 
federal government can assist the states with their individual efforts 
utilizing the best science and technology available through the USGS in 
the Department of Interior. Work resulting from the legislation will 
contribute to a better understanding of this vast and complicated 
aquifer which is so important to our entire country.
    I know my time is limited and I would like to make sure these 
letters from some of our area Mayors and County Commissioners are 
included in the record. I will also be happy to respond to any 
questions at the appropriate time.
                                 ______
                                 
    Mr. Neugebauer. Thank you.
    The Chair now recognizes Mr. Arthur.

STATEMENT OF LLOYD ARTHUR, AMERICAN FARM BUREAU FEDERATION AND 
              THE TEXAS FARM BUREAU, RALLS, TEXAS

    Mr. Arthur. Mr. Chairman and members of the Water and Power 
Subcommittee, my name is Lloyd Arthur. I am a cotton farmer 
from Ralls, Texas, and operate 3,781 acres of farmland in that 
area. I irrigate my cotton and grain sorghum from the High 
Plains Aquifer, and the aquifer is essential to my livelihood. 
I also currently serve as the Vice President of the Texas Farm 
Bureau. I testify before you on behalf of the American Farm 
Bureau Federation (AFBF) and the Texas Farm Bureau in 
opposition to Senate bill 212.
    The High Plains Aquifer is an open aquifer system 
containing some 3.3 billion acre-feet of water. The average 
water table thickness is 300 feet. The overlying land is some 
of the most fertile and productive agricultural land in the 
United States. Farmers and ranchers like myself have utilized 
water resources through irrigation to produce an abundance of 
crops and products that beneficially add to the local and State 
economies and help feed America and the world. While 
agriculture is often pointed to as the reason for declining 
water tables in the High Plains Aquifer, the fact is that 
developing irrigation technology continues to make American 
agriculture the most efficient groundwater user in the world.
    Residents of the Texas Panhandle are aware of the 
importance of the High Plains Aquifer on our local economy and 
on the economy of the State of Texas. Thirty-five percent of 
Texas' agribusiness is generated in the 41 counties that 
overlay the aquifer from Lubbock to Amarillo. The High Plains 
area produces 50 percent of the State's cotton crop. 
Approximately 30 percent of the income from the Panhandle is 
dependent on its regional agricultural industry. The same can 
be said for all of the States that overlay the High Plains 
Aquifer.
    Overall, the citizens of Texas, and particularly farmers 
and ranchers, have done a tremendous job of finding and using 
ways to conserve the water of the High Plains Aquifer. Ten 
years ago, my farming operation was 100 percent conventional 
furrow irrigation, which is about 60 percent water efficient. 
Over time, I have modified my operation to the use of nine 
center pivot irrigation systems. These pivot systems, using the 
low energy precision application technologies, are estimated to 
be about 95 percent efficient. Currently, I am considering a 
conversion to the new subsurface drip irrigation system that is 
97 percent efficient. Because of these conservation methods, I 
have reduced the amount of acres I have irrigated from the 
aquifer by 18 percent over the last 10 years. In reducing the 
acres irrigated, I have reduced the usage of water to those 
acres and have not had any negative effect or loss of crop 
production.
    Many of these advances in water conservation were made 
possible because of State research and local control over 
groundwater issues. When this work is done at the local level, 
it has the support and cooperation of constituents and 
maintains the trust and confidence of the local citizenry. This 
level of local cooperation could be lost if the Federal 
Government were to assume the much greater role in groundwater 
resources management that S. 212 suggests.
    S. 212 contains numerous provisions that move the 
management of groundwater toward Federal jurisdiction. The 
legislation would require the Secretary of Interior through the 
U.S. Geological Survey to oversee work to characterize, map, 
model, and monitor the High Plains Aquifer. AFBF and the Texas 
Farm Bureau oppose the Federal component and specifically the 
establishment of a Federal Review Panel and any requirement of 
the Secretary of Interior to report to Congress on the High 
Plains Aquifer.
    Each of the eight States that overlie the High Plains 
Aquifer has for decades actively mapped, monitored, and managed 
those portions of the aquifer that occur within their 
respective borders. The collected data continues to be used by 
agencies to manage the aquifer on a watershed or other sub-
regional basis. The data indicates that water levels of the 
High Plains Aquifer can vary significantly within a single 
watershed. If management strategies must be made to address 
localized water levels, those strategies can better be 
developed and implemented by State agencies or local governing 
bodies. This is a clear example as to why the Federal 
Government should not have jurisdiction over groundwater 
management, including oversight of mapping, modeling, or 
monitoring of the High Plains Aquifer or any other aquifer.
    Within the eight-State region of the High Plains Aquifer, 
4,800 wells are used annually for observing water levels. One 
ongoing comprehensive study by various State institutions, 
including Texas A&M University, is being conducted on the 
aquifer to further assist State agencies in their management of 
the aquifer. While this study effort uses Federal funding, it 
is not a top-down, federally driven groundwater management 
program. S. 212 would duplicate this research and ongoing State 
programs and would also give the Federal Government some 
authority over an area that has historically been under the 
jurisdiction of States.
    I thank you for the opportunity to testify before you today 
on behalf of the AFBF and the Texas Farm Bureau regarding our 
opposition to S. 212. I would be happy to answer any questions 
that you may have now, Mr. Chairman.
    [The prepared statement of Mr. Arthur follows:]

     Statement of Lloyd Arthur, Vice President, Texas Farm Bureau, 
     Representative, The American Farm Bureau Federation, on S. 212

    Mr. Chairman and Members of the Water and Power Subcommittee, my 
name is Lloyd Arthur. I am a cotton farmer from Ralls, Texas, and 
operate 3,781 acres of farmland in that area. I irrigate my cotton and 
grain sorghum from the High Plains Aquifer, and the aquifer is 
essential to my livelihood. I also currently serve as the Vice 
President of the Texas Farm Bureau. I testify before you on behalf of 
the American Farm Bureau Federation and the Texas Farm Bureau in 
opposition to S. 212 and the direct and indirect impacts of such 
legislation.
    The High Plains Aquifer is an open aquifer system containing some 
3.3 billion acre-feet of water. The average water table thickness is 
300 feet. The overlying land is some of the most fertile and productive 
agricultural land in the United States. Farmers and ranchers, like 
myself, have utilized water resources through irrigation to produce an 
abundance of crops and products that beneficially add to local and 
state economies and help feed America and the world. While agriculture 
is often pointed to as the reason for water table declines in some 
areas of the High Plains Aquifer, the fact is that developing 
irrigation technology continues to make American agriculture the most 
efficient groundwater user in the world.
    All of us in the Texas panhandle are aware of the importance of the 
High Plains Aquifer on our local economy and on the economy of the 
State of Texas. Thirty-five percent of Texas' agribusiness is generated 
in the forty-one counties that overlay the aquifer from Lubbock to 
Amarillo. The panhandle area produces 50 percent of the state's cotton 
crop. This area's agricultural economic impact is critical to the State 
of Texas. The same can be said for agriculture's economic impact in all 
of the states that overlie the High Plains Aquifer.
    Overall, the citizens of Texas have done a tremendous job of 
finding and using ways to conserve the water of the High Plains 
Aquifer. Ten years ago my farming operation was one hundred percent 
conventional furrow irrigation, which is about 60 percent water 
efficient. Over time, I have modified my operation from no Center Pivot 
Irrigation systems to nine. These pivot systems, using the Low Energy 
Precision Application (LEPA) technology, are estimated to be about 
ninety five percent efficient. Due to these conservation methods, I 
have reduced the amount of acres I irrigate from the aquifer by 
eighteen percent over the past ten years. In reducing the acres 
irrigated, I have reduced the usage of water to those acres and have 
not had loss of crop production.
    Many of these advances in water conservation were made possible 
because of state research and local control over groundwater issues. 
When this work is done at the local level, it has the support and 
cooperation of constituents and maintains the trust and confidence of 
the local citizenry. This level of local cooperation could be lost if 
the federal government were to assume the much greater role in 
groundwater resources management that S. 212 suggests.
    S. 212 contains numerous provisions that move the management of 
groundwater toward federal jurisdiction. This legislation would require 
the Secretary of Interior through the U.S. Geological Survey (USGS) to 
oversee work to characterize, map, model and monitor the High Plains 
Aquifer. AFBF and the Texas Farm Bureau oppose the federal component 
and, specifically, the establishment of a Federal Review Panel and any 
requirement of the Secretary of Interior to report to Congress on the 
High Plains Aquifer.
    Each of the eight states that overlie the High Plains Aquifer has 
for decades, actively mapped, monitored and managed those portions of 
the aquifer that occur within their respective borders. The collected 
data continues to be used by state agencies to manage the aquifer on a 
watershed or other subregional basis. The data indicates that water 
levels of the High Plains Aquifer can vary significantly even within a 
single watershed. If management strategies must be made to address 
localized water levels, those strategies can better be developed and 
implemented by state agencies or local governing bodies. This is a 
clear example as to why the federal government should not have 
jurisdiction over groundwater management, including oversight of 
mapping, modeling or monitoring of the High Plains aquifer.
    Within the eight-state region of the High Plains Aquifer 4,800 
wells are used annually for observing water levels. One ongoing 
comprehensive study by various state institutions, including Texas A&M 
University, is being conducted on the aquifer to further assist state 
agencies in their management of the aquifer. While this study effort 
uses federal funding, it is not a top down, federally driven 
groundwater management program. S. 212 has been estimated by the 
Congressional Budget Office to cost as much as $90 million; additional 
money that will need to be appropriated in order for the Federal 
government to duplicate the work of ongoing state research regarding 
the High Plains Aquifer. That money could be much better spent directly 
by states to further ongoing water conservation programs.
    I thank you for the opportunity to testify before you today on 
behalf of AFBF and the Texas Farm Bureau regarding our opposition to S. 
212. I would be happy to answer any questions that you may have.
                                 ______
                                 
    Mr. Neugebauer. Thank you.
    The Chair now recognizes Dr. Allison.

    STATEMENT OF M. LEE ALLISON, PH.D., DIRECTOR AND STATE 
              GEOLOGIST, KANSAS GEOLOGICAL SURVEY

    Dr. Allison. Thank you. Mr. Chairman and members of the 
Subcommittee, my name is Lee Allison, and I am the State 
Geologist of Kansas and Director of the Kansas Geological 
Survey and the organizer of the High Plains Aquifer Coalition. 
Thanks for the opportunity to testify on behalf of the High 
Plains Aquifer Coalition in support of Senate bill 212. The 
High Plains Aquifer Coalition is a joint effort between the 
geological surveys of the eight High Plains Aquifer States and 
the U.S. Geological Survey. The coalition objective is to 
extend the life of the High Plains Aquifer through improved 
geological characterization and understanding at the State and 
local level. We appreciate the Committee holding a hearing on 
this important issue.
    The High Plains Aquifer is the most intensely pumped 
aquifer in the United States, yielding about 30 percent of the 
Nation's groundwater used for irrigation. The region accounts 
for about 19 percent of total U.S. production of wheat and of 
cotton, 15 percent of our corn, and 3 percent of our sorghum. 
In addition, the region produces nearly 18 percent of U.S. 
beef. These numbers alone should elevate concern about the 
usable life of the aquifer from a regional to a national level.
    When it comes to water, people in the High Plains have 
trouble agreeing on almost anything, yet the detailed survey of 
the needs of more than 40 State agencies and 130 local water 
agencies of the eight High Plains States showed remarkable 
agreement in terms of the need for detailed knowledge of the 
aquifer's makeup, research on groundwater recharge, improved 
knowledge of the interaction of groundwater and surface water, 
better understanding of the impact of climate change, more 
information on how the geology of the aquifer affects water 
quality, the ability to effectively and efficiently exchange 
information, and the development of new techniques for 
understanding the aquifer.
    Mr. Chairman, earlier today, we were asked if these could 
be done in an inventory--if these could be an inventory of 
research currently underway. I am pleased to report that the 
High Plains Aquifer Coalition has compiled such a survey of 
State and local agency prospects and projects and those being 
done by the USGS, and that is attached with my written 
testimony submitted to the Committee.
    The coalition has identified a preliminary list of other 
data that would be needed to enhance local decisionmaking 
abilities about the aquifer. These include definition of 
aquifer subunits, determination of recharge, estimates of total 
saturated thickness and how it varies across the aquifer, 
estimates of depth ranges to the base of the aquifer, 
assessment of uncertainties in the yield of the aquifer, 
including saturated thickness, water level measurements, and 
depth to bedrock in different areas, and delineation of 
critical recharge areas.
    S. 212 is a grassroots effort by scientists at the State 
level to provide the data and information needed by farmers, 
bankers, cities and towns, businesses, water districts, and 
State legislators, among others, to make informed decisions 
about the future of this threatened resource. This bill grew 
out of 2 years of discussion, collaboration, and consensus 
building among all segments of the water community. We in the 
States who are struggling to extend and preserve the life of 
the High Plains Aquifer know that ignorance is dangerous. State 
and local water users and managers are increasingly demanding 
the types and quality of data needed to develop useful and 
reasonable water management programs. Current resources for 
water agencies are insufficient to meet these increasing needs.
    This bill empowers the States in their efforts to protect a 
declining resource and extend the life of the High Plains 
Aquifer. Scientific analyses and data collection would be 
improved. This bill provides a mechanism for States to develop 
or enhance their own capabilities in hydrogeology. Without this 
assistance, States are less able to control their destinies. 
They are less able to evaluate data analyses and 
interpretations produced by others. This bill puts the States 
on a more equal footing with the Federal Government.
    Nothing in this bill changes the way the aquifer is 
managed. Nothing in this bill duplicates current efforts. The 
role of the USGS would be one of support in response to State 
requests and as a source of highly specialized technical 
expertise that individual State and local jurisdictions cannot 
afford.
    Can this work be done without legislation? Yes. But it has 
not been done. This bill sets support for State efforts as a 
higher priority for the USGS. It authorizes resources requested 
by State and local water agencies to help achieve their goals.
    In conclusion, the High Plains Aquifer Hydrogeologic 
Characterization, Mapping, Modeling, and Monitoring Act is an 
important step in a comprehensive program to extend the life of 
the aquifer. We are adamant about the primacy of the States in 
the managing and controlling of our water.
    In times of reduced State funding, this bill will help 
States and local stakeholders develop their own data and 
interpretations without having to rely on Federal agencies. We 
urge this Committee to support Senate bill 212.
    This concludes my testimony, Mr. Chairman, and I would be 
pleased to answer any questions that you or the other Committee 
members have.
    [The prepared statement of Dr. Allison follows:]

   Statement of M. Lee Allison, Ph.D., State Geologist and Director, 
       Kansas Geological Survey, University of Kansas, on S. 212

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to speak to you today. I am submitting this testimony on 
behalf of the High Plains Aquifer Coalition in support of Senate Bill 
212--The High Plains Aquifer Hydrogeologic Characterization, Mapping, 
Modeling and Monitoring Act. The Coalition is a joint effort between 
the geological surveys of the eight High Plains Aquifer states and the 
U.S. Geological Survey. The Coalition objective is to improve the 
geological characterization and understanding of the High Plains 
aquifer at the state and local level. We appreciate the Committee 
holding a hearing on this important issue.
    Introduction: A reliable source of water is essential to the well-
being and livelihoods of people in the High Plains region where ground 
water is used for drinking water, ranching, farming, and other 
purposes. Many areas of the High Plains aquifer have experienced a 
dramatic depletion of this resource. Large-volume pumping from this 
aquifer has led to steadily declining water levels in the region, and 
the area faces critical water-related issues. No other major source of 
water is available for the region.
    Let me begin with some facts about the aquifer. The High Plains 
aquifer is the most widespread blanket sand and gravel aquifer in the 
nation. It encompasses one of the major agricultural regions in the 
world and underlies 174,000 square miles, including parts of eight 
states--New Mexico, Texas, Oklahoma, Kansas, Colorado, Nebraska, 
Wyoming, and South Dakota (Figure 1).
    Approximately 2.3 million people live within the High Plains, and 
the aquifer supplies drinking water for 82 percent of them. 
Agriculture, however, represents both the dominant land and water use 
in the region (94 percent of ground water withdrawals from the aquifer 
are for irrigation). The High Plains aquifer is the most intensely 
pumped aquifer in the United States, yielding about 30 percent of the 
nation's groundwater used for irrigation. During 1995, total water use 
in the High Plains was estimated to be 19.9 billion gallons per day 
and, with the exception of the Platte River valley of Nebraska, 92 
percent of that need was met by aquifer water. It is estimated that 5 
trillion gallons of water are pumped from the aquifer each year, which, 
for comparison, is 10 times the average annual water use for New York 
City.
    Although High Plains dry-land farming is possible, availability of 
``water on demand'' from the aquifer has made abundant, reliable crop 
yields a reality. As a result, the region accounts for about 19 percent 
of total U.S. production of wheat and of cotton, 15 percent of our 
corn, and 3 percent of our sorghum. In addition, the region produces 
nearly 18 percent of U.S. beef and is rapidly becoming a center for hog 
and dairy industries. Those numbers alone should elevate concern about 
the sustainability of the aquifer from a regional to a national level.
    Aquifer characterization: Aquifers are underground deposits 
containing porous rock or sediments (silts, sands, and gravels) from 
which water can be pumped in usable quantities. Although the High 
Plains aquifer often is discussed as a single entity, it is a regional 
system composed of eight smaller units that are geologically similar 
and hydrologically connected--that is, water can move from one aquifer 
to the other. The aquifer consists of a highly variable mixture of 
loose clays, silts, sands, and gravels that formed over millions of 
years by ancient river systems. These ancient rivers meandered across 
the landscape, so that, over time, the stacks of sediments that were 
deposited differ greatly from one area to the next, often over the 
distance of a few miles or less. The Ogallala Formation is the 
principal geologic unit, but the aquifer, as a whole, also includes 
deposits that are older and younger than the Ogallala.
    Aquifer characteristics are determined in large part by geology. 
The aquifer varies greatly from place to place: thick in some places, 
thin in others; permeable (able to transmit water easily) in some 
places, less so in others. Where the deposits are thick and permeable, 
water is easily removed and the aquifer can support large volumes of 
pumping for long periods. In most areas, this water is of good quality.
    Beneath the High Plains aquifer is much older, consolidated 
bedrock, usually limestone, sandstone, or shale. In some places this 
bedrock holds enough water to be called an aquifer, and it may be 
connected to the overlying aquifer. Some layers of the underlying 
bedrock contain saline water; where these are directly connected to the 
High Plains aquifer, they pose a threat to water quality.
    Water Resources in the High Plains Aquifer: Usable water in the 
High Plains aquifer is in the pore spaces between particles of sand and 
gravel. This water (called groundwater) accumulated slowly--in some of 
the deeper parts of the aquifer, over tens of thousands of years. In 
the subsurface, water in the aquifer generally moves laterally slowly 
from west to east, usually at the rate of tens of feet per year. One 
measure of ground water is saturated thickness. The saturated thickness 
of the High Plains aquifer is the vertical distance between the water 
table and the base of the aquifer. Saturated thickness is commonly 
measured in feet, but ``feet of saturated thickness'' is not the same 
as feet of actual water. Only about 10 to 25 percent of the aquifer 
volume is pore space that can yield extractable water. Therefore, in an 
aquifer with 17 percent pore space, removing 1 acre-foot of water 
causes the water table to drop by about 6 feet. The saturated thickness 
of the aquifer can exceed 1,000 feet, but averages about 200 feet. Much 
greater saturated thicknesses were common before the onset of large-
scale irrigation.
    Groundwater also can be measured in terms of its availability: How 
much water can be removed by a well over short periods. Large volumes 
of water can be pumped rapidly (1,000 gallons or more per minute) from 
the High Plains aquifer in many locations. This contrasts with many 
areas in the region, where wells generally produce smaller amounts 
(less than 100 gallons per minute). By way of comparison, a good 
household well produces 5 to 10 gallons per minute, although many 
household wells produce less.
    Recharge is the natural movement of water into an aquifer, usually 
from precipitation. Areas of increased recharge to the aquifer can be 
the result of one or more of the following factors: greater than normal 
precipitation; decreased withdrawals; or downward leakage of surface-
water irrigation and water from unlined canals and reservoirs. The 
relatively low rainfall of the region limits aquifer-recharge rates and 
thus provides a long-term limit on sustainable water use. The estimated 
average annual potential recharge from rainfall is as little as 1/4 of 
an inch per year in the southwestern portion of the aquifer area. Where 
the aquifer is closer to the earth's surface, where soils are sandier, 
and precipitation amounts greater, recharge can be significant, as much 
as 4 to 6 inches per year.
    Water in the High Plains aquifer generally flows eastward and 
discharges naturally to streams and springs. Water also may be lost 
from the aquifer by evapotranspiration or through leakage into 
underlying rock units. However, pumping from the numerous irrigation 
wells is the primary cause of ground water withdrawal. Decreases in 
saturated thickness of 10 percent or more result in a decrease in well 
yields and an increase in pumping costs because the pumps must lift the 
water from greater depths (Figures 3 and 4).
    Water-level Declines in the Aquifer: Large-scale irrigation began 
in the High Plains in the late 1800's, with the use of ditches to 
divert water from rivers. As technology improved, ground water became 
the major irrigation source because surface water (lakes, rivers, and 
streams) is relatively scarce in the region. With the advent of large-
capacity pumps that were capable of drawing several hundred gallons of 
water per minute, people began to exploit that groundwater. In the 
1950's and 1960's, technological developments led to a dramatic 
increase in large-scale pumping. In particular, center-pivot irrigation 
systems--large sprinklers that roll across the land on wheels--allowed 
people to irrigate uneven terrain, thus opening up large new areas for 
irrigation. These irrigation methods led to the cultivation of crops, 
such as corn, that could not previously be grown reliably in the area.
    For many years, people believed that the High Plains aquifer 
contained an inexhaustible amount of water. However, large-volume 
pumping (mostly for irrigation) eventually led to substantial declines 
in the water table, and people realized that the amount of water in the 
aquifer was finite and could be exhausted. Much of the Ogallala portion 
of the High Plains aquifer has declined since predevelopment, with some 
areas having declines of more than 60 percent.
    Withdrawals greatly exceeded recharge in many areas since intensive 
irrigation began in the 1940's. This has resulted in widespread water-
level declines, especially in southern areas--more than 100 feet in 
parts of Kansas, New Mexico, Oklahoma, and Texas. In some places, 
irrigation has become impossible or cost prohibitive because of such 
declines. From 1980 to 1997, the average water level in the aquifer 
fell 2.7 feet (Figure 2). Depth to water table ranges from 0 to 500 
feet, with an average of about 100 feet.
    When Will the Aquifer Run Dry? Perhaps the most common and 
important question about the High Plains aquifer is: How much longer 
can it support large-scale pumping? It's a simple question with a 
complicated answer. First, the aquifer will probably be able to support 
small, domestic wells far into the future. With proper planning, most 
cities and towns should be able to provide for their water needs. 
Second, the future of agricultural use of the aquifer depends on a 
variety of factors, including the price of irrigated crops, the price 
and availability of energy (the deeper the water table, the more energy 
it takes to pump water), climate, and how the water is managed. Third, 
it is important to note that the aquifer is not one consistent, 
homogeneous unit. Rather, it varies considerably from place to place. 
In places, the aquifer consists of less than 50 feet of saturated 
thickness and receives little recharge. In other places, the aquifer is 
far thicker or receives considerably more recharge. The geology of the 
aquifers is highly variable and poorly characterized. I mentioned that 
the aquifer sediments in some areas are gravels and coarse sands 
deposited within ancient river channels. However, outside of these 
channels the aquifer sediments can be composed of muddy and silty 
overbank deposits, with significantly less capacity to store and 
transport water.
    Over the past few decades, petroleum companies have spent billions 
of dollars to characterize the geology of oil and gas fields. New 
technologies have been developed and new concepts of reservoir 
characterization have evolved. As a result, the life of our oil and gas 
fields is being dramatically increased. In ground-water geology we are 
applying similar approaches and analyses, but we have not had the 
resources to make full use of technology advances, especially at the 
state and local levels.
    With those qualifications in mind, researchers have made 
projections about the aquifer, based on past trends in water-level 
declines. Obviously, the actual future use of water will be affected by 
commodity prices, energy prices, climate, and management policies. In 
addition, relatively little data are available for some parts of the 
aquifer, and projections are not practical in those areas. Assuming a 
saturated thickness of 30 feet as the minimum amount necessary to 
support large-scale pumping, researchers concluded that parts of the 
aquifer are effectively already exhausted. Other parts of the aquifer 
are predicted to have a lifespan /of less than 25 years, based on past 
decline trends. However, the biggest share of the aquifer would not be 
depleted for 50 to 200 years or longer. It is important to remember 
that these projections are based on past trends, and future changes 
could alter the actual depletion rate.
    A saturated thickness of 30 feet has been accepted as the minimum 
needed to sustain high-yield pumping. However, in recent years, we have 
recognized rapid drawdowns of 70 feet or more in some areas. These 
areas may run out of sufficient water for irrigation much sooner than 
expected. We need to geologically characterize these areas to determine 
what factors are causing these dramatic drawdowns, their extent, and 
possible solutions to the problem.
    Where Do We Go From Here? Individuals, governmental agencies, and 
private organizations are all attempting to address issues related to 
the High Plains aquifer. In addition, several new institutions have 
recently been proposed to deal with issues concerning the aquifer on a 
regional basis. Irrigators have implemented a number of techniques that 
have improved the efficiency with which they use water--using low-
pressure application methods on center-pivot systems, for example, 
instead of spraying water high into the air.
    Local water districts are making critical decisions about the 
future of the aquifer using limited data often gathered at considerable 
distances that may not be applicable to their situations. More detailed 
knowledge of the geological framework of the aquifer will allow local 
water agencies to make decisions using the data and analyses that are 
most relevant and applicable to their situations.
    High Plains Aquifer Coalition: Each state manages its water 
resources differently. The number of state and local water agencies and 
their duties vary dramatically among the eight High Plains states. None 
of the eight state geological surveys deals directly with ground-water 
management. State geological surveys provide scientific advice to their 
respective state and local management agencies. Some state surveys 
focus strictly on the geologic framework in which ground water exists; 
others investigate both the geology and the hydrology of groundwater.
    Because the structure for conducting hydrogeologic research on the 
aquifer differs dramatically among states, both the existing knowledge 
base and ongoing aquifer research efforts vary substantially from state 
to state. Much of past research was limited by state expertise, budget 
allocations, and cooperation among state agencies. To share the results 
among state research efforts and to efficiently utilize existing 
research data, in June 2000, the geological surveys of the eight states 
that contain the High Plains aquifer formed the High Plains Aquifer 
Coalition, in alliance with the U.S. Geological Survey. Coalition 
members are Kansas Geological Survey, New Mexico Bureau of Geology and 
Mineral Resources, Nebraska Conservation and Survey Division, Texas 
Bureau of Economic Geology, Colorado Geological Survey, Oklahoma 
Geological Survey, South Dakota Geological Survey, Wyoming State 
Geological Survey, and U.S. Geological Survey.
    The purpose of the Coalition is to cooperate in joint 
investigations and scientific exchanges concerning the earth sciences 
(including hydrology, geology, geochemistry, geochronology, geophysics, 
geotechnical and geological engineering, and related investigations) on 
topics of mutual interest. This agreement was specifically undertaken 
to advance the understanding of the three-dimensional distribution, 
character, and nature of the sedimentary deposits that make up the High 
Plains aquifer in the eight-state, Mid-continent region. It recognizes 
that the distribution, withdrawal, and recharge of groundwater, and the 
interaction with surface waters, are profoundly affected by the geology 
and the natural environment of the High Plains aquifer in all eight 
states--New Mexico, Texas, Oklahoma, Colorado, Kansas, Nebraska, South 
Dakota, and Wyoming--thereby establishing a commonality of interests 
among the Surveys and citizens of these states.
    The geological surveys agreed that reaching a fuller understanding 
of the three-dimensional framework and hydrogeology of the High Plains 
aquifer is necessary to provide local and state policymakers with the 
earth-science information required to make wise decisions regarding 
urban and agricultural land use, the protection of aquifers and surface 
waters, and the environmental well-being of the citizens of this 
geologically unique region.
Research Needs:
    When it comes to water, people on the High Plains have trouble 
agreeing on almost anything. Each state manages its water in different 
ways, and each state collects information about the High Plains aquifer 
in different ways. The Ogallala Aquifer Institute (OAI) surveyed dozens 
of state and local water agencies in all eight High Plains states about 
their research and data needs. The agency offices contacted represented 
more than 130 local water districts and an uncounted number of water 
systems. A copy of the OAI findings is attached with our written 
statement to the Committee. Yet the detailed survey of the needs of 
water agencies of the eight High Plains states showed remarkable 
agreement in terms of the need for:
    <bullet>  detailed knowledge of the aquifer's make-up;
    <bullet>  research on recharge, or the movement of water back into 
the aquifer;
    <bullet>  improved knowledge of interaction of ground water and 
surface water;
    <bullet>  better understanding of the impact of climate change;
    <bullet>  more information about the aquifer's water quality;
    <bullet>  the ability to efficiently exchange information; and
    <bullet>  the development of new techniques for understanding the 
aquifer.
    Through past research, we have learned that the aquifer consists of 
many sub-regions or smaller units. Past research also helped identify 
the need to focus future efforts on geological and hydrological 
characterization, mapping, modeling, and monitoring of aquifer 
subunits. The eight state geological surveys and the U.S. Geological 
Survey, in consultation with state and local water agencies and groups, 
have agreed on the need for comprehensive understanding of the 
subsurface configuration and hydrogeology of the High Plains aquifer. 
Improved knowledge in these areas will refine our understanding of the 
aquifer and provide better tools and strategies for long-term aquifer 
management.
    In addition to a possible increase in the density of data, the 
Coalition has identified a preliminary list of other data that would be 
needed to enhance local decisionmaking abilities about the aquifer. 
These include:
    <bullet>  Determination of the approach to define aquifer subunits, 
such as hydrologic boundaries, ground-water divides, hydrological 
characteristics, aquifer extent, major differences in recharge, or 
saturated thickness, in conjunction with administrative boundaries;
    <bullet>  Determination of recharge, stream outflow, and ground-
water inflow and outflow to give estimates of net sustainable 
quantities of water to be pumped from areas of different saturated 
thickness in the High Plains aquifer;
    <bullet>  Estimates of total saturated thickness and how it varies 
across the aquifer that will be needed for continued pumping;
    <bullet>  Estimates of depth ranges from ground surface to the base 
of the aquifer;
    <bullet>  Assessment of uncertainties for estimating sustainable 
yield of the aquifer, including practical saturated thickness, water-
level measures, and depth to bedrock in different areas;
    <bullet>  Determination of methods to reduce the largest 
uncertainties in calculating the aquifer volume; and
    <bullet>  Delineation of critical recharge areas.
    Why the Bill is Important to the Region and the Nation: Extending 
the life of the High Plains aquifer is essential to the economic 
viability of the region. No realistic alternative water sources exist 
to supply this region of the country. Accurate data about aquifer 
variability and subunit characteristics will allow us to properly 
determine current water levels, where and at what rates aquifer water 
moves, and the variables that impact water recharge rates in aquifer 
subunits. Knowledge of these factors will allow us to better predict 
water levels and ultimately will lead to development of improved 
approaches for enhancing and extending the life of the aquifer and 
other factors useful for economic and management purposes.
    The High Plains Aquifer Hydrogeologic Characterization, Mapping, 
Modeling and Monitoring Act is a grassroots effort by scientists at the 
state level to provide the data and research needed by state and local 
agencies and by water users to make informed decisions about the future 
of this threatened resource. This bill grew out of two years of 
discussion, collaboration, and consensus building among all segments of 
the water community.
    Federal funds under this bill will expand existing capabilities and 
enhance the effects of ongoing state and local funding. Complementary 
activities will allow us to build critical data bases and understanding 
of the aquifer. The bill enlists expertise from the U.S. Geological 
Survey not available at the state level and fosters better coordination 
with other groups within states and across state boundaries. State and 
local water users, managers, and regulators are increasingly demanding 
the types and quality of data needed to develop useful and reasonable 
water-management programs. For example, in Kansas, local Groundwater 
Management Districts are requesting subunit characterization of the 
aquifer that requires a more sophisticated and regional understanding 
of the nature of the aquifer. Current resources for state and federal 
water agencies are insufficient to meet these increasing needs.
    This bill empowers the states in their efforts to protect a 
declining resource and extend the life of the High Plains aquifer. 
Scientific analyses and data collection would be improved. This bill 
provides a mechanism for states to develop or enhance their own 
capabilities in hydrogeology. Without this assistance, states are less 
able to control their destinies; they are less able to evaluate data, 
analyses, and interpretations produced by others. This bill puts the 
states on a more equal footing with the federal government.
    New studies would either build on important, but often small and 
intermittent, efforts underway in the states, or would fill gaps and 
needs that are not being addressed at all. Nothing in this bill changes 
the ways the aquifer is managed. Nothing in this bill duplicates 
current efforts. This bill provides resources requested by state and 
local water agencies and establishes the High Plains aquifer as a 
priority area of study. The U.S. Geological Survey has undertaken 
aquifer studies for most of its 115-year history. Early water studies 
on the High Plains by the U.S.G.S. go back to 1905. The role of the 
U.S.G.S. is being better defined through the High Plains Aquifer 
Coalition as one of support in response to state requests and as a 
source of highly specialized technical expertise that individual state 
and local jurisdictions cannot afford. In their testimony to the Senate 
regarding this bill last March, the U.S.G.S. stated that the, ``goals 
of this bill can be achieved without legislation through better 
coordination of existing Federal and State programs.'' While that may 
be possible, we have not seen that improved coordination. This bill 
sets those goals as higher priorities for the U.S.G.S. and authorizes 
resources to help achieve them.
    We in the states who are struggling to extend and preserve the life 
of the High Plains aquifer know that ignorance is dangerous. Good 
information is needed by farmers, bankers, cities and towns, 
businesses, water districts, and state legislators, among others, to 
make rational and realistic decisions.
    In conclusion, The High Plains Aquifer Hydrogeologic 
Characterization, Mapping, Modeling and Monitoring Act is an important 
step in a comprehensive program to extend the life of the aquifer. We 
are adamant about the primacy of the states in managing and controlling 
of our water. The Review Panel required in the bill is set up to assure 
state control of state activities under this bill. Each state is given 
the ability to assure that local stakeholders guide the investigations 
needed to address state and local issues. In times of reduced state 
funding, this bill will help states and local stakeholders develop 
their own data and interpretations without having to rely on federal 
agencies.
    The bill will help ensure that the relevant science needed by state 
and locals agencies to address aquifer depletion is available so that 
we will have a better understanding of the resources of the High Plains 
aquifer and can ultimately lead to extending the life of the aquifer. 
We urge this Committee to support Senate Bill 212--The High Plains 
Aquifer Hydrogeologic Characterization, Mapping, Modeling and 
Monitoring Act.
    This concludes my testimony. I would be pleased to answer any 
questions that the members of the Committee may have.
Acknowledgments:
    Substantive parts of the above text were taken with permission from 
Buchanan and Buddemeier, 2001, and modified slightly for use here. Some 
material in this testimony was prepared with assistance from Dana 
Woodbury of the Ogallala Aquifer Institute, Garden City, Kansas.
References:
Rex Buchanan and Robert Buddemeier, 2001. The High Plains Aquifer. 
        Kansas Geological Survey, Public Information Circular 18, 6p.
James Miller, 1999. Ground Water Atlas for the United States. United 
        States Geological Survey, Introduction and National Summary.
V. L. McGuire, March 2001. Water-Level Changes in the High Plains 
        Aquifer, 1980 to 1999. United States Geological Survey. Fact 
        Sheet -029091.
Ogallala Aquifer Institute, January 2003. Research on the High Plains 
        Aquifer: A Report for the High Plains Aquifer Coalition. Kansas 
        Geological Survey, Open-file Report 2003-54.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0157.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0157.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0157.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0157.004
                                 

           KANSAS GEOLOGICAL SURVEY OPEN-FILE REPORT 2003-54
                  research on the high plains aquifer:
    A REPORT FOR THE HIGH PLAINS AQUIFER COALITION

                   by the Ogallala Aquifer Institute

                              January 2003

    Disclaimer The Kansas Geological Survey does not guarantee this 
   document to be free from errors or inaccuracies and disclaims any 
 responsibility or liability for interpretations based on data used in 
the production of this document or decisions based thereon. This report 
   is intended to make results of research available at the earliest 
   possible date, but is not intended to constitute final or formal 
                             publications.

                        Kansas Geological Survey

                          1930 Constant Avenue

                          University of Kansas

                        Lawrence, KS 66047-3726

   RESEARCH ON THE HIGH PLAINS AQUIFER: A REPORT FOR THE HIGH PLAINS 
                           AQUIFER COALITION

                       Ogallala Aquifer Institute

                              January 2003

Executive Summary
    The High Plains aquifer underlies all or parts of eight Great 
Plains states. The High Plains aquifer, which includes the well-known 
Ogallala Aquifer, is the most important regional water source on the 
Great Plains, yielding about 30 percent of the nation's ground water 
used for irrigation. However, recent years have seen dramatic declines 
in water levels in parts of the aquifer--including depletion or near-
depletion in some locations
    In response to concerns about this resource, individuals, 
organizations, and agencies across the eight states have taken various 
voluntary and regulatory actions. Long-term management of the aquifer, 
however, requires scientific understanding and access to high-quality 
scientific information. To enhance the scientific understanding and 
information about the aquifer, the state geological surveys of the 
eight states and their federal counterpart, the U.S. Geological Survey, 
formed the High Plains Aquifer Coalition. The Coalition's objective is 
to improve the geological characterization and understanding of the 
High Plains aquifer, with an eye toward extending the life of this 
vital resource.
    The High Plains aquifer varies considerably from place to place 
across the Great Plains--several hundred feet thick in some places, 
very thin in others. Similarly, each state has taken a different 
approach to managing water use. Additionally, each state has various 
levels of information about the aquifer and thus differing research 
programs aimed at understanding the aquifer. However, the states are 
increasingly recognizing the need to cooperate in managing and 
understanding the aquifer.
    The High Plains Coalition was formed in response to this need. As 
part of its mission, the Coalition (working with the Ogallala Aquifer 
Institute) collected information about the research efforts and needs 
of each state. Based on extensive interviews with individuals and 
agency staff, the Coalition produced a comprehensive inventory of the 
data that are available for each state. It also collected information 
about the types of data that are not available and are needed. In 
addition, the Coalition identified research needs common to all the 
High Plains states. Those needs are summarized below, and, as such, 
help provide a general plan of research aimed at better understanding 
and management of the aquifer.
    Aquifer subunits: The High Plains aquifer underlies more than 
174,000 square miles and is highly variable from place to place. 
Managing a resource of this size is more effective when the aquifer is 
divided into smaller areas of similar characteristics, such as similar 
geological make-up or ability to produce water. Managing the resource 
by these smaller areas (referred to as aquifer subunits or well fields) 
requires:
    <bullet>  detailed knowledge of the aquifer's make-up, geology, 
porosity (or pore space), permeability (ability of water to move 
through the formation), depth to bedrock, and other characteristics; 
and
    <bullet>  detailed knowledge of the vertical and horizontal 
distribution of these aquifer characteristics.
    Obtaining this detailed knowledge involves surface mapping, 
drilling, subsurface geophysical logging, correlation, and 
interpretation, and reexamination of existing surface and subsurface 
information.
    Recharge: Recharge is the movement of water from the land's surface 
back into the aquifer, usually originating in the form of 
precipitation. Knowledge of recharge is crucial to managing the 
resource, to calculating how much water will be replenished compared to 
how much is pumped. Knowledge of recharge is also important for 
understanding the movement of contaminants, such as nitrates, back into 
the groundwater. Recharge is generally believed to be very low across 
much of the High Plains (less than an inch per year in many places), 
but exact amounts are difficult to determine for any single location 
and difficult to estimate for large areas. Recharge research would 
focus on:
    <bullet>  quantifying recharge rates, understanding recharge 
processes, and predicting the variability of recharge;
    <bullet>  measuring deep recharge and rates of recharge;
    <bullet>  comparing recharge under irrigated land to that under 
dryland farms; and
    <bullet>  analyzing the efficacy of artificial recharge projects 
and the impact of natural features, such as playas, on recharge.
    Ground-water/Surface-water Interaction: Until the past few decades, 
it was generally assumed that there was little connection between 
groundwater (underground water in aquifers) and surface (streams and 
lakes) water. Recent research has made that connection clear: the 
amount and quality of water in streams affects water in neighboring (or 
alluvial) aquifers. Pumping from alluvial aquifers likewise has an 
impact on streams, with an attendant impact on wildlife, water quality, 
and other factors. However, this connection is not well understood. 
Very little is known about how these water sources influence each 
other, both in terms of quality and quantity. This requires detailed 
measurements of ground-water and surface-water interaction.
    Water Quality: Much of the water in the High Plains aquifer is of 
extremely high quality, one reason it is such a valuable resource. 
However, relatively little is known about the variability of water 
quality across the aquifer, how quickly contaminants can move into the 
aquifer, the role of natural contaminants such as uranium and radon, 
from bedrock geologic units, as well as man-made contaminants, such as 
nitrates. Research is also needed on:
    <bullet>  the way contaminant movement is affected by the geology 
of the aquifer, both regionally and over time;
    <bullet>  the way water quality is affected by the movement of 
water from one geologic unit to another; and
    <bullet>  the impact of production agriculture or confined-
livestock feeding operations on ground-water quality.
    Climate change: Much of the High Plains aquifer is in a semi-arid 
area. Small changes in temperature and precipitation patterns may have 
a dramatic impact on land-use, irrigation, water in storage, and other 
factors. Understanding the role of climate and its impact is crucial to 
ground-water management here.
    Information/Data: The quality of information and data varies widely 
in the states underlain by the aquifer. Access to consistent, high-
quality data is central to making the best possible management 
decisions. This includes the need for establishing:
    <bullet>  instrumentation to provide real-time monitoring of water-
level changes;
    <bullet>  water-quality data bases and the linking of data bases in 
different areas;
    <bullet>  electronic access to drillers' logs and electric logs 
(the records of wells drilled);
    <bullet>  better data on actual pumping rates and amount of 
irrigated land; and
    <bullet>  taking advantage of the possibilities of electronic 
dissemination of information.
    New techniques: A variety of new scientific techniques can be 
developed or applied to ground-water issues on the High Plains. 
Geophysical measurements, such as the use of micro-gravity to measure 
the amount of water in storage in the aquifer, can be applied to better 
understand the aquifer and the amount of water it contains, to create 
more detailed and uniform analyses, and to do it more efficiently.

                     High Plains Aquifer Coalition

                   High Plains Aquifer Strategic Plan

                               Jan. 2003

Introduction
    Extending the life of the High Plains aquifer is essential to the 
economic viability of the High Plains region because there are no 
realistic alternative water sources. State and local water users, 
managers and regulators are increasingly demanding the types and 
quality of data needed to develop useful and reasonable water 
management programs. Accurate data about aquifer variability and 
subunit characteristics will allow for accurate determination of 
current water levels, where, and at what rates, aquifer water moves, 
and the variables that impact water recharge rates in aquifer subunits. 
Knowledge of these factors will allow for more accurate predictions of 
future water levels and ultimately will lead to development of improved 
approaches for enhancing and extending the life of the aquifer and 
other factors useful for management purposes.
    The eight High Plains aquifer states each manage their water 
resources in a different manner. The number of state and local water 
agencies and their duties vary dramatically among the eight High Plains 
states. Because the structure for conducting hydrogeologic research on 
the aquifer differs dramatically among states, both the existing 
knowledge base and ongoing aquifer research efforts vary substantially 
from state to state. Much of past research was limited by state 
expertise, budget allocations and cooperation among state agencies. To 
prevent future inconsistencies among state research efforts and to 
efficiently utilize existing research data, in June 2000, the 
geological surveys of the eight High Plains aquifer states formed the 
High Plains Aquifer Coalition (HPAC).
    This HPAC strategic plan is intended to guide the HPAC in the most 
effective use of resources, research, and technical capabilities 
targeted at the High Plains aquifer. In addition, the plan will be a 
roadmap for prioritizing issues and actions. A plan that supports an 
integrated science approach for planning and execution will more 
effectively facilitate the alignment of relevant science with local and 
regional needs and the delivery of information to decision makers in a 
useful format. This plan, and the activities defined, is a means for 
providing greater coordination of HPAC activities. A cooperative 
regional strategic plan for scientific research and collaboration will 
lead to a more detailed understanding of what research is required and 
a priority for the region.

High Plains Aquifer Coalition Overview
    The High Plains Aquifer Coalition is a joint effort between the 
geological surveys of the eight High Plains Aquifer states and the 
USGS. Coalition members include Kansas Geological Survey, New Mexico 
Bureau of Economic Geology, Colorado Geologic Survey, Oklahoma 
Geological Survey, South Dakota Geological Survey, Wyoming State 
Geological Survey and U.S. Geological Survey.
    The Coalition objective is to improve the geological 
characterization and understanding of the High Plains aquifer. The 
purpose of the Coalition is to cooperate in joint investigations and 
scientific exchanges concerning the earth sciences (including 
hydrology, geology, geochemistry, geochronology, geophysics, 
geotechnical and geological engineering and related investigations) on 
topics of mutual interest. This agreement was specifically undertaken 
to advance the understanding of the three-dimensional distribution, 
character, and nature of the sedimentary deposits that comprise the 
High Plains aquifer in the eight-state Mid-continent region. It 
recognizes that the distribution, withdrawal, and recharge of 
groundwater, and the interaction with surface waters is profoundly 
affected by the geology and the natural environment of the High Plains 
aquifer in all eight States--New Mexico, Texas, Oklahoma, Colorado, 
Kansas, Nebraska, South Dakota, and Wyoming--thereby establishing a 
commonality of interests among the Surveys and citizens of these 
states.
    The Geological Surveys agreed that reaching a fuller understanding 
of the three-dimensional framework and hydrogeology of the High Plains 
Aquifer is necessary to provide local and state policymakers with the 
earth-science information required to make wise decisions regarding 
urban and agricultural land use, the protection of aquifers and surface 
waters, and the environmental well-being of the citizens of this 
geologically unique region.

Regional Issues HPAC Can Address
    <bullet>  Research on the regional geologic framework, particularly 
the completion of detailed, quadrangle-size (1:24,000 scale) surface 
and subsurface geologic maps and models in digital format, and the 
public dissemination of these maps and models, as well as interpretive 
information derived from them.
    <bullet>  Research on geologic processes relating to deposition of 
sedimentary sequences--their definition, nature, extent, origin, and 
bounding surfaces--forming the High Plains aquifer and adjacent 
aquifers.
    <bullet>  Research on the region's hydrogeology and its fluid 
systems.
    <bullet>  Research on processes controlling the quantity and 
quality of water recharging the High Plains aquifer, including the 
effect of past and future changes in climate and land-use activities on 
recharge.
    <bullet>  Research on enhancing the recharge of the High Plains 
aquifer.
    <bullet>  Research on the porosity, permeability, storage capacity, 
and specific yield of the aquifer.
    <bullet>  Research on the geological and hydrological processes 
controlling regional differences and temporal changes in water quality.
    <bullet>  Research on the vertical and lateral exchange of 
groundwater between different formations that make up the High Plains 
and adjacent aquifers and the effect of such exchange on water quality 
in the High Plains aquifer.
    <bullet>  Research on the age of groundwater recharging and moving 
through the aquifer.
    <bullet>  Research on improved techniques for modeling the 
occurrence, movement, and quality of water in the High Plains aquifer.
    <bullet>  Research on using geophysical techniques, procedures, and 
models for regional application in mapping subsurface deposits in the 
Mid-continent region.
    <bullet>  Transfer of technology and information among the Surveys 
and to both the private and public sectors.
    <bullet>  Determination of the approach to define aquifer subunits, 
such as hydrologic boundaries, ground-water divides, hydrological 
characteristics, aquifer extent, major differences in recharge, or 
saturated thickness, in conjunction with administrative boundaries.
    <bullet>  Determination of recharge, stream outflow, and ground-
water inflow and outflow to give estimates of net sustainable 
quantities of water to be pumped from areas of different saturated 
thickness in the High Plains aquifer. Estimates of total saturated 
thickness and how it varies across the aquifer that will be needed for 
continued pumping.
    <bullet>  Estimates of depth ranges from ground surface to the base 
of the aquifer.
    <bullet>  Assessment of uncertainties for estimating sustainable 
yield volumetrics of the aquifer, including practical saturation 
thickness, water level measures, and depth to bedrock in different 
areas.
    <bullet>  Determination of methods to reduce the largest 
uncertainties in calculating the aquifer volume.
    <bullet>  Delineation of critical recharge areas.

Past and Current HPA Hydrogeologic Research Activities
    Both the existing knowledge base and ongoing aquifer research 
efforts vary substantially from state to state. In addition, the 
structure for conducting hydrogeologic research on the High Plains 
aquifer differs dramatically among the states. Following is an overview 
of the major hydrogeologic HPA related research that has been conducted 
in the eight states during the past decade. (see attached grid)

HPA Strategic Plan

Vision:
    The HPAC is a leader in the advancement and understanding of the 
three-dimensional distribution, character, and nature of the 
sedimentary deposits that comprise the High Plains aquifer in the 
eight-state region. Future decisions affecting the use, management and 
protection of the High Plains aquifer will benefit directly from the 
timely and appropriate HPAC research and data collection and 
collaboration.

Mission:
    The mission of the HPAC is to improve the geological 
characterization and understanding of the High Plains aquifer through 
cooperation in joint investigations and scientific exchanges concerning 
the earth sciences (including hydrology, geology, geochemistry, 
geochronology, geophysics, geotechnical and geological engineering and 
related investigations) on topics of mutual interest.

Goals and Action Areas:
    <bullet>  Identify priority areas of research that is mutually 
beneficial for the eight High Plains aquifer states. Action: Develop 
priority area list and gain approval from all members.
    <bullet>  Develop science plans that address specific High Plains 
aquifer research areas. Action: Develop a plan for each issue. 
Establish a team for each issue.
    <bullet>  Identify and secure funding and other resources to 
implement the HPAC scientific strategic plan. Action: Identify 
potential sources of external and/or internal funding for proposed High 
Plains aquifer activities. Develop proposals or action plans to request 
funding.
    <bullet>  Implement a communications strategy that promotes 
dissemination of information in a simple, timely, and efficient manner. 
Action: Define strategy for communicating HPAC results to High Plains 
stakeholders.

Partners:
        Kansas Geological Survey
        New Mexico Bureau of Mines & Mineral Resources
        Nebraska Conservation & Survey Division
        Texas Bureau of Economic Geology
        Colorado Geological Survey
        Oklahoma Geological Survey
        South Dakota Geological Survey
        Wyoming State Geological Survey
        U.S. Geological Survey
        State and Local agencies

Summary and Conclusions:
    This strategic plan defines the long-term goals for the HPAC to 
develop a unified approach to addressing High Plains aquifer issues in 
the eight state region. The priority areas will continually be refined 
as the HPAC determines areas of need. Each year the HPAC will meet to 
review progress on building the HPAC strategies and to define a new set 
of activities for the following year.
    Mr. Neugebauer. Thank you.
    The Chair recognizes Mr. Wall.

  STATEMENT OF SCOTT WALL, NATIONAL CORN GROWERS ASSOCIATION, 
                         YUMA, COLORADO

    Mr. Wall. Good afternoon, Mr. Chairman, Ranking Member 
Napolitano. Thank you for inviting me to testify on S. 212.
    My name is Scott Wall, and I am a corn and wheat farmer 
from Yuma, Colorado. My family and I farm just 1,000 acres, and 
much of it is irrigated. I am a member of the National Corn 
Growers Association (NCGA), and I serve on the Corn Board.
    I am just finishing up my harvest, which is an incredibly 
demanding race against the clock. Yet I have left my work to be 
here for this hearing. The NCGA has three main concerns with S. 
212: it would intrude on law traditionally reserved for the 
States; it would duplicate existing programs; and it would have 
a high and unnecessary cost.
    The United States has a long and well-established tradition 
of respecting a State's right to govern and manage its water 
resources. While this tradition has been eroded for surface 
water, it still generally applies to groundwater.
    Obviously, Congress plays an important role in setting 
national environmental policies and priorities. But another 
intrusion, no matter how innocuously drafted to help States or 
to conduct research, eventually opens the door to new laws and 
new regulations. Congress should not impose on States water 
rights, especially when the States that would be affected by 
this legislation have robust laws, regulatory agencies, and 
research capabilities in place.
    For what should be a relatively simple concept--to create a 
program to characterize, model, and map the Ogallala Aquifer--
S. 212 is a complex bill. Governors must request assistance. A 
review panel must be created. Funding must be split with the 
States. Reports must be generated. Why is this so prescriptive? 
It makes me wonder what the reason for the bill really is.
    If the goal is to help the States and the region better 
understand the aquifer, why can't they ask the Department of 
Interior for additional assistance? According to testimony 
previously provided by the Department, the U.S. Geological 
Survey already is working with the States on the aquifer. In 
addition, the USGS has the authority to help the States in any 
way they need.
    Colorado is a dry area, and we often suffer from droughts. 
Yet the Ogallala Aquifer has made my part of the State and the 
rest of the High Plains a highly productive agricultural area. 
Irrigators and other water users know intense use of 
groundwater has caused declines, and some serious. We know the 
trend raises questions about the sustainability of long-term 
agricultural production in the area.
    However, farmers and other stakeholders and the States are 
addressing these concerns. More than 15 years ago, State, local 
and Federal agencies began a long-term monitoring program of 
the aquifer. Yearly assessments show that decreases have 
slowed, mainly because of increased irrigation efficiencies, 
changing cultivation practices, and generous rainfall, except 
for 2002, and actually 2003.
    Most of the States in the region have robust, comprehensive 
ground and surface water management laws and programs. Colorado 
has two State agencies addressing water issues. Our agencies 
issue well permits, administer water rights, monitor flow, and 
educate the public.
    While additional study is probably needed on the aquifer, 
the responsibility for conducting it should remain in the State 
and local level where it belongs.
    According to the Congressional Budget Office, S. 212 would 
cost $90 million over 2 years. To a farmer, $90 million is a 
lot of money, especially for a program that duplicates State 
programs and is unnecessary to solve any perceived research or 
agency coordination deficiencies.
    As you know, the 2002 farm bill created the Ground and 
Surface Water Conservation Program. It provides cost-share 
payments, incentive payments, and loans to help farmers improve 
irrigation systems, enhance irrigation efficiencies, and 
mitigate drought.
    This program is about outcomes--actually conserving water 
and increasing efficiency. Just think of what $90 million could 
do if it were used for on-the-ground water conservation instead 
of for just another report. NCGA suggests that if the bill's 
sponsors are serious about groundwater issues, they should put 
real money toward real problems, not just set up another 
program.
    The Ogallala Aquifer is a wonderful resource. Colorado corn 
growers and all others that rely on it to produce their crops 
are well aware of what it has done for agriculture. Please 
leave its management to us and our States. We have done a good 
job and it shows.
    Thank you very much for the opportunity to testify, and if 
there are any questions, I would be glad to answer them.
    [The prepared statement of Mr. Wall follows:]

              Statement of Scott Wall, Corn Board Member, 
              National Corn Growers Association, on S. 212

    Good morning, Chairman Calvert and Ranking Member Napolitano. Thank 
you for inviting me to testify on S. 212.
    My name is Scott Wall. I am a corn and wheat producer from Yuma, 
Colorado. My family and I farm just under 1,000 acres, much of it 
irrigated. I am a member of the National Corn Growers Association 
(NCGA) and serve on the Corn Board. NCGA represents more than 33,000 
corn growers from 27 states.
    I am just finishing up my harvest, which those of you familiar with 
row crop production know is an incredibly demanding race against the 
clock. Yet, I left my work to be here for this hearing. NCGA has three 
main concerns with S. 212: it would intrude on law traditionally 
reserved for the states; it would duplicate existing state programs; 
and it would have a high and unnecessary cost.
State Water Rights
    The United States has a long and well-established tradition of 
respecting a state's right to govern and manage its water resources. 
While this tradition has been eroded for surface water, it still 
generally applies to groundwater. The Federal Government--Congress--
should resist the temptation to encroach on this area of law again. 
Obviously, Congress plays an important role in setting national 
environmental policies and priorities. But another intrusion, no matter 
how innocuously drafted to help states or to conduct research, 
eventually opens the door to more laws and new regulations. Congress 
should not impose on states water rights, especially when the states 
that would be affected by this legislation have robust laws, regulatory 
agencies and research capabilities in place.

Duplication with existing efforts
    For what should be a relatively simple concept--to create a program 
to characterize, model and map the Ogallala Aquifer--S. 212 is a 
complex bill. Governors must request assistance. A review panel must be 
created. The review panel must evaluate research proposals and 
prioritize program activities. Funding must be split with the states. 
Reports on program implementation and the state of the aquifer must be 
generated. Why is this so prescriptive? It makes me wonder about the 
real reason for S. 212.
    If the goal is to help the states in the region better understand 
the aquifer, why can't they simply ask the Department of the Interior 
for additional assistance? According to testimony previously provided 
by the Department to the Senate Water and Power Subcommittee, the U.S. 
Geological Survey (USGS) already is working with the states to evaluate 
the present and future State of the aquifer. In addition, USGS has the 
authority to help the states in any way they need.
    Colorado is a dry area, and we often suffer from droughts. Yet, the 
Ogallala Aquifer has made my part of the state and the rest of the High 
Plains a highly productive agricultural area. Irrigators and other 
water users recognize that intense use of groundwater has caused 
declines, some serious. We know this trend raises questions about the 
sustainability of long-term agricultural production in the area.
    However, farmers, other stakeholders and the states are addressing 
these concerns. More than 15 years ago state, local and federal 
agencies began a long-term monitoring program to assess the changing 
condition of the aquifer. These yearly assessments show that decreases 
have slowed, mainly because of increased irrigation efficiencies, 
cultivation practice changes and generous rainfall (except for 2002).
    Most of the states in the region have robust, comprehensive ground 
and surface water management laws and programs. Colorado has two state 
agencies addressing water issues. Nebraska brought two separate 
entities under one department a few years ago. Texas has one agency 
solely dedicated to water issues and a comprehensive system of local 
groundwater management.
    In Colorado, our state water agencies issue water well permits, 
administer water rights, monitor flow and collect water data. We also 
have the Groundwater Commission and local water conservation districts 
that make recommendations to the commission. I list these entities and 
activities to give the Committee an idea of how seriously Colorado 
takes its water resources.
    While additional study is probably needed on the aquifer, such as 
on sustainable recharge rates and how recharge corresponds with 
changing agricultural practices, the responsibility for conducting it 
needs to remain where it belongs on the state and local level.

Cost
    According to the Congressional Budget Office (CBO), S. 212 would 
cost $90 million over 10 years. To a farmer, $90 million is a lot of 
money, especially for a program that duplicates state programs and is 
unnecessary to solve any perceived research or agency coordination 
deficiencies relating to the aquifer.
    As you may know, the 2002 farm bill created the Ground and Surface 
Water Conservation program to be managed by the Natural Resources 
Conservation Service. The purpose is to provide cost-share payments, 
incentive payments and loans to help farmers improve water 
conservation. Eligible practices include improving irrigation systems, 
enhancing irrigation efficiencies and mitigating drought. The farm bill 
provided $25 million in 2002, $45 million in 2003 and $60 million for 
each FY 2004-2007.
    This program is about outcomes--actually conserving water and 
increasing efficiency. Just think of what $90 million could do if it 
were used for on-the-ground water conservation instead of for just 
another report. NCGA suggests that, if the bill's sponsors are serious 
about groundwater issues, they should put real money toward real 
problems, not just set up yet another duplicative, unnecessary program.

Closing
    The Ogallala Aquifer is a wonderful resource. Colorado corn growers 
and all others that rely on it to produce their crops are well aware of 
what it has done for agriculture. Please leave its management to us and 
our states. We've done a good job and it shows.
    Thank you again for the opportunity to testify today. I would be 
happy to answer any questions.
                                 ______
                                 
    Mr. Neugebauer. Thank you.
    The Chair now recognizes Mr. Conkwright.

 STATEMENT OF JIM CONKWRIGHT, MANAGER, HIGH PLAINS UNDERGROUND 
              WATER DISTRICT NO. 1, LUBBOCK, TEXAS

    Mr. Conkwright. Thank you, Mr. Chairman. I thank you for 
the opportunity to be here today and to represent the High 
Plains Water District regarding Senate bill 212.
    As a local groundwater conservation district manager, I am 
concerned that S. 212 duplicates State and local efforts to 
date, that it creates a new and unnecessary layer of Federal 
oversight, and that it may provide an opportunity for eventual 
Federal regulation of groundwater resources. It is the 
district's firm belief that local control is the best control. 
This belief has been echoed by the Texas Legislature, which has 
repeatedly stated, ``Groundwater conservation districts are the 
preferred method of groundwater management in Texas.''
    Area residents and the Texas Legislature created water 
conservation districts in the early 1950s for local control of 
groundwater resources. The local boards and staff have a better 
understanding of the geology and hydrology of the aquifer than 
some outside the region. In fact, our district has two 
geologist-hydrologists on staff.
    The High Plains Underground Water District, headquartered 
in Lubbock, is the oldest groundwater conservation district in 
Texas. Created in September of 1951, the district is designed 
to help conserve, preserve, and prevent the waste of 
groundwater stored in the aquifers within a 15-county service 
area. Many water conservation successes have been accomplished 
through improving irrigation application efficiencies, reducing 
water waste from fields, and by providing public information 
about the importance of water and water conservation.
    The district work is supported through an ad valorem tax of 
0.0083 per $100 of valuation, less than 1 cent. Irrigated 
agriculture on the Texas High Plains depends upon the 
groundwater stored and the formation. It is important to 
realize that agricultural producers only pump groundwater to 
supplement the 18 to 20 inches of average annual precipitation 
for this region.
    Another issue that came up in questioning before the break 
from the Congressman from Nebraska. Much of the aquifer is 
site-specific. These are things, I think, that we all realize. 
The underlying materials are different. The way the aquifer 
operates is different. So we have site-specific situations that 
we deal with. And the residents of the Texas High Plains 
realize that the water stored in the Ogallala formation is a 
precious and limited resource.
    Senate bill 212 seeks to establish a cooperative 
partnership. Again, in our opinion, this proposed legislation 
duplicates local and State services. Chapter 36 of the Texas 
Water Code states that ``a district may make surveys of the 
groundwater reservoir or subdivisions or survey of the 
facilities in order to determine the quantity of water 
available for production and use and to determine the 
improvements, development, and recharging needed by a reservoir 
or its subdivision.'' Most underground water conservation 
districts in Texas that overlie the Ogallala conduct this 
activity.
    For example, the High Plains District publishes a series of 
hydrologic atlases for each county or portion of a county 
within the water district every 5 years. These atlases 
illustrate the volume of water in storage--the saturated 
thickness--and other important information. The atlas series is 
constructed from data collected in established water level 
observation wells and supplementary water level observation 
wells within our district.
    In addition, annual depth-to-water level measurements are 
made in a network of more than 1,200 privately owned 
observation water wells. These data are used to determine the 
average annual change in water levels in the Ogallala formation 
within the High Plains District. In recent years, district 
personnel have seen average annual changes in water levels 
decrease from 2 to 3 feet per year to approximately 1 foot per 
year. Our declines are declining.
    The use of this data from the High Plains Water District's 
water level observation program is used by the United States 
Internal Revenue Service to establish and support deductions 
from Federal income taxes based upon the use of groundwater 
from the Ogallala Aquifer for irrigated farming.
    Quickly, to wrap up, on the State level, the Texas Water 
Development Board in Austin is the lead agency for water 
matters. The 76th Texas Legislature approved funding for the 
Groundwater Availability Modeling (GAM) program. The GAM is to 
provide reliable and timely information on groundwater 
availability to the citizens of Texas. I am glad to say that we 
have just completed the first two aquifer models, and one of 
the first two is the Ogallala.
    In wrapping up, again, we feel that groundwater is best 
managed, is best handled on a local and State basis, and that 
is what we have been successfully doing. We would ask that our 
testimony as written be included in the proceedings for the day 
as it includes many other important items that need to come 
before the Committee but that we do not have time to relate.
    Thank you.
    [The prepared statement of Mr. Conkwright follows:]

     Statement of Mr. James C. (Jim) Conkwright, General Manager, 
  High Plains Underground Water Conservation District No.1, on S. 212

    Mr. Chairman, I would like to thank you for the opportunity to 
speak before your Committee today regarding S. 212, known as the High 
Plains Aquifer Hydrogeologic Characterization, Modeling, and Monitoring 
Act.
    As a ground water conservation district manager, I am concerned 
that S. 212 duplicates state and local efforts to date, that it creates 
a new and unnecessary layer of federal oversight, and it may provide an 
opportunity for eventual federal regulation of ground water resources. 
It is the High Plains Underground Water Conservation District's firm 
belief that ``local control is the best control.'' This belief has been 
echoed by the Texas Legislature, which has repeatedly stated, ``Ground 
water conservation districts are the preferred method of ground water 
management in Texas.''
    Area residents and the Texas Legislature created ground water 
conservation districts in the early 1950s for local control of ground 
water resources. The local boards and staff have a better understanding 
of the geology and hydrology of the aquifer, water use practices, and 
farming operations within the region, as compared to a state agency in 
Austin or a federal agency in Washington, D.C.
    The High Plains Underground Water Conservation District No. 1, 
headquartered in Lubbock, is the oldest ground water conservation 
district in Texas. Created in September 1951, the district is designed 
to help conserve, preserve, and prevent the waste of ground water 
stored in the aquifers within a 15-county service area. Many water 
conservation successes have been accomplished through improving 
irrigation application efficiencies, reducing water waste from fields 
(``irrigation tailwater''), and providing public information about the 
importance of water and water conservation.
    Irrigated agriculture on the Texas High Plains depends upon the 
ground water stored in the Ogallala formation. It is important to 
realize that agricultural producers only pump ground water to 
supplement the 18 to 20 inches of average annual precipitation for the 
region.
    Residents of the Texas High Plains know the ground water stored in 
the Ogallala formation is a precious and limited resource.
    For many years, state and local agencies, ground water conservation 
districts, educational institutions, and the agricultural community 
have been leaders in efforts to monitor and conserve ground water 
stored in the Ogallala formation for future use. In addition, 
agricultural producers have proven to be the best stewards of our 
nation's natural resources. They continually work to implement the best 
management practices available to conserve our ground water supplies.
    S. 212 seeks to establish a cooperative partnership effort between 
the Secretary of the Interior, the U.S. Geological Survey, and the High 
Plains Aquifer states for physical characterization of the High Plains 
Aquifer.
    Again, in our opinion, this proposed legislation duplicates both 
local and state services. Chapter 36.106 of the Texas Water Code states 
that ``a district may make surveys of the ground water reservoir or 
subdivision or survey of the facilities in order to determine the 
quantity of water available for production and use and to determine the 
improvements, development, and recharging needed by a reservoir or its 
subdivision.'' Most underground water conservation districts in Texas 
that overlie the Ogallala conduct this activity.
    As an example, the High Plains Underground Water Conservation 
District publishes a series of hydrologic atlases for each county or 
portion of a county within the Water District every five years. These 
atlases illustrate the volume of water in storage (saturated 
thickness), elevation of the water table, base of the Ogallala 
Formation, and land surface elevation for each county or portion of a 
county it serves. The atlas series is constructed from data collected 
in established water level observation wells and supplementary water 
level observation wells within the district.
    In addition, annual depth-to-water level measurements are made in a 
network of more than 1,200 privately owned observation water wells. 
These data are used to determine the average annual change in water 
levels in the Ogallala formation within the High Plains Water District. 
In recent years, district personnel have seen average annual changes in 
water levels decrease from two to three feet per year to about one foot 
per year.
    Use of data from the High Plains Water District's water level 
observation program is also used by the U.S. Internal Revenue Service 
to establish and support deductions from federal income taxes based 
upon the use of ground water from the Ogallala Aquifer for irrigated 
farming.
    On the state level, the Texas Water Development Board in Austin is 
the lead agency for water matters. The 76th Texas Legislature approved 
funding for the Groundwater Availability Modeling (GAM) program. The 
GAM is to provide reliable and timely information on ground water 
availability to the citizens of Texas. These ground water models will 
be used by regional water planning groups and ground water conservation 
districts to evaluate water management strategies and to assess present 
and future ground water availability during normal and drought 
conditions. GAM models for the nine major aquifers in Texas are to be 
completed by September 1, 2004. Modeling of the 21 minor aquifers in 
Texas will follow soon thereafter.
    The proposed legislation is designed to ``undertake activities and 
provide technical capabilities not available at the state and local 
levels as may be requested by a Governor of a High Plains Aquifer state 
within each state.''
    It should also be noted that when the Governor of Texas desires 
water information, his staff generally contacts either the Texas Water 
Development Board in Austin and/or a local underground water 
conservation district. Both agencies have many years of geologic and 
hydrologic data on file at their offices. In addition, both promote 
water conservation programs to improve water use efficiencies, reduce 
water waste, and educate the public about the importance of water and 
water conservation.
    We believe that this proposed legislation does not adequately 
consider the water conservation efforts and research already conducted 
by federal agencies, such as the U.S. Department of Agriculture Natural 
Resources Conservation Service (USDA-NRCS) and the USDA-Agricultural 
Research Service (USDA-ARS); underground water conservation districts; 
state land grant colleges; and agricultural commodity producer groups.
    The 2003-2011 funding to enact this proposed legislation, conduct 
resulting meetings, and publish subsequent reports could be better 
utilized to help implement more water conservation measures--such as a 
water reserve program, patterned after the successful Conservation 
Reserve Program (CRP). Such a program would provide financial 
incentives to agricultural producers to set aside their land and not 
pump ground water for a 10-year period.
    Let me say again that we believe ``local control is best control.'' 
Allowing state and local entities to direct water conservation efforts 
is best. By doing so, the federal government can accomplish its 
objectives in a manner that respects state law.
    I thank the Committee for the opportunity to offer the High Plains 
Underground Water Conservation District's concerns regarding S. 212.
                                 ______
                                 
    Mr. Neugebauer. Thank you very much. We have a great panel 
here. I am going to recognize myself for 5 minutes, and then I 
will recognize other members.
    Ms. Favila, this program is estimated to cost around $90 
million, and obviously we are in a difficult time now with 
trying to allocate Federal resources. How might this impact 
other programs that are important to the people in Plainview?
    Ms. Favila. Thank you. If we could be able to obtain 
additional funding, we could be able to restore the funding 
that was cut back from previous years. That would assist with 
rising operating and training costs. We could also be able to 
improve the ability of organizations to deliver a high-quality 
information technology training and services in isolated rural 
communities, not only in Plainview but throughout America.
    Mr. Neugebauer. Thank you.
    Mr. Arthur, what steps are the producers in your area 
taking to improve efficiency and to be better stewards of the 
aquifer?
    Mr. Arthur. Mr. Chairman, as I had mentioned in my talk, 
the efficiencies that I have used on my own operation, in 1998, 
I believe, in Crosby County, the county that I live in, we had 
somewhere in the neighborhood of 14 center pivots. Over a 10-
year period, that has grown to 500 center pivots. So with these 
new technologies in conservation, we have tremendously put a 
big input of our dollars into conservation of the water into 
the aquifer.
    Also, we have used different techniques with research on 
trying to find drought-related crops that are more tolerant to 
drought. So, therefore, we are using less of the aquifer to 
water our crops.
    And, finally, in years past, in the 1950s and 1960s, in 
irrigation online ditches were a common thing to find. Nowadays 
we use techniques such a poly pipe or other pipe to lessen the 
burden of that filtration, unneeded water filtrating through or 
percolating through the soil.
    Mr. Neugebauer. Thank you.
    Dr. Allison, Senator Bingaman indicated in a Senate 
hearing, and I quote, ``If the Administration had this as a top 
priority themselves, it would not be necessary for this 
legislation.'' How would you respond to that statement?
    Dr. Allison. Well, I think that is probably true, Mr. 
Chairman. One of the reasons we urge that this be drafted in 
legislation is that we have not seen the priority placed within 
the USGS to do the kind of cooperative studies that we think 
need to be done. And when we have gone and talked to Congress 
in the past, the concern has been that if we do it through 
simply the appropriation process, it pulls the resources away 
from other programs that were considered higher priority at the 
time within the USGS.
    So the intent was to go with a separate legislative 
approach to indicate that this is a high priority driven by the 
State and local needs, and instruct the USGS to treat it as a 
higher priority and to put the resources there that haven't 
been available to this point.
    Mr. Neugebauer. I think Mr. Hirsch said this morning that 
he really didn't think that we had an authorization problem, 
that we had an appropriation problem, that we have not been--
what kinds of commitment from the State, of your State, are 
going to this initiative, the research and monitoring of the 
aquifer? In other words, what is the commitment in your State 
to this issue?
    Dr. Allison. Mr. Chairman, in Kansas, we probably have the 
largest program of any of the eight States at the State level. 
The Kansas Geological Survey is the third largest State 
geological survey in the Nation and larger than any of the 
others in the region. And so because of our resources, we have 
been able to put more into this.
    But we have just completed a regional assessment, talking 
with our local districts, our water management districts and 
others, and all of them have a long laundry list of needs that 
they have that we are having trouble meeting. And so we have 
taken the leadership in bringing together the State geological 
surveys in the eight-State region, recognizing that we in 
Kansas have had more resources than they have had, and so they 
are much further behind. And every one we have talked to has 
indicated they need more resources.
    In terms of actual numbers, I probably have about a dozen 
people on my staff involved with water in all areas, and eight 
of those would be scientists. And out of those, probably half a 
dozen are working full-time or close to full-time on the High 
Plains Aquifer.
    Mr. Neugebauer. So this legislation really wouldn't be 
empowering you to do any more than you are doing as far as from 
an authorization standpoint? What you are really saying, if I 
hear you correctly, is that there are just more resources 
needed for this initiative.
    Dr. Allison. That is true. It does not change the 
authorization of what we do. We are authorized by the State to 
do what we do, as do all of my colleagues in the other States. 
It would provide resources and provide a higher priority within 
the USGS to provide that technical assistance. Each of us, if I 
have eight or ten people in my survey, they don't have the 
necessary specialization tools that we can get when we go to 
the USGS, which has hundreds of scientists working nationwide 
who have some great special technical capabilities that none of 
us can afford to maintain at the State level. So it would 
prioritize them working with us in the High Plains, being an 
area where this kind of research could be focused.
    Mr. Neugebauer. Thank you.
    The Chair then yields to the gentleman from New Mexico, a 
neighbor, Mr. Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Dr. Allison, it was mentioned earlier that $90 million over 
2 years. I wasn't clear whether that is 2 years or 10 years. I 
am a little murky on the Congressional Budget Office numbers. 
What do you think this would cost from what your estimate would 
be?
    Dr. Allison. Mr. Udall, the bill I think lays out an 8-year 
period in which this cooperation would be authorized. There was 
no number ever put in any of the drafts of the bill. We have 
used a number of approximately $10 million a year as a ballpark 
estimate of what we thought this program might take. One of the 
studies we have been doing in cooperation with the Ogallala 
Aquifer Institute is try to do a comprehensive assessment of 
what status each State and local jurisdiction is in, what do 
they need, and from that we hope to come back and build a 
rough--a closer budget rather than the rough one we have.
    The $90 million over 2 years I think is a 
mischaracterization. I have heard if we had $10 million for an 
8-year period, that would be a maximum of $80 million. But my 
understanding was that the Congressional Office that does 
estimates of what this might cost assumed that it would ramp up 
over a few years. And so their estimates may have been closer 
to $43 million, is what I recall, over an 8-year period.
    Mr. Tom Udall. All right. Thank you.
    Mr. Tillman, you mentioned that the local people in New 
Mexico and the Eastern Plains out there support this. Could you 
elucidate a little more the cities and the--and I think the 
State engineer has taken a position, too. Isn't that correct?
    Mr. Tillman. Mr. Chairman, Congressman Udall, our mayors of 
our larger communities, Clovis and Portales and some of the 
smaller ones like Melrose and Grady, did sign support letters. 
The harsh reality is that New Mexico is winning the race to the 
bottom of the aquifer. We are on the shallow side. And our 
State hasn't devoted the necessary resources, but we need the 
partnership with the Federal Government.
    We also haven't had the institutional capacity that maybe 
exists in Texas nor the funding to adequately understand the 
sub-units and the unique circumstances in localized areas. So 
we are working with the State engineer, who has indicated 
support for Senate bill 212, and the local governments 
recognize that they lack the technical expertise and the 
funding. At the State level, we are daunted by a multitude of 
water-related issues. So any attention brought to this by this 
bill and cost sharing I think is the only way we are going to 
actually get through the complexity and the partnerships that 
are necessary.
    If it is true no authorization is needed, then why has it 
been 22 years since we have had a comprehensive study?
    Mr. Tom Udall. Mr. Chairman, I would like to put into the 
record the letters from the local officials and our State 
Engineer, if that would be all right.
    Mr. Neugebauer. Without objection, so ordered.
    Mr. Tom Udall. Thank you.
    [NOTE: Letters submitted for the record have been retained 
in the Committee's official files.]
    Mr. Tom Udall. Mr. Tillman, as you know, and you have 
worked in water issues many years in New Mexico and were very 
protective of the State of New Mexico having control over its 
water and protecting our State water laws and things like that. 
Do you see in this Senate bill 212 an effort by the Federal 
Government to intrude on State water law? Or is this more of a 
cooperative type arrangement?
    Mr. Tillman. Mr. Chairman, Congressman Udall, I recognize 
the concern that had been expressed. I think our experience 
with surface water, the Endangered Species Act, and other 
issues certainly make everyone at the local level in these 
Western States sensitive and concerned about those issues.
    I would point out that the Ogallala Aquifer, the High 
Plains Aquifer, doesn't care where the political boundaries 
are, the watershed doesn't care where the boundaries are. It 
just does what it does. So I don't see the intrusion here. 
Certainly, in the past, with the production of these maps that 
have been presented, I don't think there was anything with a 
regulatory implication there.
    So I understand the concern, but I don't see in the bill 
the Federalization prospect that has been suggested by other 
panelists.
    Thank you.
    Mr. Tom Udall. Thank you, Mr. Tillman, and thank you to the 
rest of the panel.
    Mr. Chairman, I yield back.
    Mr. Neugebauer. Thanks to the gentleman.
    I recognize the gentleman from Kansas, Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you very much. I appreciate 
this Subcommittee's indulgence of allowing me to join you at 
least in part today and appreciate the testimony of the 
witnesses that I have read and heard.
    Dr. Allison, you indicated that really what this is is an 
issue of resources, needing additional dollars in order to do 
things that can't be done. Your State geological survey may 
have additional resources as compared to the other seven 
States. Is there a component that is missing in regard to 
cooperation? If you had the resources, do you need anything 
more to get the research to be done across the Ogallala, across 
the High Plains Aquifer in all States? Will that happen if you 
have the dollars?
    Dr. Allison. We are trying to make it happen, Mr. Moran, by 
developing this High Plains Aquifer Coalition. Three years ago, 
we took the lead in building that because we recognized that 
there had not been the priority and the cooperation, and we saw 
all of our States suing each other over issues where we were 
affecting the aquifer by taking water out of rivers or, vice 
versa, affecting rivers by taking water out of the aquifer.
    We weren't seeing the kind of cooperation or the 
implementation of existing programs at the USGS that we felt 
were necessary. So we took the first steps on our own. But as 
we have worked together over the last 3 years, we have 
recognized that resources were a critical part of it and also 
raising the priority within the USGS that this is where their 
internal resources, their internal focus ought to be. But 
primarily resources would----
    Mr. Moran. If you had the resources, would this entity that 
you created 3 years ago conduct the research or monitor, 
organize, direct the research?
    Dr. Allison. The organization itself would not, but the 
individual States and local entities. The way this bill was 
crafted is that 50 percent of the money to the States goes to 
State and local groups that put forward the research that is 
requested at the State and local level. So no research would go 
forward unless it was requested at the local level, and the 
review panel is in place, dominate by State-appointed folks to 
make sure that it is State-driven research meeting State needs 
and State priorities.
    Mr. Moran. So, in every instance, the eight States that 
make up the High Plains Aquifer would be the ones who are 
deciding what research needs to be conducted within their 
State, and they would have the opportunity to direct the 
direction that the research goes.
    Dr. Allison. That is correct, sir.
    Mr. Moran. One of the things that has always seemed 
important to me on this issue is what we have done in Kansas in 
regard to trying to extend the life of our oil and gas 
production, and we have, with the help of the geological 
survey, found new technologies, new science that is making 
progress in extending the opportunity for us to mine oil and 
gas in our State.
    Is there analogy to what we can do with water? If we had 
the kind of information knowledge and research that we are 
developing in the oil and gas industry available to those who 
make decisions about the use of the Ogallala, can we extend--is 
the oil and gas research an example of what we can do, a role 
model that will demonstrate we can make a difference?
    Dr. Allison. Mr. Moran, that is absolutely true, and my own 
personal background comes from working many years within the 
oil industry. And what we have seen over the last 30 years or 
so, from billions of dollars invested by the oil companies, a 
way to characterize the geologic framework that holds the oil, 
and that technology, those understandings, have not been fully 
implemented in the groundwater area. We haven't had that same 
billions of dollars of investment, but we can learn from them. 
We can take that technology, those understandings.
    And what we have discovered with the High Plains Aquifer, 
and particularly the Ogallala portion of it, it is a very 
complex geologic unit. It is not a sponge that you stick a 
straw into and suck water out; it is an old ancient river 
system, five to six million years old, where rivers meandered 
over geologic time back and forth the countryside, and so in 
one place you may have multiple river channels stacked up; in 
other place, it may be the silty or muddy overbank areas piled 
up.
    We are working with Groundwater Management District No. 4 
in Kansas to define their unit, their aquifer into subunits so 
that when they make a decision based on the best data they 
have, we make sure they have not picked a really good spot of 
the aquifer or a really bad spot of the aquifer and applied 
that across the region. It is the same technology that the oil 
industry has used to extend the life of their oilfields, 
doubled the life of oilfields in many cases. And so by doing 
this subunit level characterization and making decisions based 
on local variations in the geology, we can employ the same 
technology that is keeping the oilfields alive, we can keep our 
aquifers alive in the same way.
    Mr. Moran. My time has about expired. So, if you can answer 
this very briefly, is there any question, scientific question 
that what happens in Nebraska or South Dakota affects the 
Ogallala in Kansas or Texas or New Mexico? Is there any 
question about the interrelationship between the aquifer across 
those State borders?
    Dr. Allison. The aquifer is a three-dimensional body, and 
the water moves back and forth, and what happens in one part of 
the aquifer can have an affect on it some distance away.
    Mr. Moran. And what you are attempting to do or the concept 
behind this legislation is supported by groundwater management 
districts in Kansas who operate similar to the ones in Texas as 
well. They just have a different opinion about the value of 
what we are doing here; is that true?
    Dr. Allison. That is correct. We have had the support from 
the groundwater management districts, the Kansas Water 
Authority, the Western States Water Council, and I understand 
that Governor's Cabinet in Kansas was preparing a letter to 
send as well.
    Mr. Moran. I agree with the gentleman, Mr. Conkwright, who 
testified about managing and handling water at the State and 
local level. Certainly, that is where we want to be. The 
question I think we have is where does the research need to be 
done or how could we get the resources on a broader basis. I 
also appreciate the compliment about the EQIP program. It is a 
Moran provision in the farm bill to try to provide some 
incentives for conservation, and I am glad to know that that 
was not seen as a threat to local use of water. We are glad 
here to try to cooperate with you.
    I appreciate the panel's testimony and thank the Chairman 
for his indulgence.
    Mr. Neugebauer. Thank the gentleman.
    Just for your information, Congress has adjourned, and 
there is a security situation where no one is being currently 
allowed to enter any of the House buildings or leave the House 
buildings. The Capitol Hill Police have encouraged everyone to 
stay just where we are for a while. We will keep you abreast of 
that. The good news is we have a very good Capitol Hill Police 
force, and whatever issue is there, I know they will take care 
of it quickly.
    So we are going to have a little time for some additional 
questions. We could be here for a while.
    [Laughter.]
    Mr. Neugebauer. Mr. Conkwright, there has been a lot of 
discussion about trying to relate what the oil industry knows 
about the geological formations in the oil and gas industry and 
what we do or do not know about the High Plains Aquifer. What 
other things, in your estimation, about the aquifer do we not 
know?
    Mr. Conkwright. Congressman, I think one of the things that 
is fairly unknown across the breadth of it, because it is so 
site specific, is information on recharge. We have just entered 
in or we are entering into an agreement with the Texas Water 
Development Board, and we will be starting in January 2004--
actually, probably December--a new recharge study for our 15 
counties.
    But I think this area is one that certainly could use more 
research. How it works, where it works, there is a lot of 
unknowns in that area.
    Mr. Neugebauer. In the High Plains Water District, are you 
all doing, you said you have just got this new study. What kind 
of time frame on getting that program up and going?
    Mr. Conkwright. We should have our, basically, the sites 
that we will be working with identified, but we are shooting 
for the 1st of April because we want those in place before our 
normal rainy season begins. I would like to even have them in 
by March 15th. We will be working with personnel from the Water 
Development Board matching some funds and matching personnel, 
installing some equipment, some ideas that we are just going to 
try some different things that haven't been done, some that 
have, and monitor those. Our staff will be doing the monitoring 
and reporting to the State.
    Let me say this. Back in even the mid-1970s we had recharge 
projects there within the district. My predecessor was very 
active in working on recharge, and it is difficult. There are 
newer techniques maybe available now than we had 30 years ago, 
25 years ago, so we are anxious to get back into that area.
    Mr. Neugebauer. Thank you.
    The Chair just wants to make some observations, both as 
resident that lives in an area directly affected by the High 
Plains Aquifer and in listening to the testimony today. You 
know, number one is there seems to be a varying degree within 
the States of emphasis on this issue, and certainly I don't 
think the Federal Government ought to mandate emphasis. I think 
that the States certainly that are in this area ought to make 
this a priority if, in fact, they are deeply concerned about 
that.
    I think the other thing that I, the continuing theme of 
this is it is a resource issue and not an authorization issue, 
and certainly Mr. Moran has led the charge in making sure that 
some of the issues are addressed in the farm bill.
    I think maybe what this hearing may have brought forward is 
a need to emphasize in future appropriation bills the ability 
to fund additional resources for that.
    I think the good thing that I hear about what is going on 
is this coalition that is put together. Having been around this 
process from a local Government official and working on issues 
important to the region where I come from, I find that these 
coalitions that are formed, whether they bring together a theme 
and some synergy within themselves, those tend to be more 
productive than those ones that have some kind of a Federal 
mandate and that we create panels and layers of bureaucracy on 
how the money is going to be spent. Because you know it takes 
months, if not years, sometimes to write all of the regulations 
that might be imposed on that. Whereas, a coalition that has a 
game plan and a target and what they want to accomplish is much 
more fluid than something that the Federal Government might 
form.
    And so, for that reason, I am not going to be able to 
support this bill, but what I am supportive of is more 
conservation research, more research dollars to work with the 
coalition to see if there are other ways that we can improve 
the quality and the quantity and get a better handle on the 
aquifer.
    Is there any other questions of any of the panel members?
    [No response.]
    Mr. Neugebauer. There seems to be--I am all by myself, all 
alone.
    Just as a parting, any other member of the panel want to 
make a----
    [No response.]
    Mr. Neugebauer. Thank you very much for your travel and 
coming. This was very informative for us, and I appreciate your 
comments. If there are no other questions, this panel is 
dismissed, and this hearing is adjourned.
    [Whereupon, at 1:58 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter to Chairman Richard Pombo and Chairman Ken 
Calvert submitted for the record by The Honorable Randy 
Neugebauer,, et al., follows:]

[GRAPHIC] [TIFF OMITTED] T0157.012

[GRAPHIC] [TIFF OMITTED] T0157.013


    [NOTE: Additional letters submitted for the record on H.R. 
3334, H.R. 3391 and S. 212 have been retained in the 
Committee's official files.]

                                 <all>

</pre></body></html>
